<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Collins, Blunt, Daines, Moran, 
Durbin, Leahy, Tester, Udall, Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

           National Guard and Reserve Programs and Readiness

STATEMENT OF GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL 
            GUARD BUREAU


               opening statement of senator thad cochran


    Senator Cochran. We want to welcome everybody to the 
hearing this morning of the Defense Appropriations Committee. 
The National Guard and Reserve is the subject of the hearing, 
and we welcome our witnesses and those who serve in these 
important positions.
    Today, we are receiving testimony on the programs and 
readiness of the National Guard and Reserve components. We are 
very pleased to welcome the Chief of the National Guard Bureau, 
General Joseph L. Lengyel; Chief of the Army Reserve, 
Lieutenant General Charles D. Luckey; Chief of the Navy 
Reserve, Vice Admiral Luke M. McCollum; Commander of Marine 
Corps Forces Reserve, Lieutenant General Rex C. McMillian; and 
Chief of the Air Force Reserve, Lieutenant General Maryanne 
Miller.
    Our guardsmen and reserves have been regularly called upon 
since 2001 to deploy in support of our Nation's wars abroad and 
to protect our citizens at home.
    As a result, active duty and reserve components are fully 
integrated today more than at any time in this modern era. This 
level of integration requires Guard and Reserve units to be 
sufficiently manned, trained, and equipped.
    We are very proud of our soldiers, seamen, airmen, and 
marines, and hope our witnesses will carry this message of 
support back to your units.
    Your full statements will be included in the record.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    We want to welcome everybody to the hearing this morning of the 
Defense Appropriations Subcommittee. The National Guard and Reserve is 
the subject of the hearing, and we welcome our witnesses and those who 
serve in these important programs.
    Today we are receiving testimony on the programs and readiness of 
the National Guard and Reserve Components. We are very pleased to 
welcome Chief of the National Guard Bureau, General Joseph L. Lengyel; 
Chief of the Army Reserve, Lieutenant General Charles D. Luckey; Chief 
of the Navy Reserve, Vice Admiral Luke M. McCollum; Commander of Marine 
Corps Forces Reserve, Lieutenant General Rex C. McMillian; and Chief of 
the Air Force Reserve, Lieutenant General Maryanne Miller.
    Our Guardsmen and Reservists have been regularly called upon since 
2001 to deploy in support of our Nation's wars abroad and to protect 
our citizens at home. As a result, active duty and reserve component 
forces are more fully integrated today than at any time in the modern 
era.
    This level of integration requires Guard and Reserve units to be 
sufficiently manned, trained and equipped.
    We are very proud of our part-time soldiers, seamen, airmen and 
marines, and hope our witnesses will carry this message of support back 
to your units.
    Senator Cochran. And I am pleased now to recognize my 
friend from Vermont.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you Mr. Chairman.
    And I am glad you and Senator Durbin are having this 
hearing.
    The National Guard and Reserves are very dear to my heart. 
And Senator Graham, Lindsey Graham and I, are the co-chairs of 
the Senate's National Guard Caucus. And one of the things that 
we have found is that at a time when people are polarized, one 
thing that brings us together, Republicans and Democrats, is 
support of the Guard as our appreciation and commitment to 
support the citizen soldiers of the National Guard and 
Reserves.
    And we are working as you and I am, Mr. Chairman, to 
negotiate a bill to keep our Government funded. It is worth 
remembering that our decisions here in Congress by how to fund 
the Government and national defense directly impacts how both 
of our National Guard and Reserve respond to threats at home 
and abroad.
    They were there to respond to them when I first came to the 
Senate, but that response has greatly intensified in the years 
I have been here. Not only the response at home on natural 
disasters and other areas, but the defense of homeland and 
overseas.
    General, your son was deployed overseas to a combat area 
when the Vermont National Guard was there, flying sorties and 
combat missions, and also I will brag more about them later. 
But let me put my full statement in the record so we can begin.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Thank you, Chairman Cochran and Ranking Member Durbin, for holding 
this important hearing on a review of the budget and readiness of the 
National Guard and the Reserves.
    I can think of few issues in the Senate as bipartisan as the 
enthusiastic support for our citizen-soldiers. For over a decade--
longer in some services--the National Guard and Reserves have left 
behind the old Cold War model of a strategic reserve meant to 
intimidate adversaries with how many units could be called up in the 
event of total war. It has instead evolved into an operational reserve, 
where men and women hold civilian jobs, but answer the Nation's call to 
provide their experience and expertise.
    We also know this use will expand, as we enter an era when each of 
the Services have begun to plan deployments for Reserve Component units 
and individuals in advance because the reduction in the active duty end 
strengths means the Nation needs their service more often. This will 
maintain high-functioning Reserve Components at a fraction of the cost 
of the Active Duty, while also allowing our active force to better be 
ready for the major challenges known as full-spectrum operations.
    What has not changed enough is how planners and policy-makers in 
Washington view the Reserve Components. Even the phrase ``operational 
reserve'' is itself only beginning to be widely accepted. When we look 
at the benefits provided to service members, the support for families, 
and the laws surrounding employment, we see the system designed for the 
strategic reserve updated in an ad hoc fashion for the operational 
reserve. For example, a Guardsman deployed to a pre-planned operation, 
such as in Kosovo, legally does not have access to the same benefits as 
an active duty soldier performing the same mission. That needs to 
change. And we will need the help of each of you to identify similar 
policies and personnel issues that stand in the way of realizing the 
potential of an operational reserve.

    Senator Cochran. Thank you very much.
    Let me begin by recognizing the Chief of our National Guard 
Bureau, General Joseph Lengyel. We are proud to have a very 
important, hard working, and successful array of witnesses and 
leaders today to discuss the budget requests and operational 
capabilities of our forces.
    And we will start by recognizing the Chief of the National 
Guard Bureau, General Joseph Lengyel, for any statement you may 
want to make.

             SUMMARY STATEMENT OF GENERAL JOSEPH L. LENGYEL

    General Lengyel. Thank you, Chairman Cochran, and Vice 
Chairman Durbin, and distinguished members of this 
subcommittee.
    Thank you for giving me this opportunity to testify before 
you today. And of course, it is great to sit in the line here 
with friends in front of the subcommittee.
    It is a pleasure to be here today with my fellow Reserve 
leaders and I would like to submit my full written statement 
for the record.
    Although I wear an Air Force uniform, I am honored to 
represent the 343,000 citizen soldiers of the Army National 
Guard, as well as the 105,000 citizen airmen of our Air 
National Guard.
    And I would like to thank the families, the communities, 
the employers, all who support each and every one of them every 
day.
    My focus is on our three primary missions, the war fight, 
defending and securing our homeland, and building enduring 
partnerships. The National Guard is tremendously appreciative 
for this committee's support in enabling us to accomplish these 
three missions.
    This committee's support results in a National Guard that 
works seamlessly with its active component counterparts 
defending the Nation's interests around the world in every 
combat and command.
    Since 9/11, the Guard has mobilized nearly 850,000 citizen 
soldiers and citizen airmen conducting complex operations 
around the globe supporting the war fight.
    Here in the homeland, your continued investment supports, 
on average, more than 4,000 citizen soldiers and airmen every 
day conducting domestic operations. Your National Guard Fighter 
Wings are protecting our Nation's skies, including the skies 
over the national Capital region, here today through our 
aerospace control alert sites.
    Our civil support teams are strategically positioned 
throughout the United States to protect against weapons of mass 
destruction. Our cyber units secure our critical 
infrastructure. Soldiers and airmen in our counterdrug programs 
detect, interdict, disrupt, and curtail drug trafficking.
    And the National Guard Ballistic Missile Defense battalions 
defend against intercontinental ballistic missile threats.
    On top of all this, this National Guard stands ready to 
respond to natural disasters such as hurricanes, floods, 
snowstorms, and to assist law enforcement with civil unrest, 
missions that the National Guard performs with little or no 
notice. When it comes to the homeland, we are always ready and 
always there.
    Of course, this same investment that facilitates the 
National Guard's success in the war fight in the homeland 
operations helps build enduring partnerships with 
international, Federal, State, local, and Tribal partners.
    The National Guard, through the State Partnership Program, 
currently partners with 78 nations and will soon be 79 once we 
formalize the partnership with Malaysia. This low-cost program 
reassures our allies, deters potential aggressors, and 
generates partner contributions and coalitions around the 
world.
    On the Federal, State, and local level our partnerships and 
National Guard unique authorities ensure a timely response and 
unity of effort during these times of crisis. Our Nation is 
currently facing significant and evolving security challenges 
both at home and abroad. These challenges are the reason why we 
require stable and predictable funding. We cannot accomplish 
our missions without the proper resourcing.
    This committee's support of manning, training, and 
equipping is needed to maintain your National Guard as the 
operational reserve of the Army and the Air Force that it has 
become.
    The same Force that is called upon by the governors in 
times of need here in the homeland, support for such things as 
full time manning is absolutely critical to produce a ready 
National Guard Force for both global and homeland operations.
    Continued support for programs such as the State 
Partnership Program and Counterdrug Program allow the National 
Guard to successfully accomplish the mission America has come 
to expect from us.
    We continue to work closely with the active Army and the 
active Air Force, and the collaborative efforts following the 
Air Force and Army commissions that have resulted in a stronger 
total Force.
    The National Guard is more interchangeable and 
interoperable with the Army and the Air Force than ever before. 
I would like to offer my sincere appreciation to General 
Goldfein, Chief of Staff of the Air Force, and General Milley, 
Chief of Staff of the Army, for their leadership in this 
transformative process.
    Again, I am honored to be here today representing the men 
and women of the National Guard, and the families and employers 
who support them.
    I thank you and this Committee for your continued support 
and I look forward to your questions.
    [The statement follows:]
            Prepared Statement of General Joseph L. Lengyel
    Chairman Cochran, Vice Chairman Durbin, and distinguished members 
of the subcommittee, it is a pleasure to be here today with my fellow 
National Guard and Reserve Leaders.
    Always Ready, Always There . . . this is the motto of America's 
National Guard. It embodies the character and spirit of all those who 
have served in the National Guard from its founding in 1636 to those 
serving today. From militia companies mustering on village greens in 
response to Paul Revere's warning, to the ever-evolving and complex 
world that we live in today, the National Guard is more resilient, 
relevant and ready than ever before.
    Since assuming my duties as Chief of the National Guard Bureau last 
summer, I have traveled and talked to the men and women of our National 
Guard serving in the homeland and abroad. The locations were different 
and the missions varied, but what I took away from each encounter was 
the pride I felt in our Guard members and the dedication each of them 
exhibited in serving their communities, their States and our Nation. 
Today's National Guard is the finest we have ever had.
    Our security environment is more dynamic and complex and our Nation 
places greater reliance on its National Guard. This is why my focus 
every day is to ensure we are ready and we have the resources to 
accomplish our three core missions--fighting America's wars, securing 
the homeland, and building enduring partnerships at the local, State, 
Federal and international levels.
                                warfight
    Fighting America's wars and defending our Nation must be our 
primary mission. From Brigade Combat Teams deploying on schedule to get 
into the fight as fast as air and sea lift can move them, to flying 
manned and unmanned platforms anywhere around the world--we are the 
primary combat reserve of the Army and the Air Force.
    After 9/11, our National Guard began its transition to the 
operational force it is today. Since then, Guard members have deployed 
more than 850,000 times to locations such as Iraq, Afghanistan, Kuwait, 
the Balkans, Guantanamo Bay, and the Sinai. Today, we are an 
operational force that fights seamlessly with the joint force. With the 
implementation of Total Force initiatives with the Army and Air Force, 
we are more closely integrated than ever before.
    Our interoperability with the joint force will deepen and evolve as 
we confront future threats--threats that are now global, emanate from 
all domains, and are adaptable and multi-functional in their forms. 
Only a well-integrated and well-trained force will keep our Nation safe 
and secure our national interests.
    On any given day, the National Guard has approximately 18,000 
Soldiers and Airmen mobilized in support of combatant command missions 
overseas. During my visits with our men and women, I was told time and 
again they wanted to do more and they were not tired. I know we can 
judiciously increase our deployment numbers to relieve stress on active 
duty forces and help them grow readiness to address emerging threats.
                                homeland
    Here in the homeland, the National Guard is the Nation's primary 
military crisis response force. We use the experience and capabilities 
we gain from combat to respond to threats here at home such as 
Chemical, Biological, Radiological and Nuclear (CBRN) attacks, large 
scale natural disasters, and cyber-attacks.
    In order to be more prepared and have the ability to respond 
quickly and effectively, the National Guard Bureau initiated an All-
Hazards Support Plan to help state Adjutants General plan and execute 
response and recovery operations, and provide the Secretary of Defense 
greater awareness of non-Federalized Guard activities.
    On average, more than 4,000 Guard members conduct operations here 
in the United States on any given day. Whether we are providing 
security forces, logistics, communications, emergency medical 
assistance, or other types of support to civil authorities, we do it 
with speed and proficiency. We also help facilitate a unified response 
across local, State and Federal agencies using legal authorities that 
permit the Guard to be employed under State or Federal command.
    In my first 120 days as Chief of the National Guard Bureau, our 
Nation encountered two large-scale disasters, flooding in Louisiana and 
Hurricane Matthew on the East Coast. At the height of the record 
flooding in Louisiana, approximately 3,000 Guard members supported 
civil authorities with water evacuation, search and rescue, and shelter 
support. During Hurricane Matthew, over 8,300 Guardsmen and women 
worked with our Federal, State and local government agencies and first 
responders to support recovery efforts along the eastern seaboard.
    Although these events serve as reminders of the devastation that 
disasters can wreak on our communities, businesses, and families, I am 
inspired by the skill, professionalism, and dedication I witnessed from 
our Guard members. I could not be more proud of how seamlessly, and 
professionally we augment and integrate our entire emergency response 
network. The National Guard is essential to All Hazards recovery and 
the resilience of our communities when disaster strikes.
    While our combat and homeland response missions are what we do, 
building enduring partnerships is an essential part of how we do it. We 
accomplish our missions overseas and at home only through the 
partnerships we forge at the international, Federal, State and local 
levels. The relationships that the Guard develops on a continuing basis 
play a critical role in our ability to maintain preparedness and 
respond quickly to disasters and emergency events.
                         building partnerships
    On the international level, our State Partnership Program (SPP) 
will be 79 nations strong once we formalize our partnership with 
Malaysia. The SPP allows us to partner with nations around the globe to 
realize mutual understanding, friendship, and security cooperation. 
This low-cost, high-leverage program has built enduring partnerships 
and bonds of trust with approximately one-third of the nations in the 
world--relationships that assure our allies, deter our foes, and 
support the transition of many nations from security consumers to 
global security providers. This program is a part of the long game. We 
build relationships, friendships, and build our future.
    On the Federal and State levels, we work with our partners on 
matters such as cyber defense; counterdrug; all-hazards planning; CBRN 
defense; and emergency response. Close relationships with partners such 
as the Department of Homeland Security, including the Federal Emergency 
Management Agency, are essential in helping to synchronize Federal, 
State, and local efforts and resources when disasters strike. National 
Guard partnerships bring a holistic approach to coordination that 
promotes unified response efforts and an exchange of information 
before, during, and after an event. We build and provide resiliency in 
our communities and help our Nation respond, rebuild, and heal from 
catastrophes like no other military component.
    Across the Nation in hometown America, our Guard members are active 
in both Federal and State statuses with programs and services such as 
Youth ChalleNGe, Joining Community Forces, and rendering military 
funeral honors for veterans. These programs provide critical support to 
families and individuals when they need it the most.
    Our Nation faces a myriad of challenges. Emerging near-peer 
competitors, rising regional powers, and the constant threat of violent 
extremist organizations pervade our security environment. Threats 
emanate from both State and non-State actors, who often conduct 
operations that stop short of direct conflict, yet provoke, disrupt, 
and destabilize--both abroad and here at home. Resource challenges 
require we make every dollar count.
    In response to these challenges, I have established three 
priorities I will focus on during my time as Chief of the National 
Guard Bureau.
                               readiness
    My first priority is to provide ready forces to the President and 
our Governors. Readiness begins with our force structure. I am working 
with the Army and Air Force to have a balanced array of combat and 
enabling forces that largely mirrors the active component and is 
modernized concurrently. We must prepare by providing high-level 
collective training opportunities such as Combat Training Center 
rotations and Red Flag exercises. Realistic training improves the 
readiness of the National Guard and develops leaders that are able to 
support joint force requirements.
    Readiness also includes plans to replace and upgrade obsolete or 
aging National Guard facilities and warfighting equipment. Ensuring 
proper training facilities and the latest equipment greatly enhances 
the readiness of our force.
                          army national guard
    For the Army National Guard, Total Army readiness continues to be 
the top priority. The Nation must ensure all three components of the 
Army are trained and interoperable to project land and air power across 
all warfighting domains. The Army began its Associated Units pilot 
program, a multi-component initiative bringing together capabilities 
from the Army, the Army National Guard and Army Reserve. These 
partnerships allow our soldiers to train and build readiness together 
as a Total Army.
    In order to achieve and maintain our readiness, the Army National 
Guard is identifying the appropriate levels of end strength, full-time 
support, and modernization such as Armored Brigade Combat Teams, 
Stryker Brigade Combat Teams and aviation platforms. We are also 
reviewing the locations of our Army National Guard Readiness Centers, 
some of which are in isolated rural areas, to ensure our stationing 
reflects changing U.S. demographics. It will also give us the ability 
to respond to emergencies in densely populated areas.
                           air national guard
    The Air National Guard continues to leverage its existing model of 
multi-component forces with its associate wings. The Air Force and the 
Air National Guard maintain the same standards of operational readiness 
and cross-component operational capabilities for daily and surge 
operations. Developing 21st Century Guard Airmen, readiness, and 
modernization and recapitalization are essential Air Guard efforts. 
This past year, National Guard Airmen supported more than 16,120 
deployment requirements to 56 countries. At home, we are the primary 
force provider to the North American Aerospace Defense Command 
protecting America's skies, while continuing to respond to State and 
local emergencies when requested. The Air National Guard is always 
ready when our Nation calls.
                                 people
    My second priority is our people. The well-being of our Soldiers 
and Airmen, including support for our families and employers, is the 
foundation that underpins our service. We are committed to establishing 
a respectful environment that always strives for a diverse force where 
all members have the opportunity to reach their military goals. Acts 
that demoralize units and degrade readiness, such as sexual assault and 
sexual harassment, will never be tolerated. We must ensure all victims 
receive our utmost support and care.
    The number of Soldiers and Airmen taking their own lives is a 
tragedy. Simply put, we can and will do more to prevent suicides. We 
will ensure first-line supervisors, battle buddies and wingmen have the 
training they need to look out for each and every Soldier and Airman. 
We will place great emphasis on mental health programs and provide 
resiliency training to units and leaders as we strive to prevent 
further suicides in our ranks.
    We will also ensure increased awareness of family readiness 
programs and employment assistance programs so that families know where 
to turn for help. We will do our best to provide our Guard members and 
their families more predictability in order to better plan and prepare 
for deployments and training obligations. We owe these measures to our 
service members and their families for their dedicated service and the 
sacrifices they undertake for our Nation.
    Employers are critical to the success of the National Guard. Our 
employers deserve the same predictability as our service members and 
families, particularly if our deployments increase in the future. The 
National Guard benefits from our part-time force's civilian skills and 
experience, which is a unique strength of the reserve components. In 
return, our employers can leverage the military training and experience 
our Guardsmen and women take back with them. It is truly a win-win 
situation.
                               innovation
    My third priority is innovation. As the character of war and 
threats continue to evolve, creative minds are necessary more than 
ever. We need to develop imaginative solutions to our most serious 
challenges. We must inspire a culture willing to change. While we have 
been fighting for the past 15 years, the rest of the world has not 
remained idle. Our adversaries have improved their technology and our 
technological superiority is waning.
    The National Guard will continue to work with our active component 
counterparts in high-priority mission sets such as Intelligence, 
Surveillance, and Reconnaissance and Remotely Piloted Aircraft. Our 
ability to use our civilian-acquired skills and partner with critical 
infrastructure owners, government entities, public and private 
utilities, and other non-governmental organizations uniquely positions 
the National Guard to protect America's critical infrastructure.
    Although innovation often relates to technology, we also have to 
think about innovation in other ways. We have to leverage our culture, 
our skill sets, our authorities, and our way of doing business. 
Innovation will help us strengthen our ability to recruit and retain, 
forge the most resilient force, implement more efficient processes, and 
update obsolete doctrine in order to better protect our States and 
Nation.
                               conclusion
    I am proud to serve with each and every member of the National 
Guard. Although we have daunting challenges ahead, we will employ our 
skills to the fullest and continue to contribute in ways not seen 
before. Every Citizen-Soldier and -Airman is indispensable to our 
operational force, and we can succeed only through their commitment and 
extraordinary talent. We must strive to be more innovative, responsive, 
capable, and affordable as we continuously move forward to confront the 
challenges ahead.
    Thank you for your continued support of the National Guard and 
their families.

    Senator Cochran. Thank you very much.
    We will now hear from the Chief of the Army Reserve, 
Lieutenant General Charles D. Luckey.
STATEMENT OF LIEUTENANT GENERAL CHARLES D. LUCKEY, 
            CHIEF, ARMY RESERVE
    General Luckey. Chairman Cochran, Ranking Member Durbin, 
distinguished members of the subcommittee.
    Thank you for the opportunity to appear before you this 
morning.
    It is an awesome honor for me to represent the 200,000 
soldiers of America's Army Reserve who are serving today across 
20 time zones around the globe. On behalf of them, the 
families, and employers of America, the Department of the Army 
civilians who support us, I want to thank each of you for your 
unwavering sustainment and commitment to this team.
    Mr. Chairman, as I enumerate in my posture statement and my 
role as the Chief of Army Reserve and Commanding General of the 
United States Army Reserve Command, I am attuned to persistent 
presence of asymmetric threats of terrorism and radical groups, 
as well as the emerging and compelling challenge presented by 
our near peer competitors, potential adversaries with the 
capability, propensity, and willingness to contest American 
military power in all domains. We have not faced these 
conditions for over a quarter of a century and the Army Reserve 
must take action, along with the rest of our army, to meet the 
new and evolving threats.
    In this emerging environment, an operational reality with 
the lethality and complexity of the battle space presents new 
challenges to our army. America's Army Reserve practice of 
building rotational readiness in units over time will no longer 
suffice.
    Rather, I must prepare our units for a full spectrum 
operational environment. This includes making ready significant 
portions of our team to be able to go fast, in some cases days 
or weeks, in order to immediately complement and augment active 
component formations that rely on America's Army Reserve to 
fight and win on the battlefield on the first day.
    In this new threat paradigm, some 300 units of action, 
approximately 30,000 soldiers, need to be able to deploy into 
harm's way in less than 90 days, many in less than 30. 
Moreover, we need to deliver units with the mobility, 
survivability, connectivity, and lethality needed to win on the 
modern battlefield.
    As always, consistent, predictable funding for essential 
training, and equipping, and modernization is crucial to that 
success. A flexible degree of funding remains critical to the 
Army Reserve. It is a superb tool which, in accordance with 
your guidance, enables me to procure certain high priority 
capabilities that can be used for both combat and as 
appropriate domestic response operations. I thank all of you 
for your continued support in this regard.
    Let there be no doubt that my team's number one priority is 
readiness. In fact, as I testify today, America's Army Reserve 
is wrapping up the largest crew served weapons gunnery exercise 
in its history, Operation Cold Steel at Fort McCoy, Wisconsin.
    We rapidly accelerated the training and qualification of 
master gunners, vehicle crew evaluators, and individual 
soldiers while reinvigorating our noncommissioned officer corps 
by allowing them to execute their core role in our army 
training and leading our soldiers where the lead hits the air. 
This is money and time well spent and much needed as we move 
into the future.
    That said I want to reiterate the message I shared with the 
American people on the Army Reserve's 109th birthday this past 
Sunday morning in Times Square with the Army's Noncommissioned 
Officer of the Year, Josh Moeller and his wife Lisa. Josh, by 
the way, is an Army Reserve soldier.
    Our team relies on our families, the communities that 
support them, the persistent willingness of America's employers 
to share their finest talent with us in working the delicate 
balance between being ready enough to be relevant, but not so 
ready that my soldiers cannot keep good, rewarding civilian 
employment. I will never forget that fact.
    Mr. Chairman, America's Army Reserve has always met the 
challenges of the time. With the committee's help, we will 
continue to provide the capabilities, the readiness, live the 
example, and exude the ethos that the people of the United 
States expect.
    We will remain your premiere team of skilled professionals 
serving the Nation as both soldiers and engaged civilians 
around the globe. It is just who we are.
    Thank you and I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Charles D. Luckey
    For the past 15 years, the United States has embarked upon a far-
reaching battle to defeat the forces of radical terrorism and bring a 
measure of peace and stability to a region that presented a direct 
threat to the safety and security of the American people. While this 
undertaking focused our time, treasure and attention on 
counterinsurgency and counterterrorism, current and potential 
adversaries seized the opportunity to study our tactics and invest in 
the modernization of their forces and capabilities.
    Russia is arguably the best case in point. Having developed, tested 
and operationalized significant capabilities across all domains, Russia 
has clearly demonstrated its prowess as a global competitor, and its 
propensity to unilaterally use military force to achieve its perceived 
security objectives. China's emerging capabilities across a variety of 
domains, coupled with its own economic objectives, make it a rising 
challenge to American security partners in the Western Pacific. Less 
capable as a competitor, but arguably more immediately problematic as a 
strategic challenge, North Korea's unyielding quest for a road-mobile 
intercontinental ballistic missile (ICBM) that can reach the United 
States with a nuclear warhead raises obvious concerns that could drive 
hard choices for America. Iran's funding of terrorism and pursuit of 
highly-capable missile technologies can reliably be expected to 
continue into the future. Taken together, these developments, combined 
with emerging technologies in hypersonics, cyber-strike, artificial 
intelligence and digital disruption, create a new and disrupting threat 
paradigm for the United States and its allies.
    U.S. dominance in positioning, navigation and timing, stealth 
technologies, global reach, global command and control (C2), air 
supremacy, space operations and all aspects of maritime flexibility 
have been the foundational underpinning of America's relative freedom-
of-action in military operations. Indeed, the vast majority of Soldiers 
serving today have never experienced a time in which America's status 
as the preeminent global military power was open to challenge or 
contention. Nor have they been subject to an operating environment in 
which large concentrations of U.S. troops, supplies, or C2 nodes could 
be strafed; however, U.S. technological supremacy on the battlefield is 
a planning assumption we can no longer take for granted--in fact is 
quickly eroding. Such an environment demands that America's Army 
Reserve be ready to operate in a full-spectrum environment that spans 
the continuum from persistent asymmetric warfare against the forces of 
radicalism and threat networks to the high-end demands of one or more 
peer competitors. We must move quickly to deliver the mobility, 
survivability, connectivity and lethality to win on the battlefield of 
tomorrow.
    America's Army Reserve has always risen to meet the challenges of 
our time, evolving from a nascent corps of doctors and nurses, to an 
Organized Reserve and, later, a strategic reserve under Federal 
control, to what is today an integral and essential element of the 
operational Army and a force-provider to the Joint Force. Yet, our 
mission remains the same: to provide mission-critical capabilities for 
the Army and the Joint Warfighter whenever and wherever they are 
needed, anywhere on earth. Our vision for the future is clear. It is to 
forge and sustain the most capable, combat-ready and lethal Army 
Reserve force in the Nation's history.
                       state of the army reserve
    The United States Army Reserve is the Army's sole, dedicated 
Federal Reserve force, providing operational capability and strategic 
depth to the Total Army and the Joint Force in support of U.S. national 
security interests and Army commitments worldwide. The Army Reserve 
comprises nearly twenty percent of the Army's organized units, almost 
half its total maneuver support, and a quarter of its mobilization 
base-expansion capacity. Its unique status as both a component of the 
Army and a singular Command imbues it with the flexibility, agility and 
unity of effort needed to respond to any mission at home or abroad, 
often with little notice.
    Manned, trained and equipped primarily to enable combat formations, 
the Army Reserve provides quick access to trained and ready Soldiers 
and units and the critical enabling and sustaining capabilities the 
Army needs to win. These include key strategic and operational 
capabilities such as Petroleum Pipeline and Terminal Operations, Rail 
Units, Biological Identification Detachments, Broadcast Operations, 
Civil Affairs and Psychological Operations, a variety of Military 
Police capabilities, Horizontal and Vertical Construction, as well as 
Combat Engineers, Assault Aviation, Logistics, and an array of Medical 
Commands and formations.
    Engaged globally, the Army Reserve plays an integral role in 
America's national defense architecture, meeting high operational tempo 
demands, generating forces as required, and providing reliable 
capabilities all Combatant Commands. Since 2001, more than 300,000 Army 
Reserve Soldiers have been mobilized and deployed to not only Iraq and 
Afghanistan but to world-wide missions in support of Theater Security 
Cooperation, Foreign Humanitarian Support, Homeland Defense, Defense 
Support of Civil Authorities and other military missions at home and 
around the world. Today, nearly 15,000 Army Reserve Soldiers are 
supporting global combatant command operations, around the world, to 
include Civil Affairs missions in the Horn of Africa, deterrence 
operations in Kuwait, Military Police operations at Guantanamo Bay, 
Cuba and Medical Support operations in Honduras. Today's Army Reserve 
is the most combat-tested and experienced force in its history. 
However, we now need an Army Reserve that is ready to win in an 
environment that is growing in lethality and complexity. We must build 
an Army Reserve that is a more capable, combat-ready, and lethal force 
in the Nation's history.
           global environment, readiness and the future force
    In 2016, America's Army Reserve continued to meet the current and 
evolving threats of our time. In addition to the emergence of near-peer 
competitors on the global stage, the rapid technological evolution of 
offensive and defensive weapons across all domains presents the 
opportunity for adversaries to enhance their capabilities, reach, and 
lethality in new ways. For example, low-cost and highly adaptable 
technology platforms, like unmanned aerial vehicles systems (UAS), can 
threaten exponentially larger and more powerful platforms such as 
aircraft carriers. Next-generation cruise missiles, attack submarines, 
deep submersibles, space, and cyber capabilities can place all U.S. 
Forces within an enemy's reach at any given time. New hypersonic and 
electro-magnetic pulse (EMP) weapons and increasingly sophisticated 
cyber-actors portend a progressively lethal and disruptive battlespace 
at home and abroad, while emerging technologies, such as artificial 
intelligence, 3-D printing and human performance modification, will 
likely disrupt the battlefield in ways we do not yet understand.
    In this evolving global security environment in which both U.S. 
technological supremacy and vital national interests are subject to 
challenge by states who potentially possess both the means and 
proclivity to challenge U.S. dominance in critical areas and non-state 
actors who may acquire capabilities to acutely challenge our forces for 
discrete attacks, the mandate is clear: increase the readiness of Army 
Reserve forces--primarily units with a bias for action--in order to 
enable them to deploy and engage on short notice. This focus on 
readiness, of both individual Soldiers and action oriented units, 
drives the Army Reserve's strategy for manning, training and equipping 
its ``fight tonight'' formations and adds credence to the Nation's 
deterrence posture.
    Readiness is our first priority, and full-spectrum threats demand 
full-spectrum readiness. In addition to sustaining the counter-
insurgency and counterterrorism capabilities we have developed, the 
Army Reserve must be ready to respond to evolving threats in several 
theaters, and be prepared for the warfighting demands of large-scale, 
nearly simultaneous contingencies in more than one of them. Should they 
materialize, these contingencies would require significant and rapid 
mobilization, and require lead formations from America's Army Reserve 
to provide technical enabling capabilities crucial to opening, 
synchronizing, and sustaining major operations.
    In this new threat paradigm, the time-tested model of rotational 
readiness will no longer suffice. Our traditional ``patch chart'' 
approach will not generate the significant surge capacity that such 
contingencies--arising quickly with little strategic indications and 
warning--will demand. To that end, the Army Reserve must now focus its 
training, equipping and manning priorities to meet the challenge of 
generating full-spectrum readiness for a Ready Force of some 25,000 to 
33,000 Soldiers who are capable of deploying to the fight in a matter 
of days and weeks. This work includes having sufficient critical Army 
Reserve enabler capabilities and ensuring there are no interoperability 
gaps in areas such as mobility, lethality, battlefield communications 
and mission command systems.
Building and Sustaining the Ready Force
    Work is well-underway at the United States Army Reserve Command at 
Fort Bragg, to assess and identify those types of units that will be 
most critical to rapidly support the warfighter through the Army 
Service Component Commands around the globe, and to win in contested 
environments across multiple domains. These units, which include early-
entry/set-the-theater capabilities, are being specifically identified 
to ensure that leaders throughout the chain-of-command are cognizant of 
potential deployment timelines and, accordingly, steady-state readiness 
requirements. These units will be appropriately manned (or capable of 
being augmented in days to meet manning requirements), trained and 
equipped to meet the timelines driven by the warfighter and will be 
maintained at that level until further notice. This Ready Force 
construct will enhance unit and Soldier stability, mitigate the 
cascading impacts of cross-leveling, and rationalize training, 
equipping and modernization strategies. Drafting off of the Army's 
Sustainable Readiness model, other units will remain sized, trained, 
and postured to protect the Nation and its interests as required, to 
include Homeland Defense (HD) and Defense Support of Civil Authorities 
(DSCA) missions.
    At its heart, readiness begins at the Soldier level with deployable 
troops who are able to mobilize and deploy quickly in highly capable 
units to win the Nation's wars. Individual Readiness is the foundation 
of combat power and the decisive edge. It relies on energetic 
leadership and execution, the ultimate force multiplier, and depends 
upon both the families who support and sustain our Soldiers, and the 
employers who enable them to serve the Army and the Nation.
Readiness--Manning, Training, Equipping and Leadership
    There are four essential components of Readiness: Manning, 
Training, Equipping, and Leadership. They are all critical, and they 
are largely interdependent.
    Manning is the cornerstone of readiness for America's Army Reserve. 
This applies across the force in general and all the more so in quick-
turn deployable units. It begins by positioning force structure in the 
right locales to leverage national demographics and emerging trends in 
order to capitalize on a mixture of population densities, 
predisposition to service, as well as other factors, that set units up 
for success in recruiting and retaining talent in an all-volunteer 
environment. This also includes re-aligning Full Time Support (FTS) 
personnel from lower priority units--from a deployment timeline 
perspective--to those units in the Ready Force which are tagged to move 
more quickly.
    Training is the second component of readiness. To maintain 
operational readiness and prepare for current and future threats to our 
Nation, the Army Reserve is revamping its collective training strategy, 
returning to its expeditionary Army roots, and focusing on mission-
essential tasks. Soldiers and units will not only be proficient in 
their warrior tasks and drills, but focused collectively on the unit 
and occupational specialties required to win decisively in a complex 
and dynamic operational environment. The Army Reserve will train to 
Objective T standards, which means that Commanders, at all levels, will 
ensure that units achieve participation rates and execute decisive 
action training required to meet these new readiness requirements. 
Because predictable multi-component integrated training is essential to 
building the readiness required to meet short-notice contingency 
requirements, the Army Reserve will prioritize resources to ensure 
early entry enabler formations participate in Army and Joint training 
events that leverage live, constructive, virtual and gaming 
capabilities.
    Equipping is the third component of readiness, and modernized 
equipment ensures that Army Reserve early enablers remain both 
interoperable and readily available as a vital component of the 
operational force. Equipping requires sustained and predictable funding 
to maintain a fully operational Army Reserve. Insufficient funding 
widens capability gaps which jeopardize the Army Reserve's ability to 
support the Joint Force. Although the Army Reserve represents nearly 20 
percent of the Total Army, it received less than 3.4 percent of the 
Total Army's equipment procurement budget in fiscal year 2016. Lack of 
interoperability puts all Army formations at risk when deployed. 
Equipping, funding and fielding should ensure Army Reserve is ready and 
interoperable with deploying forces within the timelines expected for 
supporting the Army and Joint Force in decisive action operations 
against a peer adversary.
    Leadership pervades all aspects of readiness, and serves as the 
ultimate force multiplier. Leaders are the most effective hedge against 
complexity and uncertainty, and a resource that can neither be replaced 
by technology nor substituted with weaponry and platforms. The Army 
Reserve has combat-seasoned force leaders, at every echelon, who have 
led in combat. We will build on that experience and harness it to meet 
our Nation's future tactical, operational and strategic objectives. The 
Army Reserve will also use its unique position with the private sector 
to access talent and develop leaders with advanced technical skills for 
use in military formations.
Families and Employers
    Readiness is built and sustained by garnering and retaining the 
support of both our families and, for America's Army Reserve, the 
employers who enable us to serve the Army and the Nation. The reason 
for this is as simple as it is self-evident: in a Nation that depends 
upon an all-volunteer force for its survival, if you are unable to hold 
the support of our families and fellow-citizens, you do not have an 
Army. Families who feel embraced, appreciated and integrated in to the 
Army Reserve are our key enablers. Similarly, the unwavering support of 
employers for Army Reserve Soldiers often determines their ability to 
continue to serve the Nation without being forced to choose between a 
civilian career or continued service to the people of the United States 
as an American Soldier.
    Translated into action, this reality requires a coherent and 
integrated approach whereby a variety of Family Support programs and 
initiatives are leveraged to support Families and sustain a sense of 
community and mutual support in spite of the geographic dispersion of 
our units and Soldiers who are spread around the world. Sustaining 
employer support becomes an even more complex and demanding challenge 
when seen in the context of the Army's appropriate reliance upon the 
Army Reserve to generate the requisite combat power the nation 
requires. Persistent and persuasive engagement with employers and the 
communities in which they reside through a variety of outreach tools, 
is the key to reminding American businesses of the essential linkage 
between their ``patriotism'' and national security. We cannot, and will 
not, throttle back on this effort. Our U.S. Army Reserve Ambassadors, 
Public-Private Partnership Program and community support initiatives at 
the local level are all critical enablers in this push.
    By way of example, the Army Reserve maintains an around-the-clock 
capability to support our Soldiers and Families. Manning a 24/7 watch 
floor, via phone or email, the Fort Family Outreach and Support Center 
at Fort Bragg, North Carolina provides a direct conduit to command and 
community resources with comprehensive and confidential information, 
assistance, and referrals for every aspect of military life. Moreover, 
the Army Reserve Volunteer Program promotes and strengthens 
volunteerism by uniting community volunteer efforts, enhancing 
volunteer career mobility, and establishing volunteer partnerships.
    Our Survivor Outreach Services Program maintains a family's 
connection with the Army family in times of loss, regardless of a 
fallen member's duty status or component. Child and Youth Services 
helps geographically dispersed Soldiers and families find affordable 
childcare and youth supervision options within local communities. Army 
Family Team Building is a readiness training program to educate Army 
Families about military life. These and other Family Readiness programs 
support more than a quarter of a million dependents in America's Army 
Reserve.\1\ They are initiatives that have proven themselves effective 
time and again.
---------------------------------------------------------------------------
    \1\ Army Reserve Family Programs; database available online at: 
http://arfp.org/.
---------------------------------------------------------------------------
Suicide Prevention
    Suicide prevention is the shared responsibility of commanders, 
leaders, Soldiers, Family members, and Army civilians at all levels and 
our efforts are a key component to personal unit readiness. Ensuring 
prompt access to quality care is an essential component of suicide 
prevention but we must also reduce risk, and one of the greatest risks 
is stigma. In the Army Reserve, we are working to reduce or eliminate 
the stigma associated with seeking help for suicidal thoughts or 
feelings, and are working to providing supportive environments for 
those with emotional and psychological issues. The Army Reserve is 
diligent in raising awareness of the many tools and resources available 
to increase individual resiliency and eliminate the incidences of 
suicide. For example, Military OneSouce provides free financial 
counselors for military members facing serious financial issues--a key 
suicide risk factor. The Comprehensive Soldier Fitness (CSF) Program 
helps Soldiers learn resiliency and have the tools to grow through 
demanding experiences. The Army Reserve's Fort Family Outreach Support 
Center (1-866-345-8248) \2\ provides live assistance for Soldiers and 
Families in need, 24 hours a day, seven days a week. The Army Reserve 
is unleashing the power of the team to take care of our teammates and 
eliminate suicides within our team.
---------------------------------------------------------------------------
    \2\ The Fort Family Outreach and Support Center at http://arfp.org/
fortfamily.html or via the Fort Family phone number at 1-866-345-8248 
provides live, relevant, and responsive information to support Army 
Reserve Soldiers and Families. Available 24 hours a day, seven days a 
week, and 365 days a year, it provides unit and community- based 
solutions that connects people to people. Assistance is provided during 
times of crisis as well as routine assistance for other immediate needs 
to help maintain Soldier and family readiness and resiliency. By 
pinpointing Families in need and local community resources, the Fort 
Family Outreach and Support Center can quickly connect the Soldier and 
Family to resources, providing installation-commensurate services in 
the geographic location of the crisis. Fort Family Outreach and Support 
Center has established a community-based capacity by engaging our 
Nation's ``Sea of Goodwill'' to support Soldiers and Families close to 
their residence. Simply stated, Fort Family via web or phone connects 
Soldiers and Families with the right service at the right time.
---------------------------------------------------------------------------
Sexual Harassment and Assault Prevention
    Sexual harassment and assault are taken seriously across the entire 
Army Reserve. The Army Reserve is a family, a close-knit team. Sexual 
harassment and assault is an attack on our team, and it is not 
tolerated. Just as we would not let anyone hurt our immediate family 
members, we will not let anyone harm a member of our Army Reserve team 
and our unit readiness. The leaders at all echelons of the Army Reserve 
are the shields of trust for each Soldier. We must have high levels of 
mutual trust to get after those who would break that bond. As the 
shields to our team, the entirety of the Army Reserve is committed to 
(1) Protect victims, provide compassionate care, protect their rights 
and privacy, and prevent sexual assaults from occurring in the first 
place; (2) Report every allegation, ensure that they are thoroughly and 
professionally investigated, and take appropriate action based on the 
results of those investigations; (3) Create a positive command climate, 
and an environment of trust and respect in which every person can 
thrive and achieve their full potential; (4) Hold individuals, units, 
Commanders and leaders responsible for their actions or inactions; (5) 
Fully engage the chain of command, and hold it accountable for 
everything that goes on in the unit.
    The Army Reserve is fully committed to preventing harassment and 
sexual assault,\3\ caring for the victims, and holding those who commit 
such egregious acts accountable.
---------------------------------------------------------------------------
    \3\ The Army Reserve established four full-time Special Victim 
Counsel (SVCs) positions, located at each of the four Regional Support 
Commands; 42 Troop Program Unit (TPU) SVCs, located at the Army Reserve 
General Officer Commands (GOCOMs); and 27 SVCs, located within each 
Legal Operation Detachment. The Army Reserve also established 50 full-
time Sexual Assault Response Coordinator/Victim Advocate (SARC/VA) 
positions that span the footprint of the Army Reserve. Forty-three of 
the 50 SARC/VA positions are currently filled with personnel in a 
MILTECH and AGR status. Previously, the Army Reserve maintained five 
hotlines listed on the Department of Defense (DoD) Safe Helpline 
website, which were accessible for referral through the Helpline 
operators. To improve responsiveness, accessibility and breadth of 
resources, the Army Reserve consolidated all hotlines under the Fort 
Family Outreach and Support Center. The Army Reserve routinely 
participates in and hosts forums and panels at all levels of command in 
the Army. This includes meetings with the HQDA SHARP Program Office and 
the SHARP Academy to improve Army Reserve participation in policy 
formulation, training, and future developments. The Army Reserve also 
utilizes improved analytics to inform current and future mitigation 
efforts. Finally, our adoption of a more aggressive focus and stance on 
Sexual Harassment and Sexual Assault demonstrated a positive impact in 
the force. We are fully committed to maintaining an environment free of 
sexual harassment and sexual assault throughout the Army Reserve.
---------------------------------------------------------------------------
Shape and Grow the Future Force
    Staying current with force structure changes, unit positioning, 
leader development, and leveraging emerging technologies, capabilities 
and opportunities are key aspects of the agility the Army Reserve will 
use to shape and grow the future force.
    The positioning of force structure, units and capabilities is a 
vital part of developing tomorrow's Army Reserve. Building for the 
future means ensuring that America's Army Reserve not only anticipates 
and flexes to meet new and emerging force structure requirements, but 
that ready units are positioned where future Soldiers are living and 
working in their chosen fields. Aligning force structure and unit 
locations with trending demographics will also help overcome perennial 
recruiting and retention challenges.
    Developing agile leaders who can thrive in a full spectrum 
environment, are capable of making hard decisions under stress, and can 
operate in a complex and potentially digitally-disrupted or austere 
environment is a key component of our strategy to shape and grow the 
future force.
    The Army Reserve's deep connection to the private sector is a 
substantial advantage in understanding and exploiting cutting-edge 
technology advances and capabilities, such as those in the cyber 
domain. For example, we are already positioning structure to support 
high tech-focused Department of Defense (DoD) initiatives leveraging 
``digital key terrain'' in select locations in the United States, and 
seizing on further opportunities to draw upon our civilian skills and 
relationships with the private sector to meet critical needs of the 
Army.
    Finally, infrastructure is also a critical component of generating 
readiness. No one installation is ideally suited to providing first-
class training to all formations at all times of the year. Training 
platforms--their location, capabilities and limitations--must be 
assessed and leveraged in a manner that optimizes their ability to 
provide relevant, combat-focused training experiences for Army Reserve 
units, and maximizes their ability to increase the combat-readiness of 
discrete capable units in the minimum time possible.
Resourcing and Sequestration
    Consistent funding is critical to current and future readiness. 
Without predicable funding, the Army Reserve, along with all components 
of the Total Army, will have difficulty meeting the operational 
capability requirements of the Army and Combatant Commands in a full 
spectrum environment. When the Budget Control Act of 2011 caps return 
in fiscal year 2018, the Army Reserve will incur significant risk in 
training, facility restoration and modernization, and equipping and 
modernization programs vital to generating the readiness necessary to 
win our Nation's wars.
    Military Construction (MILCON) funding is necessary to restore 
critical aging and decaying infrastructure and replace facilities that 
can no longer be economically sustained. Army Reserve Training Centers 
are essential readiness platforms enabling home station training and 
generating individual and collective readiness within and among units. 
Under current MILCON funding levels, the Army Reserve is taking 
significant risk to readiness in the ability to sustain, restore, and 
modernize enduring facilities that are necessary to execute the Army's 
training strategy.
    As with training and facilities investments, equipping the force 
requires predictable and sustained funding to achieve full spectrum 
operational readiness. Current funding levels require continued 
reliance on less modern or interoperable equipment. Additionally, the 
combination of aging equipment and constrained depot maintenance 
funding drives higher levels of risk to unit readiness and the 
operational force. If the threat of sequestration is not eliminated, 
training for decisive action will be at high risk.
    Areas of high risk for the Army Reserve include Mission Command 
Systems. Specific capability shortfalls include battle command systems, 
tactical radios and satellite transport platforms. The velocity of 
technological change continues to outpace the Army's procurement and 
modernization strategy.
    Since 2013, as the Army Reserve's share of base modernization 
funding decreased, the importance of the National Guard and Reserve 
Equipping Appropriation (NGREA) has increased, accounting for 26 
percent of the Army Reserve's total procurement funding. The Army 
Reserve is grateful for the support Congress has provided through 
NGREA.
            america's army reserve: capable. ready. lethal.
    America's Army Reserve is a capable, ready, and lethal team 
providing critical capabilities to Army Service Component Commands and 
all Combatant Commands. Although the threats to America are dynamic and 
ever increasing, the Army Reserve remains a highly effective and 
responsive force for the nation. As it has since its founding in 1908 
as the Medical Reserve Corps, today's Army Reserve--anchored in 
civilian employment and local communities across the nation, and highly 
trained and educated in 148 different military career fields--stands 
ready to serve the Nation at home and abroad. America's Army Reserve--a 
force of technically and highly skilled Soldiers, leaders, and units: 
Capable. Ready. Lethal.

    Senator Cochran. Thank you very much, General.
    We now will hear from the Chief of the Naval Reserve, Vice 
Admiral Luke M. McCollum.
    Good morning, Admiral, welcome.
STATEMENT OF VICE ADMIRAL LUKE M. MCCOLLUM, CHIEF, NAVY 
            RESERVE
    Admiral McCollum. Good morning, Chairman Cochran, and 
certainly Ranking Member Durbin, and distinguished members of 
the subcommittee.
    It is my honor to be here this morning on behalf of my 
fellow Reserve Chiefs and Guard Chiefs to talk about the state 
of the Navy Reserve.
    It is a distinct honor to report about our Nation's 
fighting men and women who selflessly contribute to national 
defense.
    First, I am proud to have with me this morning the Navy 
Reserve Force Master Chief, C. J. Mitchell, sitting to my left. 
And I think we can all appreciate those of us who have 
advisors, how they help us, and guide us, and mentor us in this 
vast responsibility that we have and my tribute to him.
    The Navy Reserve is the busiest it has ever been and since 
September 11, 2001 a force of 58,000 sailors has executed over 
79,000 individual mobilizations to active duty in support of 
combat operations around the globe.
    They have left their civilian jobs and families for up to a 
year or more to join the joint fight. In addition to these 
individual mobilizations and on any given day approximately 20 
percent of the force is performing operational support to the 
fleet around the globe.
    As we sit here this morning, naval reserves are proudly 
serving in every geographic combatant command worldwide 
conducting the full spectrum of operations.
    Consider Navy Reserve Coastal Riverine units are currently 
conducting high value escort missions off the Horn of Africa. 
Multiple Navy Reserve squadrons from the Maritime Support Wing 
are flying fixed and rotary wing missions in the South China 
Sea.
    Navy Reservists are deployed to Central America supporting 
the counternarcotics trade and counter-illicit trafficking 
mission.
    And finally, mobilized reservists continue to extensively 
serve in the Middle East in support of the fight against 
extremists.
    Our Navy Reserve sailors expertly accomplish all of this 
while skillfully balancing with their families and their 
employers as they manage their military careers. While the Navy 
Reserve remains mindful of its character to preserve a 
strategic capability, the operational demands that I have just 
mentioned show no sign of letting up. This is occurring as our 
primary enabler, which is our RPN (Reserve Personnel, Navy) 
funding and has been unpredictable and diminishing.
    As a result, the Navy Reserve supports about 31 percent of 
the actual demand our combatant commanders ask of us. Your 
continued support in ensuring the RPN remains robust, 
consistent, and predictable is critical to maintaining Force 
readiness and accomplishing the Navy Reserve's Mission.
    The Navy Reserve's equipment, specifically our aging 
aircraft fleet, is facing obsolescence challenges and rapidly 
approaching the end of its designed service life. Sixteen years 
of hardened use has accelerated this effect.
    In order to ensure high levels of safety, interoperability, 
and readiness aircraft recapitalization in our strike fighter, 
logistics, and maritime patrol squadrons remains Navy Reserve's 
top equipping priority. And modernizing the Navy Reserve's 
aviation will allow the Navy to continue to capture the 
valuable training and expertise of Navy pilots, aircrew, and 
support personnel who choose to transition from active duty to 
the Reserve component.
    While the challenges ahead of us are significant, I could 
not be more proud of the Navy Reserve force. Every time I set 
foot in one of our 123 Reserve Operational Centers around the 
country, I come away impressed and encouraged at the motivation 
and the morale of our personnel.
    Our dedicated Navy Reservists who take great pride in their 
service to our country. And their unique civilian skill sets 
they bring to the battlefield are certainly invaluable to the 
total Force.
    On behalf of the Navy and the Navy Reserve, I thank the 
members of the committee for your support, and I look forward 
to answering your questions.
    [The statement follows:]
          Prepared Statement of Vice Admiral Luke M. McCollum
    Chairman Cochran, Ranking Member Durbin, and distinguished Members 
of the Subcommittee, as Chief of Navy Reserve it is my distinct honor 
to report to you on the state of the Nation's Navy Reserve and its 
sailors. Navy Reserve proudly provides properly trained and equipped 
sailors to the Navy, Marine Corps, and Joint Force. As an essential 
component of the Navy, the Navy Reserve provides operational capability 
and surge capacity, both overseas and at home, across the full spectrum 
of naval missions.
    Navy Reserve is comprised of 58,000 citizen sailors from every 
State and territory. Since 2001, these dedicated men and women have 
mobilized over 79,000 times to every theater of operations, including 
5,755 personnel in fiscal year 2016. This morning, in addition to 
individual mobilizations, Navy Reserve has over 12,000 sailors 
performing Operational Support directly to the fleet around the globe; 
approximately 20 percent of the force.
    In 2016, the Navy Reserve continued its century-long tradition of 
supporting Navy, Marine Corps and Joint Operations in superb fashion, 
including the most recent conflicts in Iraq, Afghanistan and against 
violent extremists. Furthermore, in order to keep pace with improving 
technology and pivot to confront new and emerging threats, a strategic 
``deep dive'' into the structure and organization of the future Navy 
Reserve has begun. The resulting Strategic Campaign will be underpinned 
by lines of effort (LOEs) clearly articulated in the Navy's Design for 
Maintaining Maritime Superiority. Meanwhile, Navy Reserve will continue 
to do what it does best--combating the complex network of threats that 
the nation faces across multiple domains.
    On behalf of the Navy Reserve, I would like to extend my sincere 
gratitude for your continued support.
                            force structure
    Today's force structure is the result of Navy's imperative to 
optimize the interoperability and operational effectiveness of the Navy 
Reserve. As a direct result of the Navy Reserve's force structure 
realignment, most Reserve sailors now routinely work and train 
alongside their Active Component (AC) counterparts. Due to the high 
levels of personnel and mission readiness attained as a result of this 
synergy, Reserve sailors are able to provide a rapid response to calls 
for support, often on a moment's notice. Additionally, where 
appropriate, Reserve Component (RC) hardware units are aligned and 
integrated with AC unit training and deployment cycles. These RC units, 
comprised of military professionals with extensive operational 
experience, act as force multipliers through mission augmentation and 
provide surge capacity where and when needed. This is one of the most 
cost-efficient and mission-effective models available across all 
reserve components today.
    Commander Navy Reserve Forces Command (CNFRC) operates six region 
headquarters (Reserve Component Commands (RCCs)) and 123 Navy 
Operational Support Centers (NOSCs). Located in all 50 States as well 
as Puerto Rico and Guam, these facilities collectively serve over 1,400 
RC units. NOSCs reside both on and off DoD installations as a mix of 
stand-alone facilities, Navy-Marine Corps Reserve Centers, and joint 
Armed Forces Reserve Centers.
    Commander Naval Air Forces Reserve (CNAFR) is comprised of three 
air wings, two Joint Reserve Bases (JRBs) and one Naval Air Facility 
(NAF): Fleet Logistics Support Wing (FLSW) and Tactical Support Wing 
(TSW) at Naval Air Station (NAS) JRB Fort Worth, TX, Maritime Support 
Wing (MSW) at NAS North Island, CA, NAS JRB Fort Worth, TX, NAS JRB New 
Orleans, LA and NAF Washington, D.C. In addition to these standalone 
commands, the Navy Reserve operates multiple Squadron Augment Units 
(SAU) which directly support various AC Navy squadrons around the 
country. In all, the Navy Reserve owns and flies approximately 150 
aircraft across the force.
                           current operations
    The Navy routinely responds to combatant commander requirements 
with tailored Reserve units and personnel. This force structure 
provides integration options ranging from the mobilization of an entire 
unit to the activation of a single Individual Augmentee (IA) sailor. 
This model delivers the increased flexibility and depth needed for the 
Total Force to face the dynamic nature of the global security 
environment. As of March 31st, 2017, 3,018 Reserve sailors were 
mobilized, 1,576 Reserve sailors were preparing to mobilize, and 343 
were de-mobilizing. These sailors are involved in operations directly 
supporting Central Command (CENTCOM), Southern Command (SOUTHCOM), 
Africa Command (AFRICOM), and European Command (EUCOM). These 
individual mobilizations are in addition to the Operational Support 
that Navy Reserve units provide to combatant commanders on a daily 
basis in the Expeditionary Warfare, Naval Air Warfare, Fleet Air 
Logistics, Cyber Warfare, Unmanned Aerial Vehicles, and Shipyard 
Maintenance domains.
    Navy Reserve Operational Support missions are broad, diverse, and 
critical to the mission of each of the geographic combatant commands. 
For example: In the continental United States, Navy Reserve Coastal 
Riverine Squadrons (CRS)--specifically CRS 1, CRS 11, CRS 8, and CRS 
10--form the backbone of the Navy's High Value Unit (HVU) escort 
mission. These units conducted 622 HVU Escort missions in fiscal year 
2016, and have conducted 151 to date this fiscal year, providing afloat 
escort security for Navy vessels at strategic ports. Outside of the 
Continental United States a rotating team of CRS personnel (69 sailors 
strong) conduct HVU operations at Djibouti, Africa. Additionally, 
rotating CRS personnel based out of Bahrain continue to support 
Embarked Security Team (EST) operations, providing maritime security 
for port visits, underway replenishments, and chokepoint transits in 
the Middle East.
    In the Southern hemisphere, Navy Reserve forces provide timely 
support to every SOUTHCOM sponsored Humanitarian Assistance exercise, 
and contribute thousands of man hours to operational and exercise 
intelligence, medical, and logistics in support of SOUTHCOM's efforts 
to be the region's preferred security partner. At Joint Interagency 
Task Force South (JIATF-South), Navy Reservists serve an integral role 
in the Counter Drug/Counter Narcoterrorism (CD/CNT) detection and 
monitoring mission. At Joint Task Force Guantanamo Bay (JTF-GTMO) Navy 
Reserve manpower contributions to medical, intelligence, legal and 
Chaplain support services are critical to the mission. In Central 
America, Navy Reservists provide 40 percent of the Force Protection and 
Information Technology manning requirements at the OCONUS Cooperative 
Security Location in Comalapa, El Salvador, where deployed P-3C 
aircraft conduct the Counter Illicit Trafficking (CIT) mission. The 
Navy Reserve is a significant force multiplier in SOUTHCOM's continuing 
effort to encourage strength and unity of purpose between the U.S. and 
our regional partner nations.
    In the Pacific, the Reserve Maritime Support Wing (MSW) is 
supporting Pacific Command (PACOM) objectives to advance stability and 
security in a volatile region. Specifically, Navy Reserve P-3C 
squadrons are deployed and flying maritime patrol and reconnaissance 
missions alongside their sister AC patrol squadrons. This operational 
deployment of RC capacity has eased the workload of AC units, helping 
facilitate the transition of the Navy's Maritime Patrol and 
Reconnaissance Force from the legacy P-3C to the new P-8A aircraft. 
Meanwhile, Helicopter Sea Combat Squadron (HSC) 85 is deployed and 
flying missions in support of Special Operations Command, Pacific 
(SOCPAC). HSC-85 flies the HH-60H, and is the Navy's only rotary wing 
squadron solely dedicated to supporting the mission of Naval Special 
Warfare.
    Around the globe, Navy Reserve's Fleet Logistics Support Wing 
(FLSW) provides 100 percent of the Navy's intra-theater air logistics 
capability. FLSW aircraft and flight crews are essential to sustaining 
maritime operations, transporting naval personnel and priority cargo to 
forward deployed units throughout the world. In fiscal year 2016, FLSW 
transported more than 115,000 naval personnel and nearly 22 million 
pounds of cargo in support of Fleet operations while maintaining 24/7/
365 C-40A and C-130T support in the CENTCOM, PACOM, and EUCOM AOR's. 
Additionally, the Naval Information Force Reserve (NAVIFORES), which 
comprises 15 percent of the uniformed Navy Reserve, provided over 
470,000 man-days of operational support over the course of fiscal year 
2016, a 10 percent increase over fiscal year 2015. The command filled 
over 76 percent of the total Navy Information Warfare Community 
Individual Augmentation requirement, providing support in 11 different 
countries and afloat.
                        new & expanding missions
    The volatile, complex and ambiguous nature of the threats facing 
the nation demand a Navy that can generate forces and capabilities with 
the agility and adaptability to respond efficiently and effectively. 
Specifically, Navy Reserve is expanding in three key emerging mission 
sets: Cyber warfare, Unmanned Aerial Systems (UAS) and Surge 
Maintenance Units (SurgeMain).
    As the cyber warfare threat continues to grow, the Navy Reserve is 
growing its capacity to meet this challenge. The Reserve Information 
Warfare Community will grow by over 300 personnel to provide support to 
the Cyber Mission Force integration strategy within the Navy Reserve's 
authorized strength levels. Moving forward, Commander, U. S. Fleet 
Cyber Command will continue to assess requirements for Reserve 
integration into Navy's Cyber Mission Force, and the potential for 
creating Reserve Cyber Mission Support Units or Detachments.
    With reliance on Unmanned Aircraft Systems (UAS) continuing to 
expand, the Navy Reserve is well positioned to provide remote operator 
support, as the planned and periodic operating construct of UAS 
operations is a perfect fit for RC sailors. For instance, the Navy 
Reserve maintains two Navy Special Warfare SEAL Teams to provide 
additional capacity to the AC. In 2015, these teams began adding 
unmanned aircraft systems to their mission inventory to meet the 
increasing requirement for expeditionary Intelligence, Surveillance and 
Reconnaissance (ISR) capability. Reserve sailors provide operational 
support to these ISR detachments on a rotational basis.
    The MQ-4C Triton, formerly known as Broad Area Maritime 
Surveillance UAS, is a maritime UAS that provides real-time ISR over 
vast ocean and coastal regions. Twenty percent of the Navy's MQ-4 
mission will be supported by over 100 members of the Navy Reserve. 
These reservists consist of Full Time Support Reservists (FTS) and 
Selected Reservists (SELRES) whose ranks are filled with pilots, naval 
flights officers and aviation warfare operators as well as reservists 
in various administrative and supportive roles. As a group they will 
operate as a SAU, providing valuable stability to the ever growing and 
evolving missions in which UAS participate. Navy Reserve SurgeMain 
Units are made up of a part-time, flexible, fully qualified maintenance 
work force that provides skilled labor vital to Navy shipbuilding. 
These teams of RC sailors become a mobilization force when the Navy 
needs to ``surge'' its maintenance infrastructure to support fleet 
readiness and the Optimized Fleet Response Plan. Over 1,400 SurgeMain 
sailors provided over 12,000 man-days of shipyard support in fiscal 
year 2016. These units have been instrumental in mitigating risk by 
filling capability and manpower gaps created as a result of an 
increased shipyard workload and civilian work force attrition. In 
addition to providing additional manpower, SurgeMain sailors often 
bring new perspectives to problem solving as well as best practices 
from their civilian experience at a significant cost savings. 
Accordingly, Navy intends to increase its investment in RC SurgeMain 
manpower moving forward. Over the next few years, the shipyard 
augmentation work force is forecast to grow by 394 billets to 1,856 
personnel (within authorized end strength levels), which is a testament 
to the success of the SurgeMain program and the skill and dedication of 
its sailors.
                                enablers
Fiscal Predictability
    Predictable and dependable funding ensures that Navy Reserve 
sailors are able to provide consistent and timely operational support 
to the Navy, Marine Corps, and Joint Force. Reserve Personnel, Navy 
(RPN) funding is the primary fiscal means with which the Navy Reserve 
provides this support. Currently, the RPN account is funded to a level 
that enables the Navy Reserve to support 31 percent of operational 
demand. Your continued support in ensuring RPN funding remains robust, 
consistent, and predictable is a key enabler in maintaining readiness 
and accomplishing the Navy Reserve's mission.
Civilian Skills
    Many of the civilian skill sets of Reserve sailors add invaluable 
expertise and capability to the force. In some cases, RC sailors' 
civilian skills have provided exclusive and much needed capabilities in 
critical mission areas. Conversely, their military training and 
professional development make them more capable leaders in their 
civilian communities. Citizens who serve in the Navy Reserve strengthen 
the bond with the American public while educating families, employers 
and communities about military service.
    Whether a tradesman, first responder, executive, or licensed 
professional, the Navy has long benefitted from the civilian experience 
and maturity of RC sailors. Moving forward, the Navy Reserve is focused 
on developing and improving its processes so it can more consistently 
leverage these abilities. This unique combination of civilian and 
military experience and skills provided by Reserve sailors offers the 
diversity of thought and insight which inspires innovation and acts as 
a force multiplier.
    Military commanders often comment that the value of Reserve 
sailors' civilian expertise enhances their unit's mission 
effectiveness. As one Joint Task Force Commander noted, ``The 
background and contemporary industry knowledge members of the Navy 
Reserve bring to my organization cannot be overstated--they bring a 
unique set of skills which consistently results in a better solution or 
product when they work side-by-side with their active duty 
counterparts, government civilians and contractors.''
Talent Management
    The Navy Reserve has numerous initiatives underway to retain and 
extend the service of thousands of men and women in uniform as they 
transition from active duty. This ability to retain their training and 
experience is a critical element in managing Navy talent and is vital 
to the future health of the Total Force.
    Many of Navy's talent management programs fall under the concept of 
Continuum of Service (CoS), a transformational approach to personnel 
management that provides opportunities for seamless transitions between 
the active and reserve components. CoS provides flexible service 
options and improves life-work balance, which directly helps RC 
sailors. CoS provides both full-time and part-time service 
opportunities, depending on the Navy's needs and sailors' own personal 
desires. This supports CNO's vision of a seamless Navy Total Force that 
is valued for their service, and enables them to volunteer for 
meaningful work that supports the Navy mission. Retaining sailors in 
the Navy Reserve when they leave active service enhances readiness and 
reduces personnel training costs by capitalizing investments made when 
serving on active duty and building a Total Force team of trained and 
experienced professionals.
Mobile Technology
    Mobile access to a myriad of Navy IT systems is a key enabler for 
Navy Reserve sailors to maintain mobilization readiness and to perform 
their mission requirements, even when not at their assigned command. 
Navy Reserve must consolidate and modernize the systems used to enable 
and manage readiness, while improving access to those systems. Navy 
Reserve has taken a full-spectrum approach and has partnered with 
industry to produce creative and advanced IT solutions. Reserve sailors 
can now securely conduct business utilizing a mobile application to 
access various Navy and Navy Reserve IT systems, a cloud-based pilot to 
provide access to office productivity and collaborative tools, and 
expanded Navy NOSC hotspot capabilities to optimize the use of personal 
devices during drill weekends. Collectively, these solutions reduce the 
time and effort required to meet readiness and training requirements. 
Every Reserve sailor's time must be focused to the greatest possible 
extent on the mission and not on administrative overhead.
Employers
    The RC relies heavily upon the sacrifice and dedication of local 
employers in each member's home State to support the Nation's hundreds 
of thousands of reservists. Many companies provide flexible work 
options for both drilling and deploying RC service members. Some 
companies even go above and beyond what is required by law and continue 
to support members of the RC with pay and benefits while they are 
activated. For both large and small companies, this sacrifice can be 
considerable. Most importantly, supportive employers send a clear 
message to RC members that they need not worry about their civilian 
jobs while serving their country. The value of this reassuring message 
cannot be overstated --an employer's level of cooperation and 
encouragement is directly related to the productivity and mission focus 
of RC members when they put on the uniform. Employer support is a vital 
component of the success of the entire RC, and the Navy Reserve goes to 
great lengths to recognize supportive employers every year through 
various programs and initiatives.
Medical Professionals
    RC sailors must be healthy, fit, mobilization ready and mission 
capable. To ensure high levels of medical and dental readiness 
throughout the force, Navy Reserve continues to leverage the skills and 
experience of the Navy Reserve's Medical Professionals in support of 
completion of Periodic Health Assessments (PHAs), immunizations and 
dental screenings. These medical personnel contribute to all Reserve 
sailor Individual Medical Readiness (IMR) requirements. Drilling 
medical personnel, primarily in the Operational Health Support Units 
(OHSUs), support RC sailors drilling at the NOSCs on a regular basis on 
drill weekends. Additionally, since 2001, over 6,700 Navy Reserve 
Medical Professionals and Hospital Corpsmen have been deployed across 
the globe in support of combat operations, bringing critical skills 
that have directly contributed to the impressive and unprecedented 
combat survival rate experienced over the past 16 years of conflict.
                   resilience and prevention programs
    Navy Reserve resilience programs connect with other military and 
family programs to promote the mission-ready sailor. Key to this effort 
is providing a support network, programs, resources, and training 
needed to build life skills and winning in adverse environments. 
Building resilience through a culture of wellness--physical, mental, 
social and spiritual--will remain one of the Navy Reserve's top 
priorities.
    Serving as a reservist requires RC sailors to balance many 
priorities associated with their civilian jobs, family commitments, and 
duties as a part-time sailor. The Navy Reserve utilizes several tools 
to help sailors manage the stressors that can accompany this busy 
lifestyle. The Navy Reserve's Psychological Health Outreach Program 
(PHOP) ensures all Reserve sailors have access to appropriate 
psychological healthcare services. Regional PHOP counselors provide 
Operational Stress Control (OSC) briefings and behavioral health 
screenings to Reserve sailors across the nation. The Resiliency Check-
in tool allows PHOP counselors to provide one-on-one behavioral health 
assessments that include on-the-spot initial and follow-up referrals 
when needed. This is a proven way to ensure sailors have access to 
counseling support from providers who are trained in resiliency methods 
to deal with common issues associated with the military lifestyle, 
including the stress related to family separation, continuous 
deployments, and post-mobilization reintegration.
    The Yellow Ribbon Reintegration Program (YRRP) supports Reserve 
sailors and their families through all phases of the deployment cycle. 
All deploying sailors participate in Pre-Deployment Health Assessments 
(PDHA) and Post-Deployment Health Reassessments (PDHRA). Thanks to 
Congress, the language in the fiscal year 2016 NDAA amended the number 
of YRRP phases from four (Pre/During/Demobilization/Post) to three 
(Before/During/After) which helps to simplify and streamline service 
delivery. A key program within the YRRP is the Returning Warrior 
Workshop (RWW), which focuses on the reintegration process for service 
members and their spouse/family members, and helps identify sailors in 
need of follow-on care. 663 service members and an additional 530 
spouse/family members attended an RWW in fiscal year 2016. Navy 
leadership routinely receives positive feedback on the impact that this 
dynamic program has towards the reintegration process. Continued 
funding for the YRRP is vital to Navy Reserve's continuum of care.
    The Navy Reserve remains committed to eradicating self-destructive 
behavior. The Navy's mantra of ``Every Sailor, Every Day'' promotes a 
culture that educates, trains, and empowers sailors to identify signs 
and trends that are indicative of impending self-destructive behaviors. 
Navy Resilience and Suicide Prevention Programs promote community and 
embody comprehensive wellness.
    The Navy Reserve fosters a climate that is intolerant of sexual 
assault. Navy leadership is committed to preventing sexual assault by 
training sailors to intervene in unethical situations, while further 
improving victim response and care. Navy Reserve sailors are trained 
and empowered to intervene and take action to stop behaviors contrary 
to the Navy's Core Values and Ethos. Navy Reserve promotes a culture of 
dignity and respect for all, and emphasizes the importance of living 
with honor, courage and commitment--both on and off duty. To further 
DoD's Sexual Assault Prevention and Response (SAPR) efforts, Navy 
Reserve recently released guidance to reinforce and clarify proper 
handling of SAPR issues unique to Reserve sailors.
    The Victims' Legal Counsel (VLC) program provides sexual assault 
victims with a dedicated attorney to help explain the investigation and 
military justice process, and protect the victim's legal rights and 
interests. The Navy Reserve has played an important role in the VLC 
program since its inception in August 2013 by consistently filling VLC 
billets with Reserve judge advocates. A trusted VLC program made up of 
experienced, dedicated judge advocates encourages reporting by giving 
victims the confidence that their rights will be protected.
                               readiness
    The Navy Reserve's primary mission is to provide mobilization ready 
sailors, available at a moment's notice, to the Navy, Marine Corps, and 
Joint Force. Traditionally, the Navy Reserve maintains readiness as a 
result of an integrated force structure, enforcement of military 
standards, and the operational support that RC sailors routinely 
perform. In any given week, nearly 20 percent of the Navy Reserve is 
delivering operational support to the Navy and the Joint Force across 
the globe. Due to the tight integration with the active force, Navy 
Reserve's readiness levels very closely mirror that of the AC.
Equipping the Force
    Aircraft recapitalization is without question Navy Reserve's number 
one equipping priority and is critical to the Navy Reserve's ability to 
provide required operational support to the Naval Aviation Enterprise. 
Almost 15 years of increased operational tempo within a constrained 
procurement environment has taken a toll on the aircraft and equipment 
that RC sailors operate. Navy Reserve's integrated force structure 
depends on the ability to quickly and seamlessly assimilate with AC 
units to execute the mission. Accordingly, the Navy Reserve depends on 
the availability of modern, compatible hardware. As the Navy continues 
to prioritize investments in advanced aircraft, weapons systems and 
equipment, the total force will ensure that RC procurement is 
adequately resourced in these accounts as well. This will ensure that 
RC forces maintain high levels of safety, interoperability, and 
readiness.
    For example, the Fleet Logistics Support Wing (FLSW), made up 
entirely of RC sailors, executes the Navy Unique Fleet Essential 
Airlift (NUFEA) mission to provide responsive, flexible, and rapidly 
deployable air logistics support required to sustain combat operations 
at sea. The aircraft that support this mission are the C-40A, C-130T 
and C-20G. The C-40As, payload, reliability, cost effectiveness, and 
unique ability to transport hazardous cargo and passengers 
simultaneously make it the preeminent platform to conduct fleet air 
logistics support in all of DoD. Procurement of the C-40A began in 1997 
as a replacement for Navy Reserve's fleet of legacy C-9 and C-20G 
aircraft. The wartime requirement for the C-40A was assessed to be 23 
aircraft; however the risk adjusted inventory objective was determined 
to be 17 aircraft. To date, the Navy Reserve has taken possession of 15 
C-40As. Furthermore, the Navy's venerable fleet of 23 C-130T aircraft 
is aging rapidly. These C-130T aircraft are 23 years old and 
maintenance issues are beginning to impact their reliability. In the 
not too distant future, the C-130T will require increase maintenance 
modifications, upgrades and follow-on recapitalization.
    RC strike-fighter aircraft are also in need of recapitalization. 
The F-18A+ aircraft being flown by Navy Reserve are some of the oldest 
in operation. Significant maintenance and systemic compatibility 
limitations negatively impact aircraft availability rates and cause 
these squadrons to struggle to meet their strategic and operational 
mission. Navy plans to address this shortfall through a ``waterfall'' 
process in which F/A-18C and eventually F/A-18E/F aircraft are to be 
transferred to the RC. This will occur as F-35C and additional F/A-18E/
F aircraft are either procured or available via increased depot 
production throughput.
    The Navy's surge capacity within the Maritime Patrol and 
Reconnaissance Force (MPRF) consists of two RC patrol squadrons that 
operate legacy P-3C Orion aircraft. These RC patrol squadrons will be 
relied upon for operational capacity and capability to support P-3C 
sensor requirements for Combatant Commanders through mid-2023. Due to 
current fiscal constraints, there are no plans to fund P-3C sustainment 
after the AC patrol squadrons have completed the transition to the P-
8A.
    Navy Reserve executes 100 percent of the CONUS High Value Unit 
(HVU) escort mission performed by the Coastal Riverine Force within 
Navy Expeditionary Combat Command (NECC). The work horse of the HVU 
mission is the 34ft Patrol Boat. These boats have a 12 year service 
life, and 79 percent of the Reserve boats will exceed their service 
life by the end of fiscal year 2019. Continued operation of a normal 
34ft patrol boat beyond the 12-year service life requires a 
modernization and overhaul service life extension to bring the boat up 
to current standards. This extension program takes up to 8 months, with 
an associated cost between $600,000 and $800,000 on average per vessel. 
To operate a boat past the 12-year service life without the 
modernization/overhaul risks catastrophic mechanical and/or mission 
failure. The future platform for HVU operations, and NECC operations as 
a whole, is the Patrol Boat-X (PB-X) program, which is set to begin 
production during fiscal year 2017. In cooperation and coordination 
with NECC, Navy Reserve will seek to begin this recapitalization effort 
next year.
Facility Investment
    As part of the integration and alignment efforts, Navy Reserve 
consolidated many of its facilities, closing 23 percent of NOSCs since 
2005. Where able, Navy Reserve has partnered with other service 
components to relocate NOSCs onto military installations in order to 
leverage existing infrastructure and force protection resources. Navy 
Reserve has also partnered with other service components to establish 
joint reserve facilities. The resulting optimal footprint has allowed 
us to make best use of limited military construction and facilities 
sustainment funding in order to provide an environment for RC sailors 
to maintain their mobilization, training and readiness standards.
    As a piece of the Navy's Energy Program for Security and 
Independence, the Navy Reserve continues to seek opportunities to gain 
energy efficiencies through facilities modernization and new 
construction. Navy Reserve military construction projects focus on 
building modern, energy-efficient, and technologically up-to-date 
facilities. For example, current plans prioritize vacating obsolete 
buildings, such as those currently occupied by NOSC Augusta, Georgia 
and NOSC Reno, Nevada. Navy Reserve has also prioritized the 
modernization and construction of two Joint Reserve Intelligence 
Centers. These facilities are ``hubs'' of intelligence expertise that 
facilitate direct support to forward deployed warfighters and are a 
critical part of the Joint Intelligence Program.
    Each year Navy Reserve directs allotted Facilities Sustainment, 
Repair and Modernization funds to address the highest priority 
modernization and repair projects. However, the funds in any given year 
are only sufficient to address a portion of the total facilities 
sustainment requirement. Adequate facilities are necessary to keep 
Reserve sailors ready to mobilize and deploy forward. Your support 
represents an essential investment in the future health and readiness 
of Navy Reserve sailors. Stable, predictable funding levels across the 
FYDP will allow the Navy Reserve to modernize facilities in the most 
effective and expeditious manner.
    Military Construction, Naval Reserve (MCNR) investments enable the 
Navy Reserve to support the Navy's operational mission and maintain the 
readiness of the force. Investments were targeted across the FYDP 
toward facilities that directly support operations, such as the 
aforementioned intelligence center, and towards relocating old NOSCs 
from off-installation to on-installation locations. Navy Reserve 
projects remain a priority despite budget constraints and limited 
funding for military construction, requesting MCNR funds for four 
projects from fiscal year 2017 through fiscal year 2019, and additional 
MCNR projects are being considered for inclusion in the upcoming budget 
submission. The fiscal year 2017 Request for Additional Appropriations 
also includes a request for additional funding to complete construction 
of the Fallon NOSC. The Navy will continue to appropriately prioritize 
Navy Reserve projects to ensure the most critical mission requirements 
are attended to first.
NOSC Security
    Navy Reserve has embarked on an initiative to provide armed 
security for the 71 NOSCs located outside the confines of a major 
military installation. Assisting in this process are 78 SELRES sailors 
serving as Master-at-Arms who maintain the NOSC weapons programs and 
train select NOSC personnel on Standing Rules for Use of Force and Pre-
Planned Responses. Currently, more than 284 Reserve sailors are 
qualified and serving in the NOSC Armed Watch Stander Program. These 
sailors provide armed security at their respective facilities during 
working hours and on drill weekends.
    Additionally, in coordination with Navy Installations Command and 
Naval Facilities Engineering Command, the Navy Reserve conducted a 
broad Anti-Terrorism Force Protection (ATFP) assessment of all off-
installation NOSCs to identify measures to enhance each facility's 
force protection posture. These physical security surveys were 
completed in June of 2016.
    Fiscal year 2016 funds were obligated to address high priority 
security improvements at 14 NOSCs, and additional funds were provided 
for Selected Reserve armed security watch standers. Navy Reserve will 
continue to enhance physical security at the remaining NOSCs to 
mitigate security concerns identified during the ATFP assessments.
Access
    The Navy has grown dependent on regular and reliable access to the 
RC over the past decade. Under the Presidential Declaration of National 
Emergency (DNE), the services and combatant commanders have benefitted 
from involuntary access to the RC via Title 10 USC 12302 authority. 
When there is no longer a need for an annual DNE, access to the RC 
could be constrained under Title 10 USC 12304b authority, which only 
provides involuntary access for preplanned missions of units supporting 
combatant commander requirements.
                               conclusion
    ``Citizen Sailors'' continue to carry on the proud tradition of 
supporting the Navy, Marine Corps and Joint Force looking 
optimistically to the future in terms of their ability to contribute to 
vital national security interests. The broad spectrum of capabilities 
they can bring to bear in the fight against burgeoning superpowers and 
violent extremists are both effective and efficient. With over 3,000 
personnel mobilized around the world and over 12,000 personnel 
providing global operational support each week, Navy Reserve sailors 
deliver unique skill sets to the battlefield. Driven and dedicated to 
serving their country, the men and women of the Navy Reserve have 
become a cornerstone in the Navy's Design for Maintaining Maritime 
Superiority.

    Senator Cochran. Thank you for your testimony.
    We will now hear from the Commander of the Marine Corps 
Forces Reserve, Lieutenant General Rex C. McMillian.
STATEMENT OF LIEUTENANT GENERAL REX C. MCMILLIAN, 
            COMMANDER , MARINE CORPS FORCES RESERVE
    General McMillian. Chairman Cochran, Ranking Member Durbin, 
and distinguished members of the committee.
    Thank you for the opportunity to appear before you today to 
testify on behalf of the Commandant of the Marine Corps about 
your Marine Corps Reserve.
    I am honored to be here with my fellow Reserve component 
service chiefs. With me today are my senior enlisted advisors, 
Force Sergeant Major Patrick Kimble and Force Command Chief 
Christopher Coates.
    I have been at the helm of the Marine Forces Reserve for a 
year and a half, and I am pleased to inform you that your 
Marine Corps Reserve is thriving. On average, we are at 95 
percent manning, and our leadership, morale, and personnel 
health of the Force is at unprecedented levels.
    I am continually impressed by the professionalism, 
competence, dedication, and motivation of our Reserve Marines. 
Like their active duty brothers and sisters, they serve 
selflessly to protect our Nation while at the same time 
balancing their civilian careers and their families. The 
strength of the Marine Force Reserves is the talent, skill, and 
discipline of our individual Marines and sailors.
    I am motivated that the most common question I receive from 
your Reserve Marines is, ``When do I get to deploy?'' They 
maintain the same mindset as the active component Marines. We 
are ready to fight tonight and we are ready to respond to any 
mission.
    My primary focus remains being combat ready and having 
Reserve Marines and units capable of moving, shooting, and 
communicating across the battlefield. Reserve Marines are 
viewed the same and are expected to respond the same as our 
active duty counterparts: on a moment's notice.
    We are integrated with the active component as part of the 
total force. We are expected to be a force that is fully 
complementary, seamless, and an equal teammate to the active 
component.
    We are manned, trained, and equipped to support Marine 
Corps operational requirements across the full range of 
military operations. We are 39,000 strong formed into major 
commands that comprise a marine, air, and ground taskforce. And 
we are unofficially known as the Fourth Marine Expeditionary 
Force. As the Commandant of the Marine Corps said, ``We are one 
Marine Corps, a total Force Marine Corps.''
    To seamlessly integrate with the active component, Marine 
Forces Reserve must maintain equipment parity. Shortfalls in 
equipment modernization result in less interoperability with 
the active component, which slows the pace of operations and 
increases risk to your Marines and risk to mission 
accomplishment.
    Marine Forces Reserve continues to see shortfalls in 
modernization, like our most pressing shortfall, the Casey-
130J, which is used for tactical assault support, air-to-air 
and ground refueling, and combat logistics support. It is the 
major end item which facilitates moving to and across the 
battlefield. We should not send our Marines to a fight with 
legacy equipment.
    Transition to modern equipment requires budget resources. 
NGREA (National Guard and Reserve Equipment Account), as you 
are all familiar with, is a complement to the presidential 
budget. And while we greatly appreciate NGREA, greater spending 
flexibility with this funding source would significantly 
contribute to the ability of Marine Forces Reserve to modernize 
legacy equipment, transition to new systems, improve our 
readiness, and better support our young Marines.
    We owe it to our Nation's most precious assets, the young 
men and women in uniform, to send them into combat with the 
most modern equipment available.
    With the continued support of congress, Marine Forces 
Reserve will continue to serve as a crucial operational 
tactical shock absorber to the active component.
    I want to leave this distinguished body with two requests. 
Number one, we need a predictable and consistent budget. And 
number two, we need a flexible NGREA that complements the 
budget to assist your Marine Corps Reserve in funding major end 
items as defined by law.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Rex C. McMillian
    The United States Marine Corps is the Nation's force-in-readiness. 
For approximately 8 percent of the defense budget, your Corps provides 
an immensely capable and immediately responsive national security 
insurance policy for the American people. When our Nation calls, the 
American people expect quick, decisive action from Marines--both the 
Active and Reserve Components. All Marines must be disciplined, 
focused, and lethal. As the Commandant of the Marine Corps previously 
stated, we are one Marine Corps, a Total Force Marine Corps.
    Your Reserves have been fully engaged across the Globe over the 
past 16 years in theater security cooperation activities and overseas 
contingency operations, serving side-by-side with our Active Component. 
Organized as a traditional Marine Air-Ground Task Force, Marine 
Reservists from each of our major subordinate commands--4th Marine 
Division, 4th Marine Aircraft Wing, 4th Marine Logistics Group, and 
Force Headquarters Group--have made a tremendous impact across a 
diverse spectrum of operations in support of every geographic combatant 
commander's operational and theater security cooperation requirements 
in addition to Service commitments.
    I continue to be deeply impressed by the professionalism, 
competence, and dedication of our Reserve Marines. Like their Active 
Component counterparts, they serve selflessly to protect our great 
Nation. I am inspired by the way they balance family responsibilities, 
civilian careers, and military service. They do so with humility, 
without fanfare, and with a sense of pride and dedication that is 
consistent with the great sacrifices of Marines from every generation. 
Without a doubt, the success of the Marine Corps hinges on the quality 
of our Marines.
    Your Marine Corps Reserve is recruited, organized, manned, 
equipped, and trained to provide a professionally ready, responsive, 
and relevant force as a Marine Corps solution to enable Joint and 
Combined operations. Today's force will remain ready to fight and win 
across the range of military operations and in all five warfighting 
domains--maritime, land, air, cyber, and space. While we remain ready, 
I thank you in advance for ensuring your Marine Corps Reserve achieves 
competitive readiness levels and equipment modernization.
    A Total Force
    Over the past year, the Marine Corps Reserve supported each 
combatant commander by providing forces focused on theater security 
cooperation, crisis response, crisis prevention activities and combat 
operations. Marine Forces Reserve has sustained a robust operational 
tempo while providing critical capabilities essential in maintaining 
national security at the strategic level.
    Global deployments, along with participation in Service, Joint, and 
Multi-national exercises, develop the desired depth of experience of 
the Reserve Force, ensuring the Marine Corps Reserve is relevant, ready 
and responsive to meet combatant commanders' requirements for highly 
trained general-purpose forces. The performance of our Reserve Forces 
in recent Total Force operations demonstrates this fact.
    In 2016, more than 612 Reserve Marines mobilized supporting 18 
operational requirements in five of the six geographic combatant 
commands. Likewise, nearly 5,200 Reservists participated in 34 training 
exercises, supporting requirements in 18 countries across the globe. 
Additionally, more-than 170 Reserve Marines volunteered to serve as 
Individual Augmentees, providing support to nearly every combatant 
commander.
    During 2017, Marine Forces Reserve continues to support the 
combatant commanders by mobilizing an additional 813 Reservists and 
providing 4,500 Marines for a multitude of theater-specific exercises 
and security cooperation events. These operations and exercises greatly 
increase the Reserve Component's interoperability with the Active 
Component, Joint Force, and our allies.
    Though the necessity to activate Marine Corps Reserve units on a 
large scale has decreased in recent years, the demand for the Marine 
Corps' unique capabilities has increased. For example, this year we 
plan to provide forces for a new emerging security force requirement in 
southwest Afghanistan. In addition, for the second year in a row, we 
have mobilized and will deploy a task-organized Special Purpose Marine 
Air-Ground Task Force to U.S. Southern Command in support of theater 
security cooperation objectives. Last year, this formation of ground, 
air, and logistical capabilities supported U.S. Government humanitarian 
assistance that was provided to Haiti immediately after Hurricane 
Matthew.
    Marine Forces Reserve continues to provide daily support to 
combatant commanders in a wide range of roles that include multi-
lateral exercises, such as African Lion in Morocco, Ulchi Freedom 
Guardian in South Korea, and Maple Resolve in Canada. I anticipate 
Marine Forces Reserve will continue to deploy and integrate with the 
Active Component to meet combatant commander high-priority requirements 
through the use of existing mobilization authorities.
    In addition to participating in operational requirements across the 
globe, Marine Forces Reserve continues to support the Total Force by 
dutifully executing the sensitive and crucial mission of providing 
casualty assistance to the families of our fallen Marines. Inspector-
Instructor and Reserve Site Support Staffs are geographically 
positioned to accomplish the vast majority of Marine Corps casualty 
assistance calls and are trained to provide compassionate and thorough 
assistance to families. Indeed, the majority of Marine Corps casualty 
notifications and follow-on assistance calls to the next of kin are 
made by our Marines. During Calendar Year 2016, our Inspector-
Instructor and Reserve Site Support staffs performed 85 percent of the 
361 casualty calls performed by the Marine Corps.
    There is no responsibility that we treat with higher regard than 
the solemn mission of providing casualty assistance. The 
professionalism and compassion of our Casualty Assistance Calls 
Officers (CACOs) continues well beyond the initial notification. We 
ensure that our CACOs are well trained, equipped, and supported by all 
levels of command through the combination of in-person and online 
training. Once assigned, the CACO serves as the family's central point 
of contact and coordinates with funeral homes, government agencies, and 
other organizations. They assist family members with planning the 
return and final resting place of their Marine; and ensure the filing 
of appropriate documents is completed so that the family receives any 
veteran benefits to which they are entitled. In many cases, our CACOs 
provide a long-lasting bridge between the Marine Corps and the grieving 
family.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector-Instructor and Reserve Site Support staffs, with augmentation 
from additional Reserve Marines, performed more than 19,000 Military 
Funeral Honors, which represented 91 percent of all funeral honors 
rendered by the Marine Corps during Calendar Year 2016. As with 
casualty assistance, we place enormous emphasis on providing timely, 
compassionate, and professionally executed military funeral honors.
    Finally, Marine Forces Reserve serves as the most wide reaching 
link between the Marine Corps and communities across the Nation. We 
present the face of the Marine Corps to the majority of the American 
public. With Reserve units located across the country, Marine Forces 
Reserve is uniquely positioned to interact with the public and 
communicate the Marine Corps story to our fellow citizens; most of whom 
have little or no contact with the Marine Corps. For example, last year 
Marine Forces Reserve personnel and units conducted more than 500 local 
and regional public engagement and community relations events across 
the country.
                             predictability
    Operationally focused, the Marine Corps Reserve remains an integral 
part of the Total Force. We remain manned, trained, and equipped to 
seamlessly integrate with and support the Active Component--whether 
conducting combat operations, serving within a Special Purpose Marine 
Air-Ground Task Force, or assigned as advisors with security 
cooperation teams in support of steady-state requirements.
    We work to augment, reinforce and sustain the Active Component 
across the range of military operations while maintaining Force 
readiness to support major contingency operations. We ensure units and 
personnel are ready to meet any challenge by employing a Force 
Generation Model that rotates Marine Reserve units through a 5-year 
Training and Readiness Plan. At any given time, the Force Generation 
Model enables the Reserves to provide combat ready units and 
detachments, which includes two infantry battalions; artillery, combat 
logistics, and multiple aviation capabilities; as well as an assortment 
of other forces. In total, a ready bench of more than 3,000 Reserve 
Marines and Sailors is prepared to augment and reinforce Active 
Component forces in support of a contingency response or as part of a 
theater security cooperation mission.
    Our Force Generation Model provides a level of predictability for 
Force planners and our Reserve Marines, while maintaining the ``train 
as we fight'' philosophy. The Model provides our Reservists, their 
families, and their employers the ability to plan for upcoming duty 
requirements 5 years and beyond. This empowers service members to 
achieve the critical balance between family, civilian careers, and 
service to our Nation while enabling informed employers to plan for and 
manage the temporary absence of valued employees.
    The key element in the Force Generation Model is the consistent 
integration of Reserve units, detachments, and individuals into 
Service, Joint and Multi-lateral exercises, thereby building increasing 
interoperability over the plan's 5-year cycle. The units are assessed 
through a culminating Integrated Training Exercise during the fourth 
year of the training cycle to certify their readiness for use on the 
``ready bench'' during the fifth year. Seamless integration with the 
Active Component in training exercises is conducted in the United 
States and abroad; this training facilitates the Active and Reserve 
Components interoperability, thus achieving success with the Total 
Force Marine Corps.
                               personnel
    Marines, Sailors and civilians are the foundation of all that we 
do. The resources we dedicate to sustaining and developing this 
foundation directly contribute to the success of our institution. The 
vast majority of the Marine Corps Selected Reserve's authorized end 
strength of 38,500 fall under Marine Forces Reserve. The Selected 
Reserve is composed of Marines in four categories: Selected Marine 
Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees, and service members in initial training. Embedded with 
these Marines are 1,800 Active and Reserve component Sailors who serve 
critical roles in the operational and medical readiness of our Reserve 
Force. The success of Marine Forces Reserve would not be possible 
without the continued support from the U.S. Navy.
    In addition to the Marines and Sailors of the Selected Reserve, 
Marine Forces Reserve administratively controls approximately 65,000 
Marines who serve in the Individual Ready Reserve (IRR). Marine Forces 
Reserve continues to monitor the mobilization viability of these 
Marines who have fulfilled their active service commitment and returned 
to civilian life. The mobilization potential of the IRR is monitored 
through the use of muster events that are conducted at multiple 
locations across the country. These muster events are the Marine Corps' 
opportunity to physically inspect these Marines to ensure they meet the 
requirements for mobilization. These events also provide the 
opportunity to address administrative issues, complete mental health 
and post-deployment assessments, review Reserve obligations and new 
opportunities, meet with prior service recruiters, and reconnect with 
fellow Marines. During the past year, Marine Forces Reserve conducted 
26 muster events with 6,545 Marines who serve in the IRR.
    The Marine Corps Reserve completed its current decrease in end 
strength to 38,500 in fiscal year 2016. We will continue to strive to 
retain the very best Marines capable of fulfilling our leadership and 
operational needs. The option of continued service in the Reserve 
Component has become increasingly appealing to young Marines leaving 
active duty. Marines approaching the end of their current contracts, 
whether Active or Reserve Component, receive counseling on the tangible 
and intangible benefits of remaining associated with the Selected 
Reserve. We educate each transitioning Active Component Marine on 
opportunities for continued service in the Marine Corps Reserve through 
the Marine Corps' transition assistance and educational outreach 
programs.
    Despite reduced authorized end strength, our personnel readiness 
has reached record high levels. To sustain this high level of readiness 
we have concentrated on improving our personnel administration and 
retention programs. Throughout the past year, our Marines have worked 
hard to initiate enhancements to our administrative processes and 
standard operating procedures.
    Additionally, we are improving the timeliness and accuracy of 
Reserve pay and entitlement disbursement through the consolidation of 
administration at the battalion, squadron, and group levels.
    Recruiting and retaining high quality Marines remains essential to 
the Marine Corps' reputation as the Nation's force-in-readiness. Marine 
Forces Reserve enjoys high affiliation and retention rates enhanced 
through incentive programs, such as occupational specialty retraining, 
inactive duty travel reimbursement, and bonus payments. These programs 
remain essential to ensure we continue to meet authorized end strength 
and retain our most talented Marines. Over the past 3 years your 
support for these critical programs has helped bolster our overall 
personnel end strength to 99 percent of the total requirement with a 
grade and Military Occupational Specialty match rate of 85 percent. 
This high rate of personnel readiness is not only reflective of the 
health of the Force, but directly contributes to our overall 
operational readiness. While we fully expect to meet our Selected 
Marine Corps Reserve retention and recruiting goals again this year, 
continued use of these incentive programs are critical to optimally 
align our inventory against our requirements, maintain individual and 
unit-level readiness, address shortfalls in staff non-commissioned 
officers, and fully rebuild readiness from previous force structure 
changes. Your continued support for incentives that promote service in 
our Reserve Force will ensure our ability to recruit and retain the 
very best service members.
                               equipment
    For the most part, Reserve Component units remain highly 
interoperable with their Active Component counterparts due to the 
Marine Corps' Total Force approach to equipment fielding and 
management. Active and Reserve Component Forces are manned, trained and 
equipped to the same standards, facilitating the seamless employment of 
Reserve Component Forces to meet combatant commander requirements. 
Marine Forces Reserve mission essential equipment readiness levels are 
sufficient and capable of supporting all home station training 
requirements, as well as current operational deployments.
    In the Reserve Component, personnel resources to identify and 
conduct maintenance are limited to the small full-time support staffs 
at each Reserve Training Center. These staffs are augmented by Reserve 
Marines during the monthly drill and annual training periods. Focusing 
these limited resources on the combat essential readiness reportable 
items constrains routine preventative and corrective maintenance on the 
remainder of equipment. Recent modernizations, coupled with the 
increase in equipment density and complexity, have compounded this 
challenge.
    For many years, Marine Forces Reserve has mitigated risk to 
maintenance readiness in two ways. First, by continually refining the 
Training Allowance, which is the portion of the unit's full Table of 
Equipment kept on-hand at the Reserve Training Center. Our goal is to 
balance the minimum amount of equipment necessary to effectively 
conduct training with the amount of equipment that can reasonably be 
maintained within the personnel and fiscal resource constraints. 
Second, by leveraging Overseas Contingency Operations (OCO) dollars to 
pay for mobile maintenance support teams from Marine Corps Logistics 
Command to travel to Reserve Training Centers and augment the organic 
maintenance capacity. Previous reductions in the availability of these 
OCO dollars have caused Marine Forces Reserve to reduce mobile 
maintenance support capacity, resulting in a noticeable decrease in the 
readiness of non-reportable items. Consequently, this negatively 
affects the quality of training that can be conducted by Reserve units. 
Congressional support for our amended fiscal year 2017 Operations and 
Maintenance, Marine Corps Reserve budget request, both OCO and non-OCO, 
is paramount to our continued success in maintaining high equipment 
readiness.
    The top procurement priorities of Marine Forces Reserve are the KC-
130J Super Hercules and the RQ-21A Blackjack Small Tactical Unmanned 
Aircraft System. The Marine Corps Active Component has fully fielded 
the KC-130J. However, the remaining 23 Reserve Component aircraft are 
not scheduled to be fully fielded until 2027. This extended fielding 
timeline forces the Reserve Component to simultaneously operate the KC-
130J and the legacy KC-130T aircraft over the next 10 years. These two 
aircraft models have vastly different logistics, maintenance, and 
aircrew requirements, resulting in an increased outlay of resources 
necessary to maintain the readiness of the Reserve Component squadrons.
    Our second procurement priority is the RQ-21A Blackjack Small 
Tactical Unmanned Aircraft System. The RQ-21A will provide a dedicated 
intelligence, surveillance, and reconnaissance system capable of 
delivering intelligence products directly to the tactical commander in 
real time. The program is still in low-rate initial production. The 
Active Component began initial procurement in fiscal year 2014 and the 
Reserve Component is scheduled to receive its first RQ-21A in fiscal 
year 2021.
                                training
    During June 2017, Marine Forces Reserve will conduct its fifth 
Service-level Integrated Training Exercise aboard Marine Corps Air-
Ground Combat Center, Twenty-nine Palms, California. This exercise 
consists of a two Battalion assessed live-fire and maneuver exercise, 
featuring Reserve Component Forces from the Marine Air-Ground Task 
Force elements (i.e. command, ground, air, and logistics). The unique 
nature of this exercise ensures maximum training benefits for the 
ground, aviation, and logistics combat elements under the command of a 
regimental headquarters. The Integrated Training Exercise is an 
indispensable component of our Training and Readiness Plan by serving 
as an annual capstone exercise, the principal mechanism for examining 
our training and readiness levels, and assessing our operational 
capabilities. Units participate based on future activation potential in 
accordance with the Marine Forces Reserve Fiscal Years 2017-2021 
Training and Readiness Plan. The Integrated Training Exercise provides 
all Marine Air-Ground Task Force elements an opportunity to undergo a 
Service-level assessment of core competencies that are essential to 
expeditionary, forward-deployed operations. Additionally, individuals 
serving on the regimental command element staff receive training that 
ensures the ability to augment a Marine Air-Ground Task Force and/or a 
Joint staff. In summary, the Integrated Training Exercise improves 
combat readiness, efficiency in Total Force integration, and enables 
more rapid activation response times at the battalion and squadron 
level.
    Marine Forces Reserve continues to maximize continental United 
States-based training events. In fiscal year 2016, we provided an 
exercise force of approximately 2,000 Reserve Component Marines and 
Sailors for training opportunities in Exercise Northern Strike. 
Northern Strike is a joint, combined-arms, live-fire exercise 
emphasizing close air support, joint fire support, and coordinated 
maneuver with fires. The exercise also provides highly sought after 
amphibious training. Executed aboard Camp Grayling, Michigan, at the 
Joint Maneuver Training Center, Northern Strike provides an opportunity 
for Reserve Marines to train alongside Army and Michigan Air National 
Guard (ANG) forces as well as Canadian forces, under realistic 
conditions. Such an exercise ensures our Marines maintain the highest 
levels of proficiency and readiness to integrate with the Active 
Component for worldwide deployment.
    At our Reserve Training Centers, we continue to maximize training 
efficiencies by utilizing simulators wherever possible to preserve 
fiscal and materiel resources. The Reserve Component Indoor Simulated 
Marksmanship Trainers (ISMTs) and other simulation systems safeguard 
consistent capabilities across the Total Force by ensuring Reserve 
Marines are trained to the same tasks, conditions, and standards as the 
Active Component. The ISMTs particularly benefit remote site locations 
that are distant from Department of Defense training ranges by 
preserving valuable training time during drill weekends.
    With our Marines deploying around the globe, we also access and 
leverage a variety of other sources for language and culture training, 
such as the Marine Corps' Center for Advanced Operational Culture and 
Language, the Defense Language Institute, and Regional Language 
Centers. These enhanced language and culture learning opportunities 
coupled with realistic operational training events strengthen core 
competencies and postures Marine Forces Reserve as a ready, relevant, 
and responsive force.
                               facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27 owned and 133 tenant Reserve Training Centers 
(RTCs), three family housing sites, one permanent barracks, three 
emergency troop housing barracks, and one General Officer Quarters in 
New Orleans, Louisiana. Although some RTCs are located on major 
Department of Defense bases, most of our centers are located in 
regional population centers, ranging from civilian neighborhoods to 
industrial and commercial districts. We continue efforts to improve 
maintenance and the security of our facilities to ensure the safety of 
our Marines and Sailors.
    Sixty-six percent of the facilities budget simply sustains the 
existing physical plant and meets base operations costs by focusing on 
daily support and infrastructure maintenance. Costs of maintaining the 
physical plant steadily increase with the age of buildings. We have 
improved the overall readiness of our facilities inventory and 
corrected some chronic facility deficiencies through Marine Forces 
Reserve Facilities Sustainment, Restoration and Modernization (FSRM) 
support. There has been a focused and on-going effort to improve 
overall anti-terrorism security at all of our centers by working with 
our Service partners and the National Guard for joint occupied 
facilities. Although we have leveraged additional funding, these 
emergent anti-terrorism security requirements have placed added strain 
on our already limited budget.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on new enduring requirements and recapitalization of 
our aging facilities.The construction provided by the annual 
authorization of MCNR funding has been an important factor in advancing 
the Marine Forces Reserve facilities support mission. Systemic 
authoritative engineering analyses have been undertaken in order to 
fill gaps in facility condition information. The combined effects of 
our targeted consolidation, FSRM, and MCNR programs have steadily 
reduced the number of inadequate or substandard Reserve Training 
Centers. Continued support for our facilities program will enable 
Marine Forces Reserve to improve the physical infrastructure that 
supports and reinforces the mission readiness of our units. Moreover, 
Marine Forces Reserve continues to pursue opportunities to place 
training facilities within existing Department of Defense compounds.
    In accordance with national mandates, Marine Forces Reserve 
completed energy assessments at our owned sites and continues to 
implement the recommendations from those assessments as funds are 
available. Priority is given to sites that are the biggest energy users 
nationally and specific projects which offer the best return on 
investment. Environmental stewardship continues to be a major priority 
for Marine Forces Reserve sites and units as we continue to comply with 
national, State, and local laws.
                 health services and behavioral health
    Marine leaders have a moral obligation to ensure the health and 
welfare of the Nation's Marines from the day they make the commitment 
to serve. We also must care for the Sailors under our charge; and the 
families of our Sailors and Marines. We take this responsibility 
seriously and strive to maintain the trust and confidence of Congress 
and the American people by immediately addressing any challenge to our 
readiness and finding solutions through our people and readiness 
programs.
    Between deployments, our Health Services priority is to ensure the 
Department of Defense goal of 85 percent Total Force Medically Ready. 
During fiscal year 2016, Marine Forces Reserve individual medical and 
dental readiness rates were 84.6 percent and 89 percent, respectively. 
We strive to improve medical readiness through a robust Post-Deployment 
Health Reassessment (PDHRA) Program at Marine Forces Reserve and an 
accurate monitoring, identification, and notification of unit-level 
actions necessary to attain readiness goals. Additionally, our Health 
Services personnel participate in Force Readiness Assistance & 
Assessment Program unit inspections; and our PDHRA Program participates 
in the Defense Health Agency's electronic audits. These inspections and 
audits provide oversight at unit level and the ability to monitor 
policy adherence which ultimately affects enterprise-level readiness.
    The Reserve Health Readiness Program (RHRP) has greatly increased 
overall medical and dental readiness throughout the Force. This program 
funds contracted medical and dental specialists to provide services to 
units that do not have direct medical or dental support personnel and 
are not supported by a military treatment facility. During fiscal year 
2016, the RHRP performed 14,918 Periodic Health Assessments; 15,860 
Mental Health Assessments; 850 PDHRAs; 163 immunizations; 3,713 
laboratory services; 21,536 audio services; and 18,323 dental 
procedures. In addition to RHRP, the Marine Corps' comprehensive 
behavioral health program addresses issues such as substance abuse 
prevention, suicide prevention, combat and operational stress control, 
domestic violence, and child abuse prevention.
    Marine Forces Reserve continues to conduct Operational Stress 
Control and Readiness (OSCAR) training at all levels. The training is 
provided during pre-deployment training to service members of units 
deploying for more than 90 days, as well as all commands in garrison. 
The purpose of this training is to provide the requisite knowledge, 
skills, and tools to assist commanders in preventing, identifying, and 
managing combat and operational stress concerns as early as possible.
    Navy Bureau of Medicine continues to support behavioral health 
through various independent contracted programs, such as the PDHRA and 
the Psychological Health Outreach Program (PHOP). The PDHRA places an 
emphasis on identifying physical, behavioral, and mental health 
concerns that may have emerged since returning from deployment. During 
Calendar Year 2016, Marine Forces Reserve successfully raised current 
completion totals to nearly 36,000 PDHRA screenings and 16,000 Mental 
Health Assessments. The PHOP addresses post-deployment behavioral 
health concerns and crisis-related interventions through contractors 
with various social work-related backgrounds via a wide array of 
referral services in the community to include follow-up with service 
members. These programs provide a pathway to identify Marines and 
Sailors in need of behavioral health assistance, and an avenue to seek 
behavioral health assistance.
    Signs of operational and combat stress can manifest long after a 
service member returns home from deployment. Delayed onset of symptoms 
presents particular challenges to Reservists who can be isolated from 
vital medical care and the daily support network inherent in Marine 
Reserve units. Encouraging Marines to acknowledge and vocalize mental 
health issues is a ubiquitous challenge facing our commanders. We 
address the stigma associated with mental healthcare through key 
programs, such as the Yellow Ribbon Reintegration Program. Further, we 
market all of our behavioral health initiatives and programs through 
our Marine Forces Reserve portal website and during key Marine Corps 
forums throughout the year. Your continued support of our behavioral 
health initiative programs is greatly appreciated.
    Marine Forces Reserve Drug Demand Reduction Program (DDRP) 
continues to focus on reducing illegal drug use and prescription drug 
misuse within the Reserve community. Marine Forces Reserve relies 
profoundly on its drug-testing program, which acts as a powerful 
deterrent against drug use. Each Reserve unit annually conducts random, 
compulsory drug testing that ensures systematic screening of all 
Reservists for the presence of drugs. The DDRP staff provides education 
and awareness training on the dangers of misusing and abusing 
prescription drugs. The staff also provides information to Reservists 
on the proper disposal of old, unused, and outdated medications. 
Additionally, the DDRP increases leaders' awareness on the dangers of 
abusing prescription drugs through annual substance abuse supervisory 
level training.
    Suicide prevention remains a high priority for the Marine Corps. 
Marine Forces Reserve focuses its suicide prevention efforts on six 
initiatives: in-theater assessments, PDHRA, PHOP, Care Management 
Teams, Marine Intercept Program (MIP), and Unit Marine Awareness and 
Prevention Integration Training (UMAPIT). The in-theater assessments 
target Reservists who are exhibiting or struggling with clinically-
significant issues during a deployment. These Marines are evaluated by 
appropriate medical authorities for possible treatment with follow-up 
decisions made prior to the return home. The PDHRA Program specifically 
seeks to identify issues that emerge after Reservists have returned 
home from deployment. The PHOP secures treatment referrals and provides 
essential follow-up treatment and case management for our service 
members to receive appropriate behavioral health services. MIP is an 
evidence-informed targeted intervention for active duty service 
members, including Reservists, who have had an identified suicide 
ideation and/or suicide attempt. MIP includes a series of telephonic 
voluntary caring contacts in which a PHOP counselor reaches out to the 
Reservist and assesses for risk, encourages use of a safety plan, 
identifies and addresses any barriers to services. The PHOP counselors 
then incorporate these caring contacts into the counseling process. 
Lastly, UMAPIT provides annual training based on evidence-informed 
practices to raise awareness of common risk factors and warning signs 
associated with behavioral health issues. This training also focuses on 
building techniques to protect against behavioral health issues, 
ensuring that Marines understand their responsibility to fellow 
Marines, and limiting the stigma associated with seeking assistance for 
suicidal ideations.
    Additionally, Reservists and their family members can access Marine 
Corps installations' behavioral health programs through Marine Corps 
Community Services while they are on active-duty orders. When not on 
active-duty orders, Military OneSource provides counseling, resources, 
and support to Reserve service members and their families anywhere in 
the world. The Marine Corps DSTRESS Line is another resource available 
to all Reserve Marines, attached Sailors, and family members regardless 
of their activation status. DSTRESS is a 24/7/365, Marine-specific 
crisis call and support center, providing phone, chat, and video-
telephone capability for non-medical, short-term, solution-focused 
counseling and briefings.
                  sexual assault prevention & response
    Sexual assault is a complex problem that is often interrelated with 
other destructive behaviors. Marine Forces Reserve remains focused on 
executing solutions to address the continuum of destructive behaviors, 
with the goal of preventing sexual assault within our ranks. To 
accomplish this goal, Marine Forces Reserve has six full-time employees 
who provide supportive services across the geographically-dispersed 
force. In addition to the Force-level Sexual Assault Response 
Coordinator (SARC), each Major Subordinate Command within Marine Forces 
Reserve has a SARC who manages their commanding general's Sexual 
Assault Prevention and Response (SAPR) Program from the headquarters 
office in New Orleans. Together with the SARCs, the professional 
civilian victim advocate is available to support service members, as 
well as civilians who are eligible for SAPR services. Marine Forces 
Reserve continues to increase victim services, improve victim response 
capabilities, and emphasize prevention.
    Additionally, the SAPR staff trains up to 160 new Uniformed Victim 
Advocates (UVAs) each year during week-long courses held at the Marine 
Corps Support Facility, New Orleans. After being trained and 
credentialed through the Department of Defense's Sexual Assault 
Advocate Certification Program, UVAs are appointed by their commanders 
as Advocates for their respective Reserve Training Centers. Each SARC 
provides continuous support and guidance to the geographically-
dispersed Victim Advocates within their MSC. In total, Marine Forces 
Reserve's SAPR Program maintains a roster of more than 300 UVAs within 
the Reserve Component.
    Marine Forces Reserve members can report at any time, and do not 
have to wait to be performing active service or be in inactive training 
to file their report. If reporting a sexual assault that occurred prior 
to or while performing active service or inactive training, the Service 
members will be eligible to receive timely access to SAPR advocacy 
services from a SARC and a UVA. They also have access to a Victims 
Legal Counsel regardless of the duty status of the individual if the 
circumstances of the alleged sex-related offense have a nexus to the 
military service of the victim.
    UVAs respond to service members regardless of their activation 
status, as well as adult dependents who make a report of sexual 
assault. With the support of their SARC, UVAs screen for potential 
safety issues and provide required safety updates, offer ongoing 
supportive services and referrals, and maintain a data base of 
nationwide resources for victims of sexual assault who may not reside 
on or near an installation. The SARCs and UVAs collaborate with 
providers who are local to the sites to create a network of support and 
response capabilities for the Reserve Component across the Nation.
    Another essential aspect of the response protocol is the 24 hours a 
day, seven days a week Support Line that is advertised to service 
members and their families via written and digital media and during all 
SAPR classes and briefs. The Support Line is manned by the professional 
SAPR staff members who serve as a readily accessible resource for those 
who need anything from immediate assistance to those with questions 
about how to make a report. The Marine Forces Reserve actively 
publicizes the DoD Safe Helpline that is a crisis support service for 
members of the DoD community affected by sexual assault. The DoD Safe 
Helpline is available 24/7 worldwide with ``click.call.text'' user 
options for anonymous and confidential support.
    Our prevention strategy is holistic and integrated with other 
programs that support the prevention effort, such as the Equal 
Opportunity Program, Family Readiness, and Behavioral Health. Marine 
Forces Reserve emphasizes setting the example of discipline and respect 
at all levels of command by encouraging a positive, retaliation-free, 
command climate. Leadership is encouraged to actively engage with our 
Marines and Sailors to learn what we can do to further support a 
positive environment that is free from attitudes and behaviors that are 
incompatible with our core values. Preventative education continues to 
play a role as all non-commissioned officers receive ``Take a Stand'' 
bystander intervention training and all junior Marines participate in 
the ``Step Up'' bystander intervention training each year. 
Additionally, our Marines participate in the various events during 
Sexual Assault Awareness and Prevention Month.
    In summary, Marine Forces Reserve is committed to preventing sexual 
assault while responding with the highest quality of supportive 
services and advocacy to those who need it.
                            quality of life
    We are dedicated to ensuring quality of life support programs are 
designed to help all Marines and their families, whether they are 
deployed or on the home front. Reserve Marines and their families make 
great sacrifices in service to our country and they deserve the very 
best support in return. They are dispersed throughout the country and 
away from the traditional support systems of our major bases and 
stations. Therefore, we strive to ensure awareness of, and access to, 
the numerous support programs available for their benefit. Family 
Readiness Officers provide the vital link to ensuring support reaches 
those who need it.
    Marine Forces Reserve tracks the submission of medical service 
treatment records to ensure Reserve Component Marines receive timely 
access to Department of Veterans' Affairs (VA) healthcare services. 
Working across 178 reserve sites, we aggressively target our 
performance for submission timeliness to ensure our Marines will not be 
delayed in their submission of VA benefit claims once they have 
separated from the service.
    Marine and Family Readiness Programs remain flexible, constantly 
adjusting to meet the needs of our Marines and their families. The 
result is a ready and resilient Force, well equipped to achieve 
success. This heightened state of resiliency is primarily achieved by 
providing robust, relevant and standardized training to our unit 
commanders, Family Readiness Command Teams, Marines and their families. 
Our Marine Corps Family Team Building (MCFTB) program offers non-
clinical primary and secondary preventative education and professional 
training to support service members and their families throughout 
mission, life, and career events. MCFTB training events are delivered 
in person at Marine Corps units across the United States and through 
interactive computer based trainings on the MarineNet platform. During 
fiscal year 2016, Marine Forces Reserve conducted 256 training events 
at which 10,530 Marines and family members received valuable 
information to help prepare for upcoming deployments, thrive during a 
deployment, and achieve a positive post-deployment reintegration 
experience.
    A key component to our quality of life and resiliency is the 
religious ministry support provided by the 202 Chaplains and Religious 
Program Specialists who serve in our ranks; 127 of whom are in Reserve 
units, while 75 support the Active Component. Of those, 11 are 
mobilized in support of combatant commanders across the globe. This 
support includes providing divine services across the spectrum of faith 
communities, advising on spiritual and ethical matters, and pastoral 
care in a safe, confidential environment. One signature program is the 
Chaplain Religious Enrichment Development Operations (CREDO) program. 
The Marine Forces Reserve CREDO program provides two transformational 
workshops: the Marriage Enrichment Retreat (MER) and the Personal 
Resiliency Retreat (PRR). These events equip Marines, Sailors, and 
their families with practical relationship and communication tools that 
strengthen marriages and individual resilience while on the home front 
and during deployments. The PRR curriculum also helps Marines and 
Sailors set personal goals, make good decisions, deal with stress, and 
live lives with greater purpose and satisfaction. During fiscal year 
2016, 12 Marriage Enrichment Retreats were conducted with 288 
participants and two Personal Resiliency Retreats were conducted with 
27 participants.
    The Marine Corps Personal and Professional Development programs 
continue to provide training and educational resources to service 
members and their families. The Transition Readiness Program implements 
a comprehensive transition and employment assistance program for 
Marines and their families; the program emphasizes a proactive approach 
that will enable Marines to formulate effective post-transition 
entrepreneurship, employment, and educational goals. Transition 
Readiness is a process that occurs across the Marine for Life Cycle, 
not an event that occurs at a single point in time. Additionally, the 
Marine For Life Network provides education and awareness briefs to 
Reserve Marines and their family members during IRR Mobilization 
Exercises, with the intent to link them to employment, education, and 
community resources in support of their overall life goals.
    Our Semper Fit program continues to be fully engaged in partnering 
with our bases and stations to provide quality, results-based education 
and conditioning protocols for our Marines and Sailors. The High 
Intensity Tactical Training program includes hands-on, science-based 
strength and conditioning courses, online physical fitness tools, 
mobile applications for service members to access anywhere, recorded 
webinars, as well as instruction on injury prevention, nutrition, and 
weight management. Our Marines' and Sailors' quality of life is also 
enhanced through stress management and esprit de corps activities, such 
as unit outings and participation in competitive events. These programs 
are crucial to unit cohesion and camaraderie.
    The Yellow Ribbon Reintegration Program (YRRP) is an invaluable 
partner with the Marine Corps Unit, Personal, and Family Readiness 
Program at every command level. Since its inception during 2010, the 
YRRP has held more than 792 training events for more than 37,000 
Marines, Sailors, and family members. In fiscal year 2016, 132 YRRP 
training events were conducted with 1,509 participants. The YRRP is a 
tool for commanders to remain engaged with the challenges and issues 
facing Marines, Sailors, and their families. The YRRP continues to 
thrive. Marine Forces Reserve, with the assistance of our Marine Corps 
Family Team Building staff, has developed innovative methods for 
program delivery that are sustainable in any fiscal or deployment 
climate. This includes developing webinars that can be delivered 
nationally, mail-outs, social media, personalized briefs designed to 
meet the individual needs of the service member and family, and working 
with the Family Readiness Officers to leverage national and local 
resources at no cost to the government.
    We remain supportive of Military OneSource, which provides our 
Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
resources. Military OneSource provides counseling on subjects such as 
parenting, child care, education, finances, legal issues, deployment, 
crisis support, and relocation.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We will continue to be a faithful advocate for a robust Family 
Readiness Program that evolves and adapts to the changing needs of our 
Marines, Sailors and their families. The combined effect of these 
programs is critical to the readiness and retention of our Marines, 
Sailors, and their families, and your continued support is greatly 
appreciated.
   supporting our wounded, ill, or injured marines and their families
    The Marine Corps ensures the availability of full spectrum care to 
all wounded, ill, or injured (WII) service members, whether they are 
Active or Reserve, through the Wounded Warrior Regiment (WWR). Marines 
Forces Reserve ensures Reserve Marines' unique challenges are addressed 
through a liaison who provides subject matter expertise and special 
coordination with the WWR staff.
    The WWR staff includes the Reserve Medical Entitlements 
Determinations Section, which maintains specific oversight of all 
Reservists' cases requiring medical care for service-incurred and duty-
limiting medical conditions. Reservists facing complex care and 
recovery needs have access to WWR's network of 45 Recovery Care 
Coordinators who provide one-on-one transition support and resource 
identification for WII Reservists and families, who often live long 
distances from military installations. The WWR also has medical 
advocates at the regimental staff who are available to assist 
Reservists in need of medical care coordination and advocacy and has 
district injured support coordinators and field support representatives 
dispersed throughout the country who coordinate with Reserve units to 
ensure we keep faith with all Marines.
    Marine Forces Reserve will not forget the sacrifices our Marines 
have made for this great Nation; and we will continue to work with the 
WWR to establish resources and programs that address the unique and 
ongoing needs of our Reserve population.
                               conclusion
    The Marine Corps is our Nation's force-in-readiness and will 
continue to be most ready when our Nation is least ready. As part of 
the Total Force Marine Corps, Marine Forces Reserve must remain manned, 
trained, and equipped to provide forces to the Active Component to 
respond across the operational spectrum and in all five warfighting 
domains. Although this unstable and increasingly dangerous operating 
environment is further complicated by a constrained resource 
environment, we must continue current operations, reset our equipment, 
and maintain our warfighting readiness while modernizing the force. 
Accordingly, we will make pragmatic institutional choices as we balance 
our available resources between current commitments and future 
readiness requirements. Semper Fidelis!

    Senator Cochran. Thank you very much, General McMillian.
    We will now hear from the Chief of the Air Force Reserve, 
Lieutenant General Maryanne Miller. General.
STATEMENT OF LIEUTENANT GENERAL MARYANNE MILLER, CHIEF, 
            AIR FORCE RESERVE
    General Miller. Chairman Cochran, Vice Chairman Durbin, and 
distinguished members of the subcommittee.
    Thank you for the opportunity to meet with you today.
    I am honored to have with me this morning my Command Chief, 
Chief Master Sergeant Ericka Kelly. Together we represent 
America's 69,000 Reserve citizen airmen providing daily 
operational capability and surge capacity, ensuring airspace 
and cyber dominance around the globe.
    Today, I will present our current state of readiness, 
discuss our integration across our Air Force domains, and 
acknowledge a few of our capabilities unique to supporting our 
Air Force's operational and strategic demands.
    Full spectrum readiness means the right number of airmen 
trained, equipped, and ready to accomplish the operational 
missions in support of joint efforts around the globe.
    The readiness concerns which weigh most in our preparation 
for the fight are insufficient manpower, both in full time 
support and critical skills, training availability and funding, 
weapon system sustainment, and concurrent fielding of aircraft 
and equipment.
    The last 26 years of continuous operations coupled with 
current budgetary constraints has stressed our readiness 
levels. They have left us with a smaller force of seasoned 
airmen and threatened our ability to reach and sustain full 
spectrum readiness.
    To continue supporting emerging missions and enduring 
operations, I need a slight growth in manpower with 
predictable, reliable funding to match resources to our 
reservists' availability.
    Though our recruiting efforts continue to meet annual 
goals, they do mask underlying shortages in both full time 
support and critical skills manning. The Air Force Reserves 
needs 445 more pilots and 1,500 maintainers.
    Because of recruiting challenges, we have had to increase 
non-prior service accessions to meet in-strength over the last 
3 years. Non-prior service recruits significantly increase our 
training costs and stress our ability to maintain full spectrum 
readiness.
    Prolonged budgetary churn has challenged the Air Force's 
ability to sustain war fighting capability, improve readiness, 
and modernize the Force.
    A year long Continuing Resolution would stifle improvements 
in readiness and degrade our ability to sustain any progress 
that we have made to date. It would cut crucial funding to our 
special tour, and operations and maintenance funds curtailing 
critical training and our equipment. Air crew proficiency 
training would be limited as well as our key participation in 
joint exercises.
    A yearlong CR (continuing resolution) would further 
decrease aircraft availability, shrink critical commodities, 
and weaken our ability to meet the demands of the Air Force.
    Modernization recapitalization and military construction 
funding are essential to guarantee we remain agile and combat 
capable.
    The Air Force Reserve leverages the National Guard and 
Reserve equipment appropriation to increase our capability and 
ensure interoperability in the joint fight. So thank you very 
much for your support in that.
    We must develop a concurrent fielding and divestment 
strategy for the Air Force to ensure operational parity with 
the active component and allow for synchronized use of 
resources and training.
    Reserve citizen airmen are associated in two-thirds of the 
Air Force's total force enterprise. We partner across every 
MAJCOM, leveraging unit associations in all our Air Force 
Reserve core missions.
    We also capitalize on our ability to integrate individual 
reservists throughout the Department of Defense to enhance 
mission execution.
    A fiscal year 2016 Air Force reservist performs 4.4 million 
man days and filled over 3,200 Air Expeditionary Force 
taskings. Today and every day, 6,000 reservists are operating 
around the globe.
    Air Force Reserve citizen airmen deliver a diverse 
capability for our Nation's defense. We have over 8,000 
Individual Mobility Augmentees working around the globe, 
infusing their civilian experience and their talent into all 
Air Force core missions, particularly in space, cyber, and the 
intelligence areas. Leveraging their unique civilian experience 
adds additional capacity to advance our progress towards the 
future fight.
    We also leverage existing infrastructure across 58 partner 
locations by sharing facilities and equipment with our active 
and our joint partners while maintaining only nine host 
installations.
    Over nearly three decades of being engaged around the 
globe, we have successfully adjusted to an operational reserve. 
Portions of our Force are stressed, but citizen airmen are 
resilient, engaged, and honored to serve.
    We require your support for sufficient resources to meet 
full spectrum readiness, increased in-strength to support 
integrated operations, and an increased budget to buyback the 
readiness deficit and modernize our weapon systems.
    A stable, predictable budget will ensure your Air Force 
Reserve is combat ready at all times.
    Thank you for your support of the Air Force Reserve and the 
opportunity to represent 69,000 Reserve airmen today.
    I look forward to your questions. Thank you.
    [The statement follows:]
        Prepared Statement of Lieutenant General Maryanne Miller
    Chairman Cochran, Vice-Chairman Durbin, and distinguished members 
of this Subcommittee, thank you for the opportunity to talk with you 
today. I am honored to represent America's Reserve Citizen Airmen: men 
and women who live and work locally in your represented States, yet 
serve globally, providing operational capability and surge capacity 
ensuring unrivaled air, space, and cyber dominance.
    For 69 years, this Nation has called on the Air Force Reserve (AFR) 
to support national security objectives in all types of military and 
humanitarian operations around the globe. Today nearly 70,000 Reserve 
Airmen are postured to respond to any crisis or contingency when 
needed. In fact, there are currently 6,000 Air Force Reservists on 
active duty orders operating in air, space, and cyber domains, 
supporting overseas contingencies and other stateside operations. In 
order to remain viable for todays fight and postured for tomorrows, it 
is critical, we not only improve but sustain our readiness and ensure 
we integrate into key mission sets to support the joint fight. However, 
constrained defense budgets and a lack of fiscal stability stress our 
readiness levels and threaten our ability to reach and sustain full-
spectrum readiness. As a critical component of the One Air Force Team 
we will not be fully successful without proper and sustainable funding 
into the out years.
    Today, I am going to affirm our current state of readiness, explain 
how we integrate into the joint environment, and describe what makes 
the AFR uniquely structured to support operational demands in air, 
space, and cyberspace.
                state of the air force reserve readiness
    Over two decades of continuous operations coupled with decreased 
budgets have left us with a smaller force of seasoned airmen and 
strained the readiness of our force as we continue to support the 
unceasing demand for the operational effects of our airpower and other 
critical battle space operations. To help recover from the stress on 
our force we must align our manpower concurrently with the active 
component based on current and emerging mission requirements to best 
support our Nations call. Reserve Citizen Airmen are crucial to meeting 
national objectives and combatant commanders' demands. We must continue 
to leverage our strengths and always partner with the Active Component 
to successfully field new weapon systems, as we have with the F-35 and 
KC-46, and support space, cyber, and Intelligence, Surveillance, and 
Reconnaissance (ISR) missions.
    We define full-spectrum readiness as the right number of Airmen, 
trained and equipped to accomplish operational missions in support of 
joint forces in both contested and uncontested environments. Critical 
skills availability, training resource availability, flying hour 
programs, weapons system sustainment, and operational tempo measure our 
readiness. Congressional support within these critical areas is needed 
to strengthen our readiness. Specifically, my top four concerns are 
shortfalls in both full time support and critical skills manning, 
maintenance concerns due to operations tempo and aging fleets, ensuring 
concurrent fielding of aircraft and equipment and limited budgets under 
continuing resolutions.
Manpower
    With a force of nearly 70,000, we feel the pressures of the budget 
constraints as well as the pull from industry of our most skilled 
airmen. Our rated force is currently short 445 pilots and on average, 
our flying squadrons are 72 percent manned. As a comparison, the Air 
Force, with all three components combined, has approximately 17,000 
pilots. A 2016 RAND study, modeled a potentially large growth in hiring 
in the airline industry over the next decade, which could require Air 
Force to significantly increase retention efforts. A downward trend in 
our pilot manning could continue if we don't take measures to recruit 
and retain pilots through bonuses and other quality of life programs. 
We cannot compete on the same pay scale with commercial industry but we 
must continue to leverage other means to retain the quality airmen we 
need to get the mission accomplished.
    We are beginning to see similar industry dynamics with our 
maintenance force. Our full-time maintenance manning is 80 percent, 
with a shortfall of 1,500 full-time maintainers. We have been 
successful in retaining our traditional reserve maintenance force and 
are manned at 100 percent but our shortfall in full time maintainers, 
coupled with the unrelenting demand for air power, are contributing to 
our decrease in aircraft availability rates and training and support to 
all flying operations.
    As demands for rapidly evolving space, cyber, and ISR missions 
increase, so does the need for increased manpower for these critical 
skill sets. Our 11 Reserve space units are aligned with either Air 
Combat Command or Space Command supporting space operations globally. 
We have over 700 space professional Individual Reserve Augmentees (IMA) 
supporting Major Commands, Numbered Air Forces, and Interagency staffs 
in 25 different locations around the world. The AFR represents 11 
percent of the total force manpower in the cyberspace superiority 
portfolio with 14 Cyber Organizations supporting Major Commands and 
Combatant Commanders. In fiscal year 2017, we increased our ISR manning 
authorizations by 222 to support coverage of full-spectrum ISR 
operations. We added one target system analysis squadron and two 
intelligence support to cyber mission forces squadrons.
    For 16 consecutive years, the AFR has met its recruiting goals and 
our retention rate remains at 90 percent, which is a testament to the 
dedication and professionalism of our force, yet we know these success 
stories mask an underlying stress on the force. High demand Air Force 
Specialties are critically stressed and undermanned. Many of our 
seasoned personnel, such as pilots, maintainers, space, cyberspace, and 
ISR professionals, have chosen to leave the Reserve or transition from 
full-time to part-time service for various reasons such as pay and 
entitlement disparity, reduced funding, unpredictable budget and high 
operations tempo. Our shortages, especially in the Air Reserve 
Technician (ART) program, are compounded by Budget Control Act caps, 
Continuing Resolutions, and hiring freezes. We are very thankful for 
your support in programs such as recruiting, retention, and relocation 
(RRR) bonuses that allows us to target continued service for these 
individuals.
    To effectively grow our force, we must attract, recruit and retain 
the highest quality Citizen Airmen. One of our top recruiting 
priorities continues to be capturing Airmen transitioning from the 
active component. We prefer recruiting prior service members who are 
already trained to make immediate use of their capabilities and 
minimize training costs. Retaining active duty Airmen results in a 
significant cost-savings and brings a wealth of operational familiarity 
and mission expertise. However, we are currently experiencing a 
downward trend in prior service recruiting. Last year, 38 percent of 
our accessions were non-prior service, a 6 percent increase from the 
prior year. Non-prior service recruits significantly increase our 
training costs and delay readiness.
    While retaining pilot experience garners media attention, we must 
remember the combat-tested warriors across our other disciplines and 
career fields. In order to support the growing demand for space, cyber, 
ISR, and other critical Total Force mission areas, we will leverage our 
unique Reserve Citizen Airmen civilian sector experience to retain our 
competitive edge. Since we are postured through Unit Type Codes, we 
have to pull manpower from other areas to stand up emerging missions.
Training and Flying Hours Program
    A stable, predictable budget is critical to allow AFR Citizen 
Airman the ability to plan their participation for the year. This 
permits our people to stay proficient in their civilian career and 
qualified in their Air Force Specialty. Funding for Seasoning Training, 
Continuation and Proficiency Training, and Flying hours is vital to 
maintain our Air Force standards. By leveraging our high experience 
levels in the training environment, we minimize cost and set our newest 
Airmen up for future success, but we must have continuity in the form 
of stable funding to plan our participation.
    Our Reserve Seasoning Training Program (STP) funding is critical to 
ensure new members are qualified. STP training normally occurs 
immediately out of Basic Military Training and Technical School. 
Without the availability of these funds at the beginning of every year, 
we cannot plan for training. Unpredictability damages the relationship 
between our Airmen and their civilian employers and communities, and we 
miss training opportunities which ends up delaying personnel readiness.
    Training and funding of the flying hour program is crucial to 
maintain, rebuild and improve readiness. Air Force Mobility Air Force 
(MAF) flying hours are currently funded at 85 percent, with some 
platforms funded as low as 68 percent. If the Transportation Working 
Capital Fund (TWCF) shrinks, our MAF crews will need more Training, 
Test, and Ferry (TTF) or Operations and Maintenance (O&M) funds to 
offset training deficiencies. The Combat Air Forces (CAF) flying hour 
training program has also been impacted; specifically, Reserve 
allocations for formal training have been reduced. Resources and 
funding for the flying hour training program are critical to preparing 
for combat operations.
Weapon System Sustainment
    We require congressional support of our funding requests for our 
aircraft fleet and supporting systems, including our fleet 
modernization plans. Our weapon system sustainment baseline funding has 
been below 80 percent for the past few years. Additional OCO funding 
takes our sustainment funding to approximately 85 percent, but the 
system is still stressed due to aging fleets, depot modifications, 
corrosion and supply issues.
    The average age of the Reserve fleet is 9 years older than the 
Active Component's fleet. Modernization would help solve our legacy 
aircraft supply chain and test equipment issues, so funding of 
requested Reserve modernization projects, even in this fiscally 
constrained environment, must be a top priority until we can replace 
aging systems. Modernization and recapitalization are essential to 
ensure the AFR remains combat-ready today and relevant for tomorrow's 
fight.
    Our current modernization efforts revolve around upgrading legacy 
systems to enhance situational awareness and improve combat 
effectiveness. While these upgrades ensure we maintain our combat 
capability and interoperability with the active component, the Reserve 
is not funded nor structured to maintain completely separate weapon 
systems or aircraft from our Active Component partners.
    We must develop a concurrent mission design series fielding and 
divestment strategy for the Air Force. This is vital to ensure 
operational parity with Active Duty. We are facing non-current fielding 
issues as the F-16 bridges the gap until the F-35 reaches full 
operational capability. As the Air Force plans to grow, we must 
concurrently field the same mission design series to allow for 
synchronized training and resources. Similarly, as the Air Force 
divests from aircraft like the HC-130H and converts to J-models, the 
Reserve faces a situation where we will be unable to draw trained 
pilots and maintainers from the Active Component. As we plan to support 
new platforms, like the KC-46, we must focus on mission impact and 
ensure installations are sized appropriately. Concurrent fielding and 
divestiture increases our operational relevancy, improves our ability 
to provide combat-ready forces while making the most efficient use of 
our precious resources and dollars.
Infrastructure
    Reserve readiness also requires a look at our infrastructure. 
Without sufficient military construction funding, our ability to 
support mission requirements is limited. The AFR maximizes cost-
effectiveness by sharing facilities and infrastructure with our active 
and joint partners rather than exclusively operating our own 
facilities. We leverage existing infrastructure at more than 58 partner 
installations, while only operating nine host installations. These 
shared facilities, such as aircraft hangars and maintenance shops, 
include more than 17.1 million square feet of infrastructure. As we 
expand into emerging missions and reevaluate legacy requirements, we 
see in many cases our infrastructure is not aligned to meet our needs.
    Currently, the AFR has identified a $910.0 million military 
construction backlog to address recapitalization, modernization and 
consolidation opportunities throughout the command. Due to limited 
military construction funding across the Future Years Defense Program, 
we are increasingly forced to use O&M funding for Facilities, 
Sustainment, Restoration and Modernization (FSRM) work to accommodate 
mission changes, increase building efficiencies and ensure facilities 
meet mission requirements. The AFR has a $1.3 billion backlog for 
required FSRM. Our goal is to make every dollar count, and we will 
continue to use our Facilities Operational Capabilities and Utilization 
Survey program to determine the best use of military construction and 
FSRM funding. As we work through the planning and programming for 
fiscal year 2018, we will request our priority MILCON projects. With 
Congressional support, we can smartly invest in MILCON and apply our 
facility savings to fleet modernization and readiness.
                              integration
Global Vigilance, Reach, and Power
    Operations tempo is one of our measures of readiness. Despite the 
high operational tempo of the last 25 years, our Airmen guarantee 
mission success. During 2016, Reserve Citizen Airmen integrated 
seamlessly with our active and joint partners, performing nearly 4.4 
million man-days. Air Force Reserve Command was the fourth largest 
contributor to combat operations filling more than 3,200 Air 
Expeditionary Force tasks. Our professional Airmen provided Global 
Vigilance, Global Reach, and Global Power for national security to the 
joint forces. The Remotely Piloted Aircraft community collected over 
35,000 ISR combat hours. ISR analysts contributed over 240,000 combat 
mission hours. 1,500 space professionals supported space operations 
worldwide, and 4,000 cyber operators engaged in total force cyber 
protection teams ensuring Global Vigilance. Air Mobility operations 
ensured Global Reach in over 80 different countries. Reserve crews flew 
over 4,000 missions, 7,000 sorties, and 32,000 hours delivering over 
36,000 passengers, and over 34,000 tons of cargo. Our fighters, 
bombers, and Remotely Piloted Aircraft delivered Global Power by 
conducting precision strikes around the world on a daily basis 
supporting joint, special operations and coalition forces. As examples, 
the Reserve RPA community had over 1,000 kinetic strikes resulting in 
over 1,400 enemies killed in action and over 500 enemy high value 
targets destroyed while the 44th Fighter Group F-22's flew 161 combat 
missions and destroyed over 1,100 targets.
    Our daily and continuous operational capability is part of what 
makes us a valuable partner for today and for tomorrow. But, as we 
fight today, we must shape our force for tomorrow by focusing on 
retaining the competitive edge of our resilient Reserve Citizen Airmen 
and providing sufficient support for air, space, cyber, and ISR 
missions.
Associations
    The Reserve has 66 Classic Associations and 10 Active Associations. 
We have nine new associations awaiting approval. We've been engaged in 
Classic Associations for over 50 years. These associations support 
every Major Command providing sustained operations, strategic depth and 
surge capacity. Two thirds of the Air Force's Total Force Integration 
associations are with the Reserve. Classic Associations maintain about 
a 20 percent full-time force dedicated to serving and training the part 
time Reservist. They are 100 percent Unit Type Code postured for surge 
capability. The Reserve is dedicated to remaining cost-efficient, 
maintaining mission effectiveness, and fostering better communication 
with our active and joint partners. Building these associations 
champions Total Force initiatives and leverages the unique strengths of 
each component.
Space
    There are over 1,500 integrated Reserve space professionals and 
supporting staff in 11 associated units throughout Air Combat Command 
and Space Command. High Velocity Analyses support Air Force Reserve 
involvement in space operations to meeting the increasing needs of this 
expanding mission. The Reserve will grow in intelligence support to 
space operations, but future mission requirements will necessitate 
increased support to the Space Mission Force and the Ready Space 
Program, focusing on protecting satellite communications, offensive and 
defensive space control and space aggressor support to the Space 
Mission Force.
Cyber
    Cyberspace is arguably the most rapidly-evolving and highly 
contested domain in the current environment. Our network is constantly 
under siege as we protect our information and our people from cyber-
attacks. We must continue building a force that understands how to 
protect our networks to ensure mission success. The Reserve has over 
3,500 cyber professionals throughout the Combatant and Major Commands. 
Under the Reserve Cyber Operations Group, there are seven Classic 
Associations to include the Cyber Operations Squadron that integrates 
over 100 personnel within Cyber Protection Teams. We plan to grow 
Mission Defense Teams, Cyber Command and Control, and Cyber Mission 
Forces aligned with the Active Component portfolio. As we develop our 
cyberspace technology, we must recruit, leverage the expertise and 
training opportunities in the civilian sector that uniquely benefit our 
part-time Reservists, and train a force with superior understanding of 
this domain.
ISR
    The Reserve has aggressively invested in full-spectrum ISR 
operations covering support to air, space and cyber domains. Our ISR 
capabilities are synchronized with Air Force strategy, responsive to 
the Air Force and Joint priorities. We currently have one ISR group 
with 11 classic associate units, three added in fiscal year 2017. 
Recruiting for ISR is successful at 112 percent of requirements which 
results in a backlog in our training pipeline.
                               uniqueness
People
    By preserving our part-time force structure, Reserve Citizen Airmen 
remain a superb financial value to the Air Force and the American 
taxpayer. The AFR is currently about 79 percent part-time, permitting 
us to remain cost-efficient and mission effective. A part-time Reserve 
Airman costs less than a Regular Air Force (RegAF) Airman. Over a 
career, our cost savings are significant; the 20 year life cycle cost 
for a part-time Reserve officer is approximately half of the active 
component, with a non-prior service member being even less. Another 
cost advantage of the AFR is the ability to capture prior-service RegAF 
members wishing to affiliate as a part-time Reservist. The Reserve is 
uniquely positioned to retain the Air Force's vast investment in human 
capital and maintain cost effective capability against unanticipated 
requirements.
    The Air Force Reserve provides flexibility through our ability to 
adjust reservist participation rates based on demand. Our Selected 
Reserve force is made up of roughly 65 percent Traditional Reservist 
(TR), Full Time Support (FTS), to include 16 percent Air Reserve 
Technicians (ART) and 4 percent Active Guard Reserve, and 10 percent 
IMA. We have over 3,000 Civilians and 250 Active Component partners, 
part of our FTS cadre, who are 5 percent of our manpower. Our FTS 
personnel are responsible for preparation and administration of 
policies and regulations to organize, administer, recruit, instruct, 
train, or support the Air Force Reserve. Additionally, the Air Force 
Reserve has a strategic depth consisting of those members in the 
Individual Ready Reserve, Active Duty Retired, Retired Reserve (AFR and 
ANG), and Standby Reserve, who the President and Secretary of Defense 
may recall when needed. It is this flexibility and capacity which make 
the Reserve a unique and critical partner in our Total Force team. We 
deliver our diverse portfolio capability and Title 10 status as your 
Federal reserve in order to meet the Nation's requirements. It is my 
job to assure Reserve readiness, and I guarantee Reserve Citizen Airmen 
will remain operationally relevant to the joint fight by ensuring the 
right number of Airmen are available, trained properly and equipped 
appropriately.
    Air Force Reserve TRs voluntarily serve this country and continue 
to positively impact your communities. Our Reserve Citizen Airmen 
balance their home life, their civilian job and their military 
commitment on a daily basis. Training and readiness require dedicated 
time, and most hold full time civilian jobs requiring them to 
coordinate with their employer and predict time for participation. 
Reserve Citizen Airmen leverage a diverse range of civilian careers, 
including attorneys, information technology professionals, healthcare 
providers, small business owners and corporate executives. These 
civilian skills make our Air Force team even stronger.
    The Air Force Reserve IMA program exemplifies the Total Force 
Enterprise. IMAs provide the flexibility needed to support total force 
requirements at a moment's notice. IMAs train with their active duty 
counterparts and can easily expand and contract the number of duty days 
they work to support the joint force. In today's austere manning 
environment, IMAs can surge to help augment active component units who 
could otherwise not accomplish their mission. During normal manning 
times, IMAs revert to their minimum work schedule of either 22 or 36 
days a year, providing a ready force at an extremely low cost. The IMA 
program provides exactly the degree of adaptability and reliability the 
Air Force needs to economically and reliably continue the Air Force 
mission, whether it's at the squadron level or the Combatant Command.
    Reserve Citizen Airmen have been in continuous combat operations 
for the past 25 years, hindering their time to focus on full-spectrum 
readiness items. Some of our Airmen volunteer to deploy on 60-90 day 
rotations or 365 day deployed-in-place tours which does not allow 
enough dwell time for full spectrum readiness training. Many reservists 
volunteer to exceed the desired 1:5 mobilization-to-dwell in order to 
meet mission requirements. Deployments and mobilizations are not 
decreasing; in fact, a 4 percent increase is projected in fiscal year 
2018. The Air Force Reserve is initiating eight six-month Reserve 
Component Periods to stabilize mobilization-to-dwell above 1:5 and 
dedicate more time at home base for required training and readiness 
requirements.
Mission
    The Air Force Reserve owns the sole responsibility to execute the 
mission of the Hurricane Hunters and Aerial Spray while sharing aerial 
firefighting duties with our Air National Guard (ANG) partners. Last 
year showed great success. The Hurricane Hunters flew 135 missions with 
more than 1,000 hours monitoring weather conditions in support of the 
National Oceanic and Atmospheric Administration. Our Aerial Spray crews 
dropped 79,000 gallons of pesticides on over 191,000 acres to control 
disease and vegetation proliferation. The Reserve collaborated with the 
Guard to extinguish 16 raging wildfires, while amassing a total of 64 
flight hours and 54 fire retardant drops which dispersed over 1.3 
million pounds of retardant. These missions would not get done without 
the Air Force Reserve.
    The Air Force Reserve owns significant equity, over 25 percent, in 
many other missions providing critical support to the joint fight. We 
provide 60 percent to Aeromedical Evacuation, 33 percent to Air 
Mobility Operations Squadrons, 56 percent of the Airlift Control 
Flights, and 100 percent of the C-5 Formal Training Unit. These 
missions would have critical failures without the support of Reserve 
Citizen Airmen.
    In order to care for our Airmen, the Air Reserve Personnel Center 
(ARPC) was established. They are responsible for the mobilization of 
Air Force Reserve personnel and retired active duty members when 
directed. ARPC provides administrative, records maintenance, and 
personnel support for over 1.3 million members of the RegAF, ANG, AFR 
and retired personnel in all categories. ARPC manages the complex 
processes, status dependent, of the Air Reserve Component. ARPC 
professionals have experience and training to understand these 
complexities and ensure both Guard and Reserve processes are seamlessly 
integrated into Air Force operations.
                               conclusion
    The Air Force Reserve will remain an integrated, flexible and 
combat-ready force providing accessible and sustainable capabilities as 
a viable Air Force Component supporting joint partners and national 
security objectives. Ensuring diverse, operational experience enables 
us to be a combat-ready force with continuity and depth. The key to our 
success in achieving balance between today's fight and tomorrow's 
threat is the right equipment, the right manning and stable, 
predictable funding. We must continue to build on our readiness and 
supporting systems and structures to handle current and future 
operational tempos. Armed with the right equipment and infrastructure 
we can continue to impact the fight every day. Essential to our future 
as a ready force, we must shape our journey to be ready for the next 
fight while preserving our strength as an agile, professional, 
sustainable, reserve citizen airmen force. Thank you for your 
tremendous support of the Air Force Reserve and for the opportunity to 
represent your Reserve Citizen Airmen in our discussion today. I look 
forward to your questions.

    Senator Cochran. Thank you for your testimony.
    We now will recognize the distinguished Vice Chair of the 
Committee, Senator Durbin of Illinois.
    Senator Durbin. Thank you, Chairman Cochran.
    My apologies, first, for coming in late. I had an 
overlapping committee, the Senate Judiciary Committee, upstairs 
and I asked and quickly ran down here. But it is no disrespect 
to the witnesses or to the committee. I am sorry that the 
scheduling caused this.
    I would like to ask each of you for the record, and some 
have already spoken to this, if you would provide me and the 
committee with specifics in terms of the negative impact of a 
continuing resolution on your military mission. We are facing 
that prospect now and there is no need for it as far as this 
subcommittee is concerned.
    Under Chairman Cochran's leadership, we have done our job. 
We are prepared to pass our budget to complete this fiscal year 
and start the debate about next year.
    But we are still facing the real prospect of a continuing 
resolution, which is a wasteful, counterproductive effort by 
this congress.
    So if you give us--give me and I will share with the 
committee--what you consider to be the top negative impacts on 
your mission if we choose the Continuing Resolution route as 
opposed to the appropriation route.
    [The information follows:]
                    impacts of continuing resolution
    General Joseph L. Lengyel.--A short CR increases uncertainty about 
availability of funds, degrades planning fidelity, and reduces the time 
to efficiently execute and manage money that is eventually 
appropriated. A longer CR would have significantly greater impact. For 
example, reserve components receive no National Guard and Reserve 
Equipment Account (NGREA) funds under a CR, greatly reducing efficient 
program management. The C-130H AMP Increment 1 program to upgrade the 
ANG's C-130 fleet is considered a new start in fiscal year 2017, and 
therefore under a CR the program does not receive any funding, which 
will delay acquisition. Additionally, aircraft depot maintenance would 
be curtailed. Depot maintenance schedules are built months or years 
ahead, and work stoppages have long-lasting impacts on aircraft 
availability and readiness. The fiscal year 2017 appropriation provides 
recruiting and retention tools the ANG needs to address shortfalls in 
critical mission areas, which have a direct impact on readiness. A CR 
will force the Air Force to shut down or reduce personnel training, 
which will create backlogs, further stressing mission areas already 
short of qualified personnel. The Air Force would cancel a significant 
number of Guard Overseas Contingency Operation taskings, creating 
operational shortfalls. A year-long CR will keep the ARNG from funding 
Cyber Protection Teams ($9.9M) and HMMWV Modernization ($160 million). 
The ARNG will curtail or cancel participation in major training 
exercises, which would reduce commitments to EUCOM, PACOM and USFK. 
Training will be curtailed for the 278th Armored Brigade Combat Team, 
56th Stryker Brigade Combat Team, and 33rd Infantry Brigade Combat Team 
training in preparation for Combat Training Center (CTC) Rotations in 
fiscal year 2018, reversing momentum in building Army Guard readiness 
through increased CTC rotations. Furthermore, ARNG Aviation training 
quotas will be curtailed, resulting in a less skilled force. The ARNG 
will be unable to meet its increased manpower authorization for fiscal 
year 2017 without the funding from an fiscal year 2017 appropriation.
    Lieutenant General Charles D. Luckey.--Ranking Member Durbin, thank 
you for your attention as we work together to find a resolution to 
addressing the Army Reserve's (AR) need for consistent and predictable 
funding. To date, operating under a CR has had no significant negative 
impact to the AR. However, if we continue to operate under a CR, the AR 
will experience significant negative impacts, including: ?Reduced 
ground OPTEMPO for training readiness to Platoon level; ?Reduced 
funding for units to conduct day-to-day training and operations needed 
to build readiness; ?Reduced training seats in leader development, 
initial skills, and functional training by almost 5,000; ?Reduced 
instructor man-days to support the Total Army School Systems (TASS) and 
other non-TRADOC training institutions; ?Expanded gap in critical 
equipment shortages without National Guard and Reserve Equipment 
Appropriation (NGREA) funding, to include training/weapons simulators 
for early deployers; and ?Cancellation of one of three Warrior Exercise 
(WAREX). The last WAREX 86-02, includes 72 units and approx. 4600 
Soldiers in the Training audience. Additionally, under a year-long CR, 
any flexibility the Army Reserve would have to reprogram funding within 
each Appropriation is prohibited, adding another layer of complexity to 
the AR's ability to manage and fund our Soldiers.
    Vice Admiral Luke M. McCollum.--An fiscal year 2017 full-year 
Continuing Resolution (CR) would have had the greatest effect on the 
Reserve Personnel, Navy (RPN) and Procurement Appropriations. RPN is 
the primary appropriation by which the Navy Reserve component funds its 
daily duties and Fleet support. A full-year CR would have imposed a $66 
million shortfall on the RPN appropriation associated with growth in 
economic assumptions (such as, the personnel pay raise and Basic 
Allowance for Housing) over-and-above fiscal year 2016 funding levels, 
which may have forced Navy Reserve to:--Halt Permanent Change of 
Station moves--Cancel Navy Reserve Canvasser Recruiter orders--Cancel 
Discretionary Active Duty--Special Work (ADSW) orders--Cancel Navy 
Operational Support Center, Anti-Terrorism Force Protection ADSW 
orders--Cancel Funeral Honors ADSW orders--Cancel 3 Year/265 Recall 
orders--Halt Non-Prior-Service Accessions--Halt Bonuses--Cancel Active 
Duty for Training (ADT) Special orders--Cancel ADT Schools orders--Halt 
New Accession Trainee accessions In regards to procurement, the 
Conference Agreement on the fiscal year 2017 Consolidated 
Appropriations Act includes two C-40A cargo aircraft for the Navy 
Reserve. A year-long CR would have nullified longstanding efforts to 
procure these aircraft and restore our capability to the full 
requirement. Navy Reserve currently has just 15 of our risk-mitigated 
17 C-40A aircraft, which are a critical element of our Navy-Unique 
Fleet Essential Aircraft (NUFEA), and represent 100 percent of Navy's 
Lift capability.
    Lieutenant General Rex C. McMillian.--A continuing resolution would 
have created significant challenges to RPMC with a projected $44 
million shortfall if no relief from the traditional Continuing 
Resolution rules was provided. Reserve training (Annual Trainings and 
Drills) would need to be curtailed. Per P&R calculation, RPMC would 
require a reduction of 84,000 workdays (43 percent of 4th Quarter 
drills).

    Senator Durbin. The second question I would like to ask is 
one that is controversial. And General McMillian, I am sorry I 
need to bring this up, but I think it should be part of the 
record of this committee.
    Last month we learned that a shockingly large number of 
current and former Marines--up to 30,000--have been posting 
explicit pictures of female Marines to websites. They call 
themselves Marines United. This scandal is deeply disturbing 
and it appears that the first arrest of a civilian occurred 
this weekend.
    We need to honor the service of every person who steps 
forward and puts their life on the line for our country.
    So what actions are you taking to address it in the Marine 
Corps Reserve? What is the impact on morale, which you 
described as at unprecedented levels, recruiting, and 
retention?
    General McMillian. Thank you for the question.
    Sir, we are nested underneath the Commandant of the Marine 
Corps, and he testified to it previously on what the Marine 
Corps writ large is doing to combat Marines United.
    In the first point, we are extremely disappointed. It is 
not acceptable to be in the Marine Corps and participate in 
something as heinous as Marines United. And I can tell you, 
Senator that we are deeply committed to rooting that out of the 
Marine Corps and we are progressing full speed ahead with that.
    On the Reserve side of the Force, and numbers-wise, we have 
identified approximately 20 Marines. One of those Marines is 
under legal review and then 19 of them are under administrative 
review. So out of that 30,000 fortunately the numbers are 
fairly low.
    Aside from what we are doing institutionally in the Marine 
Corps, inside of Marine Forces Reserve, I have directed my 
commanders at the Division, the Wing, the MLG, and our Force 
Headquarters Group, to get out and visit the Marines and talk 
about this upfront, and tell them that it is not acceptable to 
participate in something in social media along these lines.
    They are either going to get onboard, and get with the 
Commandant in rooting this out, and changing the culture of the 
Marine Corps or they are going to find another place to work. 
It is not acceptable. We are extremely disappointed by it.
    I, myself, Senator, am traveling to 160 sites across the 
country and talking to all of our Marines, along with my senior 
enlisted advisors, Sergeant Major Kimble, Master Chief Coates, 
and we are getting that word out, and I think we are being 
successful at it. I am confident we will solve this problem, 
Senator.
    Senator Durbin. General Neller in his statement before the 
Senate Armed Services Committee gave a very strong statement, 
as I am sure we all felt that he should, but he also spoke 
directly to the women in the Marine Corps about the importance 
of their service.
    So are you and others reaching out to the women in the 
Marine Corps Reserve to reiterate this point?
    General McMillian. Absolutely, Senator.
    We highly value the women in the United States Marine 
Corps. We are actively recruiting as hard as we can to bring 
more women into the Marine Corps. And we are working as hard as 
we can to retain the women in the Marine Corps, and especially 
to rebuild their trust and confidence in the United States 
Marine Corps.
    There is a little bit of good news here. About 6 or 7 years 
ago when this subject of sexual assault and sexual harassment 
was brought up, it was found out in command surveys that there 
was not a lot of confidence to report such things to the 
leadership of the Marine Corps.
    I am happy to tell you that today that has reversed itself. 
When I talk to our women across the Marine Corps, if they have 
confidence in reporting sexual assault and sexual harassment, 
they are in the affirmative stage. Absolutely. Complete trust 
and confidence in the chain of command, and that is not only 
verbally to me. That is coming out in anonymous command climate 
surveys.
    Senator Durbin. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. The distinguished Senator from Maine.

                       NATIONWIDE PILOT SHORTAGE

    Senator Collins. Thank you very much, Mr. Chairman.
    General Miller, you described the nationwide pilot 
shortage, which is a major concern for the Maine Air National 
Guard, as well as for Air National Guard and Air Force Reserve 
units nationwide.
    How can Congress help address this very serious problem of 
pilot shortages, which ultimately is going to have a serious 
impact on our readiness?
    General Miller. Thank you for that important question.
    When you look at the demographics within the Air Force 
Reserve, and I will speak strictly of the Air Force Reserve, we 
do not have an issue bringing pilots in from an aspect of new 
recruits coming in the door. We are raising that number because 
we are not getting the sufficient number coming off of active 
duty.
    So in response to the pilot shortage, we are increasing 
from roughly 80 pilots that we bring in off the street and 
train them to 100, and we may need to raise that more. So that 
is one thing we are doing.
    Our numbers coming off of the active component, which is 
where we get 60 percent of our accessions on the pilot force, 
are decreasing. It is around 50 percent and the trend is going 
lower, which has resulted in why we are increasing our initial 
accessions coming off the street in order to make that up.
    The active component has an issue with retention. They, 
again, do not have a problem bringing in people off the 
streets. It is the retention issue.
    The pull for the Air Force Reserve is the airlines. The 
pull is not for the part time force. When you look at the 
number of pilots within the Air Force Reserve, we are 70 
percent part-time and 30 percent full-time. Of the 70 percent 
part-time, we are 95 percent manned on that part-time force of 
pilots. On the full-time side, we are 66 percent manned.
    So the pull is from the airlines on that full-time support 
piece, which is our challenge. How do we arrest that?
    We do that through recruiting, and retention, and 
relocation bonuses, which is what we are doing with special 
salary rate adjustments. We have an OPM right now and we are 
addressing that.
    So we are trying through many means of budgets to get after 
that full-time support piece. Thank you for your question.
    Senator Collins. Thank you.

                        DUAL-STATUS TECHNICIANS

    General Lengyel, I know you and I had a discussion about 
this very issue in my office, but I want to switch to a 
different issue for you and that is the National Guard's August 
2016 Report to Congress on Dual-Status Technicians.
    It concluded that the requirement in the fiscal year 2016 
NDAA (National Defense Authorization Act) that requires one out 
of every five Title 32 military technicians to be converted to 
Title 5 Federal civilian employees would degrade military 
readiness and undermine the vital role that the National Guard 
plays in emergency response. And this was the recommendation 
based on the input from 54 Adjutant Generals across the 
country. And as you know, there has been a slight extension for 
that conversation to October this year.
    But subsequently, we also had a December 2016 report from 
DOD (Department of Defense) that recommended the conversion of 
about 5 percent of dual-status technicians rather than 20 
percent.
    Do you think that the 20 percent figure is too high?
    And second, how can Congress ensure that if there are some 
appropriate conversions to Title 5 employees, that we are not 
undermining DOD's, or the National Guard's, readiness and 
ability to participate in local and State emergency response?
    General Lengyel. Yes, Senator. Thank you for that question.
    It has been an important topic amongst the Adjutant 
Generals in the States for the past 2 years.
    The short answer is I think that 20 percent conversion to 
Title 5 would degrade readiness. I think that there are three 
things involved in the legislation.
    Currently, our technicians are required to have both a 
military job to go along with their technician job, and this 
bill separates that. You no longer are required to maintain 
your military membership.
    And so, it is important that in the conversion that people 
who are actually ultimately decided to convert to Title 5 are 
not those people in billets that would deploy with our war 
fighting units to go to war because we want the best, most 
highly skilled, full-time employees to deploy to war.
    The second concern I have is that the full timers are also 
military members who are also there to operate in domestic 
response capabilities. So if they no longer have a military 
position, the Adjutant Generals are concerned that they would 
not have access to them to respond for floods or other domestic 
response capabilities. And that is a valid concern.
    And the third concern is that they are concerned about 
losing the authority, direction, and control over them as they 
become not State employees, but now Federal Title 5 employees. 
And so thanks to this committee for allowing me to delegate to 
them, authority to have direction and control over them. That 
has helped to some degree.
    So yes, I think 20 percent is too high. I do concur with 
the recent December report from the National Guard or from the 
OSD (Office of the Secretary of Defense) that suggested a lower 
number. And I think that we need to get through this and get 
past it. There is some number that can be converted with 
minimal impact to readiness. I do not believe that number is 20 
percent.
    Senator Collins. Thank you very much. I hope that this is 
an area that we can correct.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Vermont, Senator Leahy.

          RELATIONSHIP BETWEEN GUARD AND RESERVE AND EMPLOYERS

    Senator Leahy. Thank you very much, Mr. Chairman.
    As I said, my earlier full statement to be placed as part 
of the record.
    Senator Cochran. So ordered.
    Senator Leahy. In this Committee, we have discussed many 
times the value of employing individuals serving in the Guard 
or Reserve based on the skills and respect that they bring to 
that job. Many employers have enthusiastically embraced the 
benefit.
    But with the reserves becoming more engaged in operations 
and the increased training that is required, we tend to remove 
some of the employers' prime benefit.
    Are there increased stressors, do you find any of you, in 
the relationship between employers and those who are in the 
Guard and Reserve? Anybody want to try it?
    General Luckey. Senator, if I may just jump in for a 
second.
    As I said earlier, as a soldier responsible for 200,000 
other soldiers in maintaining the support of families and 
employers across the Nation, I am acutely aware of--and as I 
said, I think, in my statement--and very much honor the balance 
between being ready enough to be relevant, but not so ready 
that my soldiers cannot keep meaningful, high quality civilian 
employment.
    I would just share with you, Senator, that not only is this 
a subject that I keep a close eye on but, in fact, have 
actually designed a program to chase, if you will, the facts of 
this. Getting a better understanding as a leader in America's 
Army Reserve, what is the breakpoint, if you will, from a 
sustaining readiness perspective that I can expect out of my 
soldiers in terms of time away from their civilian jobs?
    As I look at the Ready Force Construct, and I alluded to 
this a little bit in my opening statement, the Ready Force X 
Construct of America's Army Reserve. Part of what we are 
looking at is what is the stress point?
    There are certain units or certain capabilities that are 
too difficult to retain or remain at a very high state of 
readiness in order to meet the war fighter's requirements. I am 
very seized with this notion based on the acquired skills of 
Army Reserve soldiers.
    We started, as you well know, Senator, in 1908 leveraging 
the extant medical capability inside the civilian sector of 
America to bring that to the Army, and looking at opportunities 
to do that in other domains as well.
    Senator Leahy. But you understand my concern. I can see a 
lot of benefits from your training. I can also see the concerns 
of employers who say, ``Okay. The great benefits, but I may 
lose you for 3 months or 4 months.'' And I assume that you are 
monitoring that very carefully.
    General Luckey. Yes, sir. Absolutely.
    Admiral McCollum. Senator, if I could add on to 
specifically that comment as well, the Navy Reserve.
    Having that awareness about it and investing in those 
relationships, we know that a reservist is at his or her best 
when they are in a good spot with their employer and with their 
military boss, and I might add the family, of course.
    And so we have actually invested in events that ask our 
employers to come and gather, and we take them to the fleet 
areas.
    Senator Leahy. I think that is very, very important.
    One other area, and General Lengyel, I will ask this of 
you. We have the Family Assistance Center contract changes. 
There is a lot of frustration in that, certainly in my State of 
Vermont. And I know you were there just last week particularly 
related to the pay reductions for Family Assistance Center 
employees and I know you are looking into that.
    What should we expect?
    General Lengyel. Yes, Senator. Thank you for the question.
    Supporting our families and our employers is fundamental to 
supporting our service members and the operational force that 
we have.
    So I would tell you that we have had a transition, as you 
know, from a vendor who runs this contract for us for our 
Family Assistance Centers in the States. And this new contract 
and new vendor has established pay rates to pay their 
employees, which is up to them. And it is up to them to do it 
in accordance with the Contract Services Act. And the pay rates 
are less than the previous contract.
    So my biggest concern, Senator, is that the families 
actually receive the assistance that they need. This contract 
is less than 2 months old, so we are monitoring very, very 
closely to make sure that the services that we bought and paid 
for in this contract actually get to the family member 
services.
    Senator Leahy. My time is up, but I will ask my staff to 
keep in touch with yours. I am not saying Vermont is a 
microcosm of the world.
    General Lengyel. No, it is an issue, Senator.
    Senator Leahy. But with some of the concerns we are 
hearing, I will pass them on to you.
    General Lengyel. Thank you, Senator.
    We are aware and we are working to make sure that they are 
being paid in accordance with all the laws and contracting 
rules. Thank you.
    Senator Leahy. I apologize for the weather you had while 
you were in Vermont.
    General Lengyel. It was still great. It is a great place, 
sir.
    Senator Cochran. Thank you, Senator Leahy.
    Senator Leahy. Thank you.
    Senator Cochran. May I recognize the Senator from Kansas, 
Jerry Moran.

                                 ATEAM

    Senator Moran. Mr. Chairman, thank you very much.
    Gentlemen, Ma'am, thank you for your presence, and your 
service, and leadership to others who serve.
    General Lengyel, let me begin with you; nice to see you 
again.
    We have in Kansas; the Kansas National Guard has an 
Advanced Turbine Engine Maintenance team known as the ATEAM. It 
services the Abram Tank, the engine and it does so for our Army 
as well as those foreign countries that use that tank.
    I wanted to have you tell me, based upon what we spend in 
this program, your evaluation of its value. Is it important 
that we continue to utilize ATEAM to keep us prepared and 
ready?
    General Lengyel. Yes, sir. Thank you for this question. And 
thank you for the work that the Kansas National Guard does, not 
only just with turbine engines, but in many other things.
    I believe there is value in the ATEAM in Kansas. I believe 
that it is efficient in terms of what it costs to actually 
remanufacture an engine. It is something that the Army Materiel 
Command should relook at.
    So we have asked the Commander of Army Materiel Command to 
relook at this facility, and the numbers involved, and the 
amount of money that we are able to, perhaps, save by using 
this facility in Kansas.
    So we have sent a letter to General Perna and asked him to 
reconsider and keep this additional Army engine capability, to 
keep it alive.
    Senator Moran. And is there a consequence, in your view, to 
readiness, getting that tank back into the battlefield in the 
absence of this efficient way to repair?
    General Lengyel. Well, Senator, I suppose there could be. I 
think what AMC has decided it was excess to capacity for what 
they needed to keep their tanks ready.
    In the event we needed a surge of this kind of capacity, it 
provides an additional capacity to remanufacture these engines, 
which could have readiness impacts longer term.

                       KANSAS INTEL FUSION CENTER

    Senator Moran. Let me ask a question on a topic that you 
and I have visited about before, the Kansas Intel Fusion 
Center.
    My question today is I know that steps are being taken by 
creating this planning team to determine how we can remove 
barriers and improve collaboration, and to potentially alter 
the statutory and resource framework of an Intel Fusion Center.
    With the contributions that those Fusion Centers make, I am 
interested in hearing your perspective on the advisability of 
Federal resourcing of the Fusion Center.
    General Lengyel. Yes, Senator.
    So because of the recent discussion we have had with regard 
to the Intel Fusion Center in Kansas, I think that model is an 
innovative model. And I think it provides a unique opportunity 
to share intelligence across public, private, academia, and 
military sectors.
    So I have established a team at the National Guard Bureau 
that is looking across all of the fusion centers. As you may 
know, we have many of them across the Nation. None of them 
really look the same.
    So I have asked this team to come together, of which there 
are members from the Kansas National Guard actually on the 
team, to look at these things. To make sure that we have the 
right policies and funding mechanisms in place, to make sure 
that we get maximum benefit from sharing of the intelligence 
across the whole of Government--public, private, and the whole 
of the Nation opportunity--to keep our Nation safe.
    Senator Moran. Do you see Federal resources as a 
possibility or something that you would find advisable?
    General Lengyel. I suspect that part of it is federally 
funded right now.
    And so, I suspect that as we look at this to determine what 
the right mix of Federal and other funding is to make this 
work. That is why I established the team, to look and make sure 
that we do it correctly.

                           STATUS OF C-40A'S

    Senator Moran. Thank you very much, General.
    Let me see if I can get one more question in to the Marine 
Corps. Sir, the fiscal year 2017 Budget Amendment included two 
C-40A's for the Marine Corps Reserve.
    Could you please tell me, tell the committee, the state of 
your current fleet that the C-40A's will replace? And why those 
aircraft are important?
    General McMillian. Yes, sir. Thank you for the question.
    The aircraft that the C-40's would replace are the C-9's. 
They are hard down. They have been deemed--and my information 
is not current as of this morning and probably a couple of days 
old--but they were deemed not safe to fly and to continue with 
that program.
    So we need that replacement. We need that C-40. It was in 
the active duty component. It is being transferred over to the 
reserve component where we will man that up and fly that.
    And you know what that aircraft will be used for is the 
movement of personnel and logistics throughout CONUS and 
OCONUS, and we are gapped in that capability right now. We need 
to recapitalize on it, sir.
    Senator Moran. Thank you.
    Ma'am, I had a question for you, but I will submit it in 
writing. Thank you.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Montana, Senator Tester. You 
are recognized.
    Senator Tester. Thank you, Mr. Chairman. Thank you.
    I want to thank you all for your service and equally as 
important, the people you represent. Thank you very, very much.
    You can smoke them if you have them. My questions are all 
for General Lengyel.
    [Laughter.]

                            CONVERSION TO T5

    Senator Tester. General, I want to go back to a question 
that Senator Collins had about the conversion to T5 status.
    And I guess the first question is you talked about a 5 
percent coming out of DOD. Is that your recommendation on that?
    General Lengyel. So my recommendation, Senator, is as low a 
number as we can get. I see very little value in increasing 
readiness based on converting even a smaller number than 5 
percent.
    Senator Tester. Okay.
    General Lengyel. I think that it is an art, not a science 
in terms of exact impacts on readiness.
    Senator Tester. So I got it. And this came out of the NDAA.
    And so, why? It does not make any sense to me. Why was this 
done? I know it is probably a better question for McCain or 
Reed because it was done the bipartisan way.
    But can you give me any insight as to why it was bumped to 
20 percent?
    General Lengyel. Well, sir, I think that the 20 percent 
number came from----
    On our manning documents, there are a perceived number of 
administrative positions in nature. Which, at some point, 
somebody thought were coded and that was approximately 20 
percent.
    Senator Tester. Yes.
    General Lengyel. But as we have looked at it--and we look 
at our manning documents and the functions that these people 
provide--we find that, in many cases, they are directly related 
to our readiness and to our war fight mission.
    So 20 percent, to me, is not a good number.

                      EQUIPMENT SHARING AGREEMENTS

    Senator Tester. Well, we do have a bill to fix this and I 
would encourage all of us to jump onboard. It is a bill 
Senators Perdue, and Manchin, and Senator Collins is on it, I 
am on it, and others.
    So hopefully we can get this fixed because we do not want 
to jeopardize your readiness. It is critically important, I 
believe, for the country.
    I want to talk a little bit about the RED HORSE units. We 
have two that share resources, the 219th and 819th, they are an 
associated unit. We rely upon the 819th; the Guard unit that 
relies on the 819th for their equipment.
    What I need you to do, General, is take a look at the 
equipment sharing plans for the associated units, and I know we 
cannot treat all the units the same.
    For instance, sharing an F-22 that would be rarely 
activated by a governor is not the same as sharing construction 
equipment. And that is actually, that construction equipment 
would be called on by the governor for a variety of tasks 
including snow removal, or feeding cattle, or whatever it might 
be.
    So the question I have is how can we improve the equipment 
sharing agreements between the active duty and the Guard?
    General Lengyel. Well, Senator, I think that at one point 
there was a Memorandum of Understanding between the Active Duty 
unit there and the National Guard unit.
    That has expired, and we are in the process right now of 
trying to facilitate the renewal of that agreement so that the 
equipment is ready, and everybody understands that they will 
use it. So I think that is being worked right now.
    Senator Tester. One of the things that I would like to see 
is that the 219th get its own equipment. It would improve their 
mission dramatically, I believe.
    And so, are there any plans that you are aware of with any 
kind of timeline that could make that happen?
    General Lengyel. Sir, there are no specific plans that I am 
aware of at this point to get the 219th their own separate set 
of equipment, but I will ask the Air Force.
    Senator Tester. Get back to me.
    General Lengyel. And I will. Yes, sir.
    Senator Tester. That would be great, if you could.
    As you know, benefit parity between the reserve and the 
active components, in particular, high profile. I believe, and 
I think most people believe that active duty deployment should 
count the same when it comes to benefits no matter what.
    And so have you taken any steps to take care of this 
inequity? We have done some things at this level. We have not 
got them across the finish line yet, but I was wondering if 
there is anything you can do administratively?
    General Lengyel. Yes, sir. Well, thank you very much.
    And I fully support, as I believe the rest of my members 
here with me today, support the parity of benefits for our 
members when they are deployed with our active duty 
counterparts.
    Specifically, the 12304b initiative to fix those benefits 
and make them equal in benefit would be huge, not only for our 
members, but for our retention, for our morale, and for the 
maintaining of this operational force that we are going to 
have. That is the first thing.
    The second thing is we have all been involved regularly and 
routinely with duty status reform efforts ongoing inside the 
Pentagon. And we are all pretty much in agreement that the OSD 
Report, and the way we have gone about that, has done a lot to 
normalize and minimize disparity in pay and benefits for 
reservists and National Guard members, in particular, while 
they are doing their duty.
    Senator Tester. Thank you, General.
    I want to thank you, Mr. Chairman.
    General Lengyel. Thank you, sir.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Missouri.
    Senator Blunt. Thank you, Mr. Chairman.
    Well, General Lengyel, it may seem like night to you since 
you are getting all the questions and I think you are going to 
get two or three from me. We may give somebody else a chance to 
check their mics here in a minute.
    About three of my questions are just your response. I 
understand what you would like me to do and if you can get that 
down, we will be fine.
    One is Whiteman Air Force Base, we were disappointed 
recently that we did not get the reserve unit there. Did not 
get on the list where we would hope to be with F-35's.
    I think part of that is flying space and the National Guard 
controls the cannon airspace near Fort Leonard Wood. There will 
be an effort made to combine that airspace, the airspace that 
Whiteman uses.
    It will be important that the National Guard work with us 
on that. The Army is prepared to work at the Fort with us on 
that.
    And I think when it comes to your attention, just if you 
will take a real look at it based on the fact that we would 
have to clearly understand that you and the Army units at Fort 
Leonard Wood both had the artillery space you needed, but could 
work out a way to expand that airspace a little bit for 
Whiteman. So now that we have that on the record.
    The other thing is Rosecrans where you know, I think every 
year, some number close to 20 of our allied countries send 
people there to work with the National Guard unit on the use of 
C-130's.
    In past years, there was no specific appropriation there, 
and it was hard to plan, and hard to know what you were going 
to be doing. I know you personally involved yourself in that, 
and I believe there will be a designated line item in the 
fiscal year 2018 budget.
    Is that right or tell me what you think is the case?
    General Lengyel. Yes, sir. I am very well aware that weapon 
school at Rosencrans has done great work. And the Air National 
Guard has gone to great steps to normalize the funding, so that 
there is predictable and long term training available there for 
the weapons school.

                 SUICIDES IN NATIONAL GUARD AND RESERVE

    Senator Blunt. And this is a question that I am going to 
come to you with first, but anybody else who would like to have 
a comment in on that, I would be glad to hear that comment.
    We all know that continued suicide issues are a real 
problem in the military, and they are also a real problem in 
the National Guard and Reserve units.
    I was surprised when I recently saw that the highest 
suicide rates of all the components were 60 percent National 
Guard suicides were coming from guardsmen who had never been 
deployed.
    Would you talk about that specifically? And what we are 
doing to try to create more of a support base for people 
serving in the Guard?
    And then, if we have a little time, I would be glad for 
anybody else that would like to talk about how our reserve 
people that move in and out of active duty are maybe more 
stressed by that even than the full-time force.
    But General.
    General Lengyel. Yes, Senator. Thank you for that question.
    There is no issue probably more frustrating to me than the 
high level of suicides that we experience in the National 
Guard, particularly the Army National Guard, which has the 
highest rate per 100,000 of any of the service components.
    We do know a lot about the factors that contribute to it. 
It is relationships. It is financial. It is stress. It is 
transitions.
    So what we are trying to do in the National Guard is 
normalize the psychological health providers that we can get 
into the units, not only on the Air side, which has a very 
good, very low comparatively so suicide rate to the Army.
    But then transition them to all Title 5 civilians. Right 
now they are a mix of Title 5's, contractors, and Dual-Status 
Technicians.
    This, we believe, will allow us to better resource and 
regionally support the psychological and health benefits that 
these people can get along the way.
    But at the bottom line, Senator, this is not something that 
any glossy, tri-fold program is going to fix. This is something 
that requires leadership involvement. It requires a culture of 
people reaching out to ask for help when they need it.
    You may also know that 50 percent of the people who commit 
suicide have never declared or sought help in any sense; 50 
percent, half. So we are trying to get to the people who 
realize it is okay to ask for help and get them not only the 
military capabilities we have to give them, but those in the 
communities from which they live.
    So it is a big challenge for us, and all of us are working 
on it every day, and I think about it a lot in the National 
Guard.
    General Luckey. Senator, if I could jump in real quick.
    What I would say to sort of echo what General Lengyel just 
said. I think what we are seeing is--to me, this is like safety 
from a cultural perspective. Part of this is getting into the 
DNA, if you will, of Army Reserve culture. This notion you have 
to take care and keep an eye on your buddy.
    And I am particularly and acutely concerned, as you 
mentioned. You alluded to it earlier, Senator, about financial 
stress that may be unique, to some extent, to the reserve 
components.
    The one thing I would tell you, and this is a positive 
note--and I want to be careful to not be overly Pollyannaish 
about this trend--but what I am seeing inside America's Army 
Reserve is more self-reporting through a number of different 
conduits where soldiers are able to reach out and get help; 
more self-reporting, if you will, of potential thoughts or 
idealization of potentially doing something harmful to 
themselves, and a significant decline in actual suicides.
    That tells me that there may be a diminishment in the 
amount of stigma that may have previously been attached to 
soldiers coming forward and self-reporting.
    So I regard this as a positive development.
    Senator Blunt. Mr. Chairman, I know I am out of time. If 
the other three panelists would take that for the record, I 
would like to read your response on that as well.
    Thank you, Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from New Mexico, Senator Udall.

                    AIRCRAFT FOR AIR NATIONAL GUARD

    Senator Udall. Thank you very much, Chairman Cochran.
    I really appreciate it.
    General Lengyel, one of the Air National Guard's capstone 
principles was to allocate at least one unit equipped wing and 
flying squadron in each of the 54 States and territories. 
Currently of the 50 States, four do not own their aircraft, 
including New Mexico, which only owns one RC-26 aircraft.
    Is there a plan in place to ensure New Mexico will be unit 
equipped with a sustainable and viable mission in the near 
future?
    General Lengyel. Senator, I think that as the Air Force has 
gotten smaller, it has been much more difficult and impossible, 
in fact, to keep units equipped in every State.
    We have found ways to leverage the superb skills of our 
airmen in all of our States, vis-a-vis associations as we have 
at the 150th Special Operations Wing in New Mexico, as we have 
done, and we have airmen around the world.
    But it is not something that, I think, I would want to tell 
you that we have a plan to put units equipped in every State.

                 CV-22 MISSIONS FOR THE NATIONAL GUARD

    Senator Udall. Now, you mentioned the 150th Special 
Operations Wing. That Wing has been very successful in CV-22 
missions at the 58th Special Operations, and currently 
possesses a substantial portion of operations, and maintenance 
personnel, and experience.
    Have there been any discussions to assign this particular 
mission to the Guard?
    General Lengyel. As always, Senator, the National Guard 
brings the capacity as all the reserve components do to harvest 
that experience of our active component folks as they 
transition. And we have done that in the Special Operations 
community, particularly the CV-22.
    So there are always ongoing discussions with Air Force 
Special Op commands and the United States Air Force to maximize 
the utilization. And where possible, make sure that we have the 
ability and the Reserve component to catch those skills and not 
waste those training dollars that we have for these warriors.

                  RESOURCES AT HOLLOMAN AIR FORCE BASE

    Senator Udall. Great. Thank you.
    General, you stated that a well-integrated and well-trained 
force will keep our Nation safe and secure, our national 
interest. Holloman Air Force Base is preparing to gain a 
temporary F-16 FTU this summer to assist with pilot training 
and the shortage the Air Force is experiencing right now.
    During the recent discussion with General Robertson, the 
Commander of the Air Education and Training Command, he 
welcomed the inclusion of the new New Mexico Air Guardsmen to 
the F-16 mission at Holloman. And the Guard can support 
approximately 100 maintenance positions and another 50 in 
support operations.
    If the Guard were given authority to increase its in-
strength, would you look at placing those resources in New 
Mexico to support the important mission at Holloman?
    General Lengyel. Senator, yes. I think that the National 
Guard always works with the service components to maximize the 
total utilization of the Force.
    If we do have resources, and they are sustainable over 
time, we would gladly work with the Air Force to see where 
those resources could best be placed.

                                  DIUX

    Senator Udall. Great. Thank you.
    And General, in your opening statement, you identify 
innovation as one of your top priorities. I completely agree 
and believe New Mexico has the resources to assist in moving 
that vision forward as we continue to face threats from our 
near peer adversaries and look for ways to counter these 
threats.
    The Defense Innovation Unit Experimental, or DIUx, appears 
to be one of the most beneficial approaches. And I have been 
advocating greater involvement for New Mexico and the DIUx 
program giving our Department of Energy national security labs 
and military assets.
    Can I get a commitment from you to visit New Mexico, and 
look at the capabilities within the State, and present this 
information to the Office of the Secretary of Defense?
    General Lengyel. Yes, sir. You can. Absolutely. Thank you 
for your support of innovation in the military. We need it.
    Senator Udall. Thank you very much.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator, for your contribution.
    Next is the distinguished Senator from Montana.
    Senator Daines.

                    CYBER VULNERABILITIES IN STATES

    Senator Daines. Thank you, Mr. Chairman.
    And thank you all for appearing before this Committee 
today.
    I am the son of a Marine from the 50th Rifle Company from 
Billings, Montana. So while not a veteran myself, I tell you, I 
got raised right.
    Since September 11, the National Guard and Reserve 
components have increasingly assumed an operational role within 
the total force, which augments and supports military 
operations worldwide.
    And to be an effective operational reserve, each of our 
service components must have the right people, the right 
training, and the right resources to be ready when called upon.
    To that end, I believe it is prudent that we leverage the 
unique skills and expertise that our citizen soldiers bring to 
make the force more versatile. And I am so proud, truly, of 
that citizen force, having spent a lot of time with them 
personally and professionally back home in Montana.
    For example, cyber security professionals are in high 
demand--I was in the technology business for 12 years, the 
cloud computing business--in high demand in every State across 
the country, and they have tremendous potential to add value to 
the National Guard with their domestic operations.
    To attract and retain quality talent, however, we must 
ensure our policies take care of the folks in uniform as well 
as their families.
    Earlier this month, an Army National Guard Colonel gave 
very insightful testimony before another senate committee on 
the Guard's unique ability to partner with civic leaders and 
private industry under Title 32 authority to protect critical 
infrastructure across his State.
    Where the DOD clearly has the most advanced cyber 
capability within the Federal Government, Title 32 seems like a 
natural conduit to extend that knowledge and expertise to the 
State and to the local levels.
    In fact, in my view the notion of adding cyber security to 
the Guard's Essential 10 Core Capabilities seems like common 
sense for 2017.
    General Lengyel, would you agree that there are cyber 
vulnerabilities in every State that present appealing targets 
to our Nation's adversaries?
    General Lengyel. Yes, Senator. Actually, I would.
    Senator Daines. And would you agree that these adversaries 
are not bound to the statutory and regulatory limits that 
preclude our Title 10 teams, cyber teams, from accessing State, 
local, or private networks?
    General Lengyel. Yes, sir. I agree with that.
    Senator Daines. Thank you, General.
    It seems evident to me that there is a clear national 
interest for building defensive cyber capability in every State 
under the authority of the Adjutant General.
    I want to shift gears and talk for a moment about this cost 
benefit analysis that came up a little bit earlier. There are 
two objectives to effective leadership. It boils down to 
mission accomplishment and troop welfare.
    The Adjutant Generals overwhelmingly feel that converting 
Dual-Status Military Technicians to Title 5 Federal employees 
will have a negative impact on their ability to respond to 
domestic emergencies. I am hearing that clearly from my team 
back home.
    Proponents argue that the conversion will save money and 
improve employee rights; though the exact savings and the 
improvements remain a bit unclear. I think it is prudent to 
iron out these details before we move forward.
    As my colleagues, Senators Collins and Tester have said 
regarding Dual-Status Military Technicians, I do have concerns 
about the Guard's domestic response mission. We have talked 
percentages.
    General, have you conducted a true cost benefit analysis on 
this?
    General Lengyel. On the conversion?
    Senator Daines. Yes, from Title 32 to Title 5.
    General Lengyel. No, Senator. I have not done a direct cost 
benefit.
    I had assumed that from one kind of technician to another 
kind of technician is the costs of that additional thing is 
about neutral.
    The impact on the States, we have thought a lot about that, 
the impact on the ability to do the domestic mission and how it 
impacts readiness. We have thought a lot about that. But I 
cannot tell you that I have done a cost analysis of the 
transition itself.
    Senator Daines. We would be happy to work with you to see 
if that might help provide additional clarity, perhaps, in that 
decisionmaking process.
    But I think we will need some further dialogue on that.
    General Lengyel. Yes, sir.
    Senator Daines. I know our folks back home would continue 
to enjoy that dialogue.
    General Lengyel. Thank you.
    Senator Daines. I want to shift to 30 soldiers from the 
Army Reserve of the 672nd Engineer Company called the 
``Renegades'' in Missoula. They returned from a deployment in 
Kuwait in Operation Spartan Shield; kudos to those men and 
women for their incredibly hard work.
    General, I understand that under the Ready Reserve concept, 
the Army Reserve would be able to deploy up to 30,000 soldiers 
in less than 90 days.
    General Luckey, can you explain how the Ready Reserve 
concept is nested within the needs of the active component and 
improves the readiness of an operational reserve?
    General Luckey. Thank you for the question, Senator. I will 
be very brief because I know the time has expired.
    I would just tell you that part of the analytics that we 
have put into the Ready Force X constructs are what need to 
happen very quickly to support the war fighters in primarily 
two different potential contested theaters of operation.
    I would just tell you the analytics show me that within 30 
days about 13,000 American soldiers in America's Army Reserve 
in key enabling capabilities have to be able to be deployed 
into harm's way.
    I do not want to advertise that this Force is ready to 
fight tonight. That is where we have to go. It is a force and 
function for a lot of activity inside America's Army Reserve to 
make sure that we tailor and we prioritize effort to make sure 
we can meet the demands of the war fighter in very short order.
    Senator Daines. Thank you, General. Appreciate it.
    General Luckey. Yes, sir.
    Senator Cochran. Thank you, Senator.
    We have a vote that has begun, according to our signal 
light up there on the wall, a vote in the Senate. So we are 
going to have to suspend our hearing, and I have to go vote 
over in the Capitol.
    We do have one or two Senators who want to ask some 
questions of this panel, and I am going to call on the 
indulgence of our panel to wait on Senator Baldwin, or any 
other Senator of the Committee, who wants to come ask questions 
while you are here.
    So I am going to go vote, and I will come right back. So do 
not leave. That is the whole thing.
    [Laughter.]
    General Lengyel. We will stay right here, sir.
    Senator Baldwin [presiding]. Greetings. Thank you for 
staying. I appreciate it.
    I will be brief with my questions.
    General Luckey, I was fortunate to be here when you were 
giving your opening statement. I appreciated the recognition 
that you gave to Operation Cold Steel where my home State is 
hosting 1,000 Army Reserve soldiers at Fort McCoy.
    I wanted to ask you a little bit more about how you see 
Fort McCoy fitting into the need to increase readiness 
particularly as you mentioned in your testimony by training 
Fight Tonight formations.
    Given Fort McCoy's capabilities and the Department of 
Defense-wide focus on readiness, I would like you to outline 
what your plan is to, number one, maximize the training 
throughput at the installation. And not only the Army Reserve, 
but also other components and services.
    And secondly, to invest in Fort McCoy's capabilities to 
ensure soldiers are ready for future threats and mission 
demands. What resources will you need to achieve that plan?
    General Luckey. Senator, thanks very much for the question.
    Just to let you know, first of all, if I may, that what we 
are getting out of Operation Cold Steel is actually in any 
given day, there are probably 1,000 soldiers going through 
training.
    But in the aggregate over the last 6 weeks--and I have been 
up there three times in the last month to see how things are 
going--we will have trained well over 2,300 to 2,500 soldiers 
in gunnery skills, vehicle crew evaluation teams, master 
gunners, not to mention the much wider swath of impact that it 
has had on noncommissioned officer corps for America's Army 
Reserve.
    So I appreciate very much the capacity and the capability 
that Fort McCoy offers us. As you well know, it is one of our 
premiere installations and certainly one that I pay very close 
attention to in the Army Reserve.
    As far as maximizing throughput going forward, Senator, 
what I would tell you is part of what I have challenged all of 
the platform forts, if you will, that fall under span of 
control. I have asked each one of the garrison commanders to 
help talk me through how do we optimize those platforms for 
certain units of action?
    Fort McCoy has the benefit, frankly, of being one of my 
most expansive range complexes in the Army Reserve. It also 
affords me an opportunity to maneuver formations.
    So I am cautiously optimistic that there will be the 
ability at Fort McCoy--unlike some other installations that 
fall under my command--to leverage that capability as we look 
at bringing, if you will, more complex formations that have to 
be at a very high level of readiness very quickly for Fort 
McCoy to train.
    I do not want to commit to you today, Senator, exactly what 
I plan to do at Fort McCoy next week or next year, but I can 
tell you that I have been extraordinarily impressed with the 
team that is there that has supported Operation Cold Steel. And 
I have every intention of continuing to leverage that 
installation as we move into the future in a more aggressive 
fashion.
    Senator Baldwin. Well, I look forward to a continuing 
dialogue on that. And I have another question for both you 
General, and General Lengyel.
    I want to discuss your modernization programs and 
shortfalls, and specifically for the tactical wheeled vehicles.
    I read with concern in the most recent National Guard and 
Reserve Equipment Report, which noted the Guard's challenge in 
recapitalizing FMTV's, which are, by the way, approaching 17 
years of service life. And the Army Reserve's shortage of 
JLTV's, which are not planned to be fielded until 2024, even 
though 64 percent of the vehicles they are meant to replace do 
not meet minimum Force protection standards that keep our 
troops safe.
    So if both of you could please talk a little bit more about 
your modernization strategies for Tactical Wheeled Vehicles, 
including your goals for and the challenges to achieving the 
right fleet mix.
    General Luckey. I will be very quick because I want to give 
time to General Lengyel.
    But I will just say from the Army Reserve perspective, I 
have taken a very hard look at the initial formations and 
forces that have to deploy very quickly into combat, what would 
be the minimum acceptable requirement in terms of number of 
JLTV platforms that those formations may need to have to have 
the survivability and mobility that they would need to be able 
to participate actively in combat.
    General Lengyel. Senator, I think the same thing. We are 
looking at modernizing our fleet as well and if you do not have 
the appropriate protection for our service members, that would 
be a problem.
    So I would like to take that for the record, and give you a 
more specific answer on the numbers, and the transition 
timelines that we could get.
    [The information follows:]
                           tactical vehicles
    The National Guard is grateful for Congress' recognition of the 
continuing requirement for Truck modernization. Modernization remains a 
high priority that addresses requirements both at home and abroad as 
part of the Total Force. The Army National Guard modernizes its 
equipment as part of the Army's overall modernization strategy. As 
such, the rate of modernization of our wheeled vehicle fleet is 
determined by Total Army requirements, and not just Army National Guard 
priorities. As the Army Guard provides input to the Army's 
modernization strategy, our focus is to continue to modernize our Light 
Tactical Vehicles while procuring crew protection kits for medium and 
heavy vehicles. The Army National Guard's Light Tactical Fleet 
modernization is on schedule and we are working with the Army to 
develop a fielding plan for the Joint Light Tactical Vehicle. The Army 
National Guard continues to divest our older, non-armor capable FMTV 
models, procure armored crew protection kits for our newer FMTVs, 
procure or recapitalize select heavy vehicle variants, and continue to 
work with the Army to develop the long-term replacement for our medium 
and heavy tactical wheeled vehicle platforms.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Baldwin. I appreciate that. We will allow that to 
be a question for the record. I do have several others for 
other members of the panel, but I am not going to keep you any 
longer.
    Seeing no other Senators to ask questions, I am going to 
announce that senators may submit additional written questions, 
and we would request that you respond to them within a 
reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Joseph L. Lengyel
              Questions Submitted by Senator Thad Cochran
                deactivation of national guard brigades
    Question. Over the past few years, there has been discussion about 
the total acceptable number of Active and Guard Brigade Combat Teams. 
For example, it had been suggested by the Army that the 155th Armored 
Brigade Combat Team of the Mississippi Army National Guard--which ranks 
as one of the most capable and technologically modernized brigades 
within the National Guard--might be divested. What is the current 
discussion among senior leaders in the Pentagon about number of Army 
National Guard Brigade Combat Teams, given that Congress has halted the 
Guard's manpower draw-down?
    Answer. Currently, the Army National Guard has 27 Brigade Combat 
Teams. The 72nd Infantry Brigade Combat Team is scheduled to inactivate 
in September 2017, bringing the total number down to 26. The Army 
National Guard has requested that Headquarters, Department of the Army 
retain all 27 Brigade Combat Teams and is awaiting a decision on that 
request. Now that Congress has halted the manpower draw down, The Army 
National Guard has the end-strength to maintain 27 Brigade Combat 
Teams. Keeping an additional Brigade Combat team will provide added 
flexibility and operational depth to the Total Army to meet the 
challenges of emerging threats around the world. Presently, there is no 
discussion among senior Army leaders to increase the number of Brigade 
Combat Teams in the Army National Guard above 27.
                      enterprise fleet management
    Question. The Air Force Air Mobility Command recently introduced a 
draft proposal to begin rotating C-17 aircraft among Active Duty, 
Reserve and Guard bases. While the intent of this proposal may be 
admirable, the Enterprise Fleet Management plan has raised significant 
concerns among C-17 Wing Commanders in the Air Guard about how it will 
affect the aircraft ownership culture in the Guard's maintenance and 
pilot community. Do you believe that there may be unintended 
consequences to expanding the Enterprise Fleet Management Plan to Guard 
units? Do you have a recommendation on how these issues should be 
addressed?
    Answer. The Air National Guard (ANG) shares your concern regarding 
the AMC Commander's proposal to swap higher Equivalent Flying Hour 
(EFH) aircraft for lower time ANG aircraft for the purpose of extending 
the service life of the C-17, in addition to other fleets. Detailed 
analysis of the Enterprise Fleet Management plan by the ANG staff is 
on-going to ensure it meets Air Force end goals of recapitalization, 
without negatively affecting ANG readiness. The ANG, the AF Reserve 
Command, and several units (including the 172nd Airlift Wing at 
Jackson) have offered several alternatives to the original AMC proposal 
and we look forward to continued discussions to provide support for the 
AMC mission.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                  guard technician title 32 conversion
    Question. How will readiness be impacted within the National Guard 
with the implementation of the Title 32 conversion to Tile V? What are 
the specific benefits of this conversion for the National Guard?
    Answer. Positions to be converted include those which are 
administrative in nature and can be performed by a civilian during 
regular work hours. Military essential positions, those most closely 
tied to unit readiness, are not being converted. However, rapid 
response during times of disaster may require some state Adjutants 
General to rethink how they employ their first responding Soldiers. 
Also, converted Dual Status Technician positions will no longer have 
the requirement to maintain uniformed status possibly resulting in some 
traditional (part-time) Guard positions being vacated until they can be 
replaced. These changes could result in several challenges. First, it 
may result in some initial personnel turbulence associated with the 
status change. Second, it would impact some technicians' retirement 
date. Dual status technicians who already received military retirement 
extensions who convert to a title 5 civilian position would face an 
immediate military retirement or military separation action. Third, it 
will likely result in fewer full-time personnel available to respond 
immediately to in-state disasters, but part-time personnel would still 
be available for call-up. Overall, the fewer dual status technicians we 
convert the better. The National Guard Bureau sees benefit in 
maintaining the dual status technician program to best provide the 
flexibility and responsiveness the 54 States, territories and the 
District of Columbia need during times of disaster and emergency.
                        national guard training
    Question. Do you feel that the operational tempo of the National 
Guard, particularly the Army National Guard, under the Army's guidance 
of ``Objective T'' and ``Decision Point 58'' will have an impact and 
long term effects on retention and strength?
    Answer. The purpose of Objective T is to objectively and accurately 
evaluate, assess, record, and report training proficiency. While 
Objective T will impact how the Army National Guard measures readiness, 
it will have no direct effect on retention. Implementation of Decision 
Point 58 will increase the operational tempo in Army National Guard 
Armor Brigade Combat Teams and Stryker Brigade Combat Teams. Beginning 
in fiscal year 2019, the Army will need these units to generate and 
sustain higher levels of readiness as well as reduce post mobilization 
timelines. Decision Point 58 units will go from being deployable every 
5 years, to a more rapid 4 year cycle, a change that will require 
additional training days. The additional training days increase the 
speed a unit builds proficiency, ultimately enhancing contingency 
readiness. The true impact of this increased training requirement and 
operational tempo on retention and strength is unknown at this time, 
but measures are in place to improve predictability, transparency, and 
understanding for Soldiers, families, and employers impacted by 
Decision Point 58.
                   military family readiness programs
    Question. What impact has centralized contracting had regarding the 
support of Military Family Readiness programs with the National Guard?
    Answer. Centralized contracting of support services for the Army 
National Guard's portfolio of Child, Youth and Family Programs has 
improved program oversight, standardized and improved reporting and 
reduced overall program cost. Prior to 2012, support services were 
provided by Family Assistance Centers and the Child & Youth Program in 
all 54 States, Territories and the District of Colombia via a state-
level contract (47) or a master cooperative agreement (7). Prior to 
centralization, service delivery consistency was challenging to manage 
and service expectations varied from state-to-state, yielding fifty-
four different ways of doing business. However, Family Readiness 
Support Assistance services had already been operating successfully 
since its inception in 2008 under a centralized contract, modeling 
consistent standards of performance and reporting on improved 
visibility, oversight and use of Federal funds. In order to address the 
inconsistent delivery via other programs like the Family Assistance 
Centers that were still decentralized, the National Guard Bureau Office 
of the Principle Assistant Responsible for Contracting (NGBOPARC) 
continued to further implement acquisition reforms. By centralizing 
more acquisitions at the national level, the National Guard Bureau and 
the State Family Programs were better positioned to meet the Department 
of Defense and Army program reporting requirements and accreditation 
requirements of the Department of Defense Instruction 1342.22.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
             air national guard readiness/flight simulators
    Question. The 101st Air Refueling Wind in Bangor, Maine, the 
``MAINEiacs,'' has long been a workhorse for the Air Force. Last year, 
the Wing processed twice as many gallons of fuel as the average Air 
National Guard refueling Wing, which illustrates its incredible 
productivity as well as the strategic location of the Wing. The Wing 
has also been deploying aircrew, aircraft maintainers, and support 
airmen at very high rates--the highest ever last year in fact with 30 
percent of the force deploying. One of the persistent challenges for 
the Wing in maintaining this high ops tempo has been the absence of a 
flight simulator, which often means members are traveling out-of-state 
for simulator training, which further strains available operational 
training time. What can be done to effectively sustain and maintain 
readiness of workhorse units like the 101st in Bangor?
    Answer. Following 15 years of supporting contingency operations, 
Air National Guard (ANG) units face a steady operational tempo similar 
to that of the active Air Force. The budget request has been calibrated 
to relieve pressure on readiness to include additional fulltime 
maintenance personnel, resources to reduce the AF pilot crisis, and 
additional recruiters to maintain end-strength to improve manning in 
hard-to-fill positions. A key component of the ANG plan to address 
stress on the force is to maintain a complete and qualified force. This 
is critical to sustaining readiness in today's high operations tempo 
era, and that is why we are emphasizing the importance of recruiting 
and retention. Increased recruiting and retention funds will help us to 
retain existing personnel and recruit replacements as personnel 
complete service obligations and retire. Likewise, increased civilian 
and military pay raises and Medicare-Eligible Retiree Health Care Fund 
will support retention. Air Mobility Command continues to explore 
options for the relocation of KC-135 simulators as the KC-46 comes on 
line. The ANG is an active participant in that process and all ANG KC-
135 locations are being considered. To ensure the KC-135 remains viable 
for years to come, the ANG has requested additional funds for 
sustainment of the ANG KC-135 fleet. Requested increases in upgraded 
communications infrastructure, facilities construction, support 
vehicles and support equipment will ensure that our ANG airmen and 
technicians have adequate support to do their jobs efficiently and 
effectively.
                       state partnership program
    Question. With the assistance of the Maine National Guard through 
the State Partnership Program, Montenegro has worked hard to reform its 
military and to strengthen the rule of law to come into compliance with 
NATO requirements. The Senate has ratified Montenegro's membership in 
NATO, and it is expected to join NATO later this year, which will 
promote stability in the Balkans and increase American and European 
security. So I am particularly proud of the work that the Maine Guard 
has done with its partner nation over the past decade. How do you think 
the Guard could further utilize the State Partnership Program to build 
relationships and improve our national security at home and abroad?
    Answer. The State Partnership Program (SPP) is now an established 
foundation for enhancing security cooperation relationships around the 
globe. After nearly a quarter century, the SPP has grown from 13 
initial partnerships with former Soviet Union Republics to 73 
partnerships today that encompass all six geographical combatant 
commands (CCMDs). At the core of the program's success is the ability 
to develop and sustain enduring relationships. State Partnership 
Program events are planned in coordination with the respective CCMDs to 
address specific security cooperation objectives aligned with the 
Ambassadors' Integrated Country Strategies. The program is capable of 
providing a full spectrum of military capabilities, plus other civil-
military capabilities unique to the National Guard's dual role not 
found in the active component to include emergency/disaster response, 
border, port, and aviation security, and counternarcotic trafficking. 
The program matches a state's National Guard with a partner country, 
promoting enduring and mutually beneficial security relationships with 
allies and other friendly nations. A simultaneous and also mutually 
beneficial outcome of SPP is the positive impact of one-on-one 
friendships and life-long lessons learned among the uniformed men and 
women of the National Guard and their SPP counterparts from the 
hundreds of events conducted each year. The State Partnership Program 
is designed as a sustainable and enduring key security cooperation 
enabler for the combatant commanders' tool kit offering a whole-of-
government approach to partnerships by integrating defense, economic, 
social, and educational programs.
                gao report on sexual assault prevention
    Question. A February 2017 GAO report identified a few shortfalls in 
the Army National Guard's and the Army Reserve's sexual assault 
prevention program staffing, budgeting, and investigation timeliness. 
Does the Army's reserve components have a plan and resources in place 
to fully address the concerns identified by GAO?
    Answer. The National Guard has begun to take planning steps to 
improve the ARNG Sexual Harassment/Assault Response & Prevention 
Program throughout the 54 States, Territories and the District of 
Columbia (hereinafter referred to as the States) based on GAO 
recommendations. However, consistent resourcing is a problem. The 
following outlines our plans in response to the GAO report 
recommendations and associated obstacles: STAFF STRUCTURE GAO 
recommended the Secretary of the Army, in coordination with the Chiefs 
of the National Guard Bureau and Army Reserves, evaluate staffing 
approaches. We are addressing the staffing structure; however, the 
National Guard has a limited fulltime force and the majority of our 
Soldiers are traditional (part time). The ARNG has 108 full-time Sexual 
Harassment/Assault Response and Prevention (SHARP) positions to include 
11 Active Guard Reserves, 90 Federal Technicians (81 dual status and 9 
non-dual status) and 7 vacancies. This equates to one sexual assault 
response coordinator and one victim advocate per state. These positions 
are required by Congress in accordance with NDAA 2012, but are unfunded 
requirements for the ARNG. BUDGET GUIDANCE GAO stated, ``The Guard has 
developed budget guidance on the use of funds but has not effectively 
communicated it to the program staff . . . '' The Army National Guard 
SHARP Program Office disseminates and includes the ARNG SHARP Program 
Budget Guidance and discussion during the monthly telephone conference 
and maintains and updates budget ``frequently asked questions'' on a 
central website, Guard Knowledge Online. ARNG INVESTIGATION TIMELINES 
(OCI) The current timelines for processing OCI investigation have 
improved with the average case in fiscal year 2017 taking less than 5 
months to complete, however, NGB acknowledges this process is still too 
slow. Prior to the establishment of OCI, the National Guard lacked the 
capability to administratively investigate sexual assault incidents. 
The National Guard does not have a Military Criminal Investigation 
Office (Army Criminal Investigation Division (CID), Air Force Office of 
Special Investigations, etc.) to investigate sexual assault. Therefore, 
the National Guard Bureau established OCI to fill the gaps of reported 
cases lacking jurisdiction, authority, and resolution. The OCI has been 
instrumental to ensure the National Guard can investigate sexual 
assault crimes in accordance with H.R. 4310 Sec. 573(a) and hold 
offenders accountable through administrative measures. To date the OCI 
has investigated over 250 reports of sexual assault. The exponential 
increase in requests for investigations has stretched NGB's pool of 
trained investigators, which are on temporary duty. OCI has no 
permanent full time investigators. Investigators generally serve on 
temporary active duty orders for no more than 3 years or 1095 days 
because otherwise they count against end strength limitations in 10 USC 
115(i). This has been a key problem in reducing the backlog as the 
program is constantly recruiting and training personnel. The National 
Guard Bureau is not resourced to meet the demand for OCI 
investigations. OCI currently operates on year-to-year funding it 
receives through OSD out of an appropriation provided for Special 
Victim Counsel Program and Capabilities, which is not specific to OCI. 
This funding was intended to support OCI as a temporary measure until 
the Services could program for continued funding. The Services have not 
funded OCI through the DoD programing process. The current method of 
resourcing has proven unpredictable which impacts the staffing and 
investigation timelines. The National Guard Bureau will continue to 
work with the Services to establish and direct program resources in 
order to secure programed funding for OCI to consistently and 
effectively adjudicate these types of cases.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                        associated unit program
    Question. We are over a year into the Army's Associated Unit 
Program where active component and Army National Guard units pilot a 
closer relationship, including matching readiness standards. I am proud 
that the 86th Infantry Brigade Combat Team from the Vermont Army 
National Guard is associated with the 10th Mountain Division. General 
Lengyel, what are some of the lessons we have already learned about how 
to resource and support Associated Units differently than our existing 
model for the National Guard?
    Answer. The most significant lesson learned thus far is the 
importance of understanding and finalizing program requirements in 
advance of the Program Objective Memorandum build. The Pilot was not a 
recognized requirement prior to the fiscal year 2019-2023 POM 
submission, and as a result, based on leadership priorities, we are 
leveraging man-day and other resources from other programs to provide 
funding for fiscal year 2017-2018. As our units continue to integrate 
with their associated counterparts, we are gaining an understanding of 
the additional resources the program will need and we are attempting to 
establish a baseline of requirements. The most consistent request we 
have established is for the additional full time support associated 
with managing increased administrative and coordinating tasks. As we 
prepare the initial Annual report to the Army (October 2017), we will 
identify lessons learned, readiness benefits, and resource 
requirements.
                             mental health
    Question. Vermont is home to the VA's National Center for Post-
traumatic Stress Disorder, and one thing we have come to understand 
through their educational work is that mental healthcare is an aspect 
of physical healthcare. In particular, good mental healthcare practices 
before, during, and after a deployment can decrease the amount of post-
traumatic stress. However, in rural America in particular, mental 
healthcare is difficult to obtain, and in all of America, mental health 
providers are not treated the same as physical health providers by 
insurers or our culture. How are you working to change the perception 
that mental healthcare is something that only applies to some, possibly 
broken, individuals? What policy and legislative changes can improve 
access and availability for Guard and Reserve members, particularly in 
rural areas?
    Answer. In the National Guard, we invest in the health and wellness 
of our service members and their families. We agree that mental health 
and physical health are inextricably linked. We further believe good 
mental health is dependent on the availability of care, the quality of 
care and a positive culture related to seeking care. We are working on 
improving the care seeking culture through a variety of ways. The first 
is an effort to place over 300 full-time mental health professionals in 
Army National Guard (ARNG) and Air National Guard (ANG) units. As 
service members become accustomed to interacting with embedded 
providers, their comfort level increases. Chaplains are also an 
important avenue for service members to seek help. There are 84 full-
time chaplains available for confidential assistance. Psychological 
health education such as Ask, Care, Escort--Suicide Intervention (ACE-
SI), promotes open dialogue among service members and providers; 
focused training of key staff members and leaders using the Applied 
Suicide Intervention Skills Trained (ASIST) program increases their 
awareness that psychological health translates to personnel and unit 
readiness. Lowering the access barriers to both TRICARE's Reserve 
Select program and to the VA system would improve the chances Soldiers 
would seek care. Expanding telehealth provisions to allow for National 
Guard and Reserve members and families to participate in tele-
behavioral health services across state lines, regardless of status, 
would be helpful. The use of technology can directly benefit 
geographically disperse members by eliminating long drives and lack of 
rural mental health professionals. Allowing National Guard Directors of 
Psychological Health (DPH)s and Behavioral Health Officers (BHO)s to 
provide direct treatment to members in limited circumstances--e.g., 
scenarios in which they do not otherwise have adequate access to a 
licensed provider, or if determined to meet certain thresholds for 
risk, would be helpful. Presently, healthcare providers are only 
authorized to assess and refer during weekend drill periods and annual 
training. Allowing direct treatment of the most vulnerable members of 
the NG would fill a current gap in services and increase overall unit 
readiness. --The ARNG would be able to better provide adequate DPH 
services across all 54 States and territories if the program were fully 
funded. Current funding levels provide for about half of the 157 
validated positions. Even with full funding, provider to patient ratios 
on the ARNG side are 1:2000 compared to 1:1200 for the ANG.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
                          red horse equipment
    Question. The 219th RED HORSE currently shares equipment with the 
819th RED HORSE as an associated unit, but the equipment is owned by 
the 819th. Relying upon the 819th for the equipment--especially when 
the Governor calls on the 219th to help with snowstorms or floods--
presents needless obstacles. When will the new equipment sharing MOU 
between the two units be finalized and put in place? How can we improve 
the equipment sharing agreements that are used between active duty 
units and the National Guard, especially for the types of high-use 
items like vehicles, heavy machinery, and construction equipment that 
might be used for emergency response? When will the 219th REDHORSE 
receive its own equipment?
    Answer. The 219 RHS Commander expects to complete the new equipment 
sharing MOA by the end of June 2017. Equipment sharing agreements for 
Defense Support to Civil Authorities are negotiated between the state 
and the affected Regular Air Force unit. The National Guard Bureau will 
continue to engage with the states and the Air Force to ensure these 
agreements preserve access for emergency response. Currently, there are 
no Air Force initiatives or plans for 219th RHS to own its own heavy 
equipment.. The Air Force will not approve additional vehicles or heavy 
equipment for the 219 RHS due to the Classic Association between the 
219/819 RHS.
              military construction for montana air guard
    Question. We have previously communicated about a military 
construction project at the Montana Air Guard to construct a new 
aircraft apron. The existing apron is undersized by approximately 50 
percent. In your response, you stated that the project was a priority. 
When will the new aircraft apron be completed? What can Congress do to 
get this project prioritized appropriately so it can be funded in 
fiscal year 2018?
    Answer. The apron MILCON project has been identified in the ANG 
FYDP to construct approximately 28,000 square yards of aircraft apron 
at Great Falls, MT. In approximately 12 months, the project will be 
design complete at which time it will be included in the ANG MILCON 
Unfunded Priority List. It will then compete against other requirements 
for incorporation into the ANG Current Mission MILCON Program.
                          c-130 modernization
    Question. I'm proud to have worked hard with members of this 
Committee to ensure that critical avionics upgrades in the Air Force's 
C-130 fleet are on schedule. However, we now need to pursue engine 
upgrades that would give the C-130Hs many of the same capabilities as 
the C-130Js at much less cost to the taxpayer than purchasing new 
aircraft. Those modernizations should be fully funded by Congress this 
year. However, I am concerned about the priority of modernizations in 
relation to Montana. What is the future of the C-130 fleet and how will 
the Air Guard balance the need to modernize the C-130H versus 
recapitalizing the newer C-130J models? More specifically, when will 
Montana's C-130 fleet receive the modernizations?
    Answer. The Current C-130J Program of Record procures 135 combat 
delivery C-130Js. Although the Approved Program Baseline allows for an 
additional 20 aircraft to be procured, there are currently no plans to 
procure additional aircraft or recapitalize additional ANG units. The 
ANG C-130H fleet will rely on modernization to maintain combat 
effectiveness. Avionics Modernization Program (AMP): The most immediate 
modernization effort for the C-130Hs is the Avionics Modernization 
Program (AMP) 1 program which is planned for installations between June 
and December 2019. Currently, the 120 AW at Great Falls, MT is planned 
for the install between November and December 2019. AMP Increment 2 was 
funded in the fiscal year 2017 omnibus appropriations and installations 
are planned between fiscal year 2021-fiscal year 2028 (detailed 
timeline TBD) Propulsion Systems Upgrades: The Air Force initiated a 
two-step Operational Utility Evaluation in October 2016 to understand 
the operational effectiveness, suitability, and affordability of 
propulsion system upgrades in combination. This evaluation will inform 
C-130H propulsion system modification decisions in future Air Force 
budgets. To date, four proposed C-130H propulsion system enhancements 
have been individually-tested.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
        199th fighter squadron of the hawaii air national guard
    Question. This questions concerns the 199th Fighter Squadron of the 
Hawaii Air National Guard. Our F-22 pilots and maintainers are out 
every day in support of joint operations, including the counter-ISIL 
campaign. They stand alert to protect Hawaii and are ready to respond 
to contingencies in the Asia Pacific. You'll agree that having this 
high-end capability deep in the Pacific gives DoD a lot of options. 
There is concern in the fact that the squadron has just 18 jets 
compared with 21 jets in every other squadron. We need to ensure we're 
putting them in the best position to do their job. Do you support 
rounding out the full squadron? Do I have your commitment that you will 
explore opportunities to right-size the squadron in the future so it 
can continue to perform well?
    Answer. The Air National Guard is committed to working with the 
Combatant Command, PACAF, and the lead command for the F-22, ACC, in 
order to explore all options regarding the number of aircraft assigned 
to the 199th Fighter Squadron. With an overall F-22 fleet size of 186 
Total Aircraft Inventory (TAI), all stakeholders continue to fully 
assess the mission risk when attempting to increase one unit at the 
expense of decreasing another. Their collective understanding of the 
Combat Air Forces recapitalization and basing strategy 
interdependencies will be essential as we approach fiscal year 2019 POM 
and fiscal year 2020 planning choices.
                        space control squadrons
    Question. The Hawaii Air National Guard is on a short list to stand 
up a Space Control Squadron. Hawaii is the best location for this 
squadron: there is great line-of-sight to see objects in the sky we 
need to see. We have close ties with PACAF, PACOM, their associated 
intelligence, operations, and command and control centers, as well as 
local expertise in the engineering and space fields. We have a proven 
track record with supporting Air Force Space Command. We have C-17s 
available to rapidly deploy the squadron anywhere it needs to go. And 
after the 201 Combat Communications Group and 293 Combat Communications 
Squadron were deactivated last year, we have airmen with the technical 
expertise to draw on to support this mission. In my view, this should 
be an easy decision. Where are you in the decisionmaking process? When 
can we expect an announcement?
    Answer. I certainly recognize the contributions and important role 
the men and women in the Hawaii Air National Guard provide in Homeland 
Defense and support to our Combatant Commanders. To ensure we can fully 
meet the Space Control Mission requirements levied by the Air Force, 
the ANG, in collaboration with HQ Air Force and Space Command, is in 
the process of conducting an enterprise wide evaluation of potential 
space mission locations. This evaluation will include an analysis of 
the most suitable units and locations among all 54 States and 
territories, which certainly includes evaluation of Hawaii locations. 
This process will likely reach a conclusion by the end of fiscal year 
2017 at which time you can expect an announcement.
                             cyber threats
    Question. I am concerned about the resources we have available to 
defend Hawaii's critical infrastructure against potential cyber 
threats. The Hawaii National Guard has a Computer Network Defense team 
that is made up of mostly full-time IT personnel, but it would not be 
prudent to put these individuals on State Active Duty for any length of 
time due to their full-time requirements. Do you see an increase in 
Cyber Protection Teams for Hawaii, either in the Air or Army National 
Guard?
    Answer. At this time, we do not see any increase in Cyber 
Protection Teams (CPTs). The Army National Guard (ARNG) is requesting 
11 previously-approved CPTs be added to the Cyber Mission Force, of 
which none are slated for Hawaii. The Air National Guard (ANG) has 12 
Cyberspace Operations Squadrons (COS) providing two full-time CPTs to 
the Cyber Mission Force. None of the ANG COSs are located in Hawaii. 
However, we do have the Emergency Management Assistance Compacts (EMAC) 
which states, can leverage for assets they do not have. This includes 
access to CPTs in other states such as Washington and California.
                       state partnership program
    Question. Many National Guard units have rich relationships with 
countries in Europe, often as part of the State Partnership Program. 
The relationships have been cultivated over time and offer a unique 
look into their culture and way of life, to include concerns about 
Russia's recent aggression from both a citizenry and military scope. 
These in-roads could offer the European Reassurance Initiative 
rotational units launching points for their exercises, enhancing 
operations with our NATO partners. How are we using these units to 
support the European Reassurance Initiative? How are these National 
Guard units working with Active Duty units to support the reassurance 
mission?
    Answer. Units from the National Guard, joined with their State 
Partnership Program (SPP) counterparts, were among the first military 
units to deploy in support of the multinational exercise Operation 
Atlantic Resolve (OAR). OAR's design is to assure our strategic 
partners and allies while at the same time deterring potentially 
destabilizing actions from Russia. National Guard participation in 
major U.S. European Command (EUCOM) exercises such as Saber Strike, 
Combined Resolve, and Noble Partner has also contributed to a 
stabilizing presence. As this multinational cooperation matures in size 
and frequency in response to an evolving environment, opportunities for 
specific capabilities will emerge. For example, the cyber domain has 
become more relevant for EUCOM in the wake of Russia's cyber-attacks 
targeted toward western institutions. Maryland's 175th Cyber Wing, 
together with EUCOM's Cyber Branch, has nurtured an exemplary 
relationship with its counterparts at the Estonian Cyber Defense League 
(CDL) for countering threats in the region. Additionally, units from 
Oklahoma's 45th Infantry Division are involved in the Joint 
Multinational Training Group-Ukraine, training Ukrainian military units 
to become a more professional and NATO-interoperable force.
                     tanker fleet recapitalization
    Question. Our KC-135 pilots play an important role supporting 
strategic refueling operations for the joint force. Hawaii is a major 
cross-roads for a number of operations around the globe, and 
subsequently these pilots are called upon often. Do I have your 
commitment that as you're working with the Air Force to recapitalize 
the tanker fleet, you'll advocate for bringing the newest aircraft to 
Hawaii?
    Answer. The ANG is an active participant in the Air Force's 
Strategic Basing process and I am confident that the candidate base 
evaluations for the remaining basing decisions for the KC-46, which 
include PACAF units, will fully account for the unique aspects that a 
unit in Hawaii would offer.
                   preventative maintenance contracts
    Question. The National Guard built a Low Observable Composite 
Repair Facility at Joint Base Pearl Harbor-Hickam in 2012 to support 
the F-22 squadron. It cost $25.8 million. The building in its current 
state is having sustainment problems because it did not include a 
preventative maintenance contract. In general, does the National Guard 
not include preventative maintenance contracts for its major 
facilities? If not, why is that and does that not drive up SRM costs 
that the individual State National Guard units have to absorb?
    Answer. NGB provides 75 percent and states provide 25 percent of 
the funding for maintenance of ANG real property through cooperative 
agreements, which include preventive maintenance. It is then the 
responsibility of the state to maintain the real property. Large 
repairs are paid for by NGB through an SRM reimbursement.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                 tactical wheeled vehicle (twv) fleets
    Question. What is the model mix of the Reserve and Guard TWV 
fleets? What is the average age of each model mix and what are the 
shortages by model mix?
    Answer. There are three main categories for the Tactical Wheeled 
Vehicle (TWV) Fleet: Light, Medium, and Heavy vehicles. Each category 
is then broken into subcategories. The expected lifecycle of the truck 
fleet is 20-25 years. The Light category covers the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) fleet with an average age of 13.3 
years. There are four subcategories, which includes ambulance, weapons 
platform, missile, and utility HMMWVs. ARNG has a shortage of 159 
missile vehicles and 308 utility vehicles. The Medium category consists 
the Family of Medium Tactical Wheeled Vehicles (FMTVs), 2.5-ton Light 
Medium Tactical Vehicles (LMTVs) and 5-ton (Medium Tactical Vehicles 
(MTVs). The medium fleet has an average age of 8.2 years. The ARNG has 
no shortages in the Medium Category. The Heavy category contains heavy-
duty vehicles of multiple platforms, including Heavy Expanded Mobility 
Tactical Truck (HEMTT) tractors, fuel transporters, wreckers, Heavy 
Equipment Transporters (HET), Palletized Loading Systems (PLS), Load 
Handling Systems (LHS), and 20-ton dump trucks. The heavy truck fleet 
has an average age of 11.1 years. The ARNG has a shortfall of 60 20-ton 
dump trucks, all other subcategories are at 100 percent equipment on 
hand.
                              f-35 basing
    Question. General Lengyel, I'm extremely proud of the men and women 
of the 115th Fighter Wing located at Truax Air National Guard Base in 
Madison, Wisconsin. Next week, I will attend the Northern Lightning 
Exercises, organized by the 115th, to observe U.S. Air Force F-35A's--
along with F-22's from Langley Air Force Base--participate in an 
operationally realistic, scenario-based, full-spectrum, and high-end 
training exercise. The 128th Air Refueling Wing from Milwaukee will 
also play a critical role. Finally, the ranges that comprise the Volk 
Field Combat Readiness Training Center (CRTC), which is only 50 miles 
away from Truax, put the base in the unique position of being the only 
Reserve Component base with the capabilities needed to perform the 
entire F-35 mission at a single site. From your perspective, how do the 
unique combined capabilities of the 115th Fighter Wing, Truax, Volk 
CRTC, and the 128th fit into the Air National Guard mission? And how do 
those capabilities make Truax a particularly well-suited candidate to 
be one of the next operational locations of the F-35A (Ops 5-6)?
    Answer. The combination of mobility and combat aircraft along with 
the Volk CRTC makes the Wisconsin Air National Guard uniquely 
positioned to provide essential training opportunities and help ensure 
our Airmen remain operationally ready to provide capability whenever 
they are needed. Consolidated training opportunities, such as Northern 
Lightning, are critical to preparing units for the full spectrum of 
global challenges. The F-35 is a key component to enhance the lethality 
and effectiveness of our force against high-end competitors as well as 
a broad range of potential threats. As one of the five final candidate 
bases announced by the Secretary of the Air Force, the 115th Fighter 
Wing at Truax Field is clearly well-suited for the F-35. I am confident 
that the Air Force's Strategic Basing Process will account for the 
particular strengths Truax presents during its site survey next month 
and look forward to the announcement of the final basing decision.
                                 ______
                                 
      Questions Submitted to Lieutenant General Charles D. Luckey
            Questions Submitted by Senator Susan M. Collins
                gao report on sexual assault prevention
    Question. A February 2017 GAO report identified a few shortfalls in 
the Army National Guard's and the Army Reserve's sexual assault 
prevention program staffing, budgeting, and investigation timeliness. 
Does the Army's reserve components have a plan and resources in place 
to fully address the concerns identified by GAO?
    Answer. The United States Army Reserve Command (USARC) has 
identified significant manning shortfalls within its Sexual Harassment 
Assault Response Prevention (SHARP) program that are unique to the Army 
Reserve due to the nature of its mission, structure, and geographical 
dispersion. Staffing requirements were developed for active component 
units that do not address our unique challenges and requirements. As a 
result of the Government Accountability Office (GAO) audit, my staff is 
working with all Army Reserve units to develop a manning concept that 
addresses each organization's issues and requirements. My staff will 
then use that data to develop a staffing concept that best supports 
Army Reserve Soldiers. At the completion of our analysis, we will work 
with Headquarters, Department of the Army to formalize requirements and 
authorizations to support this structure. In regards to budget 
management, USARC SHARP has developed budget guidance, which will be 
provided to commands at their annual training in August. The Army 
Reserve first received funding for the SHARP program in 2016, and we 
will continue to work with commanders to ensure that their requirements 
for funding are addressed. Formal budgetary guidance to subordinate 
commands will be provided to ensure the efficient use of program funds. 
Additionally, we have streamlined the process for Line of Duty 
processing to ensure that victims who require medical assistance are 
not hindered in their recovery by delays in processing. There is now a 
three step process that streamlines the flow of information, while 
better protecting the confidential records of our Soldiers.
         balancing readiness with retention of citizen soldiers
    Question. How can the Army Reserve best balance the readiness and 
operational needs of the total force strategy with the recruitment and 
retention problems that frequent deployments and time away from 
civilian lives can cause?
    Answer. The Army Reserve (AR), in close coordination with 
Headquarters, Department of the Army (HQDA) and United States Forces 
Command (FORSCOM), provides predictability to Soldiers, units, and 
Families by maintaining sustainable unit-level support to meet current 
operational requirements, while improving readiness throughout the 
force. To increase the efficiency of the planning cycle, operational 
requirements are forecasted over a 4-year window aimed at providing 
sufficient notification to units and personnel as they incrementally 
improve readiness. This enables leaders to execute mission essential 
training, align resources, and manage personnel requirements, thereby 
providing the requested capabilities consistent with the deployment 
time line. The risk of maintaining higher unit readiness to meet 
emerging operational demands requires additional participation and 
commitment by all unit members. This causes friction and stress within 
the unit and the Soldier's family, as well as uncertainty for the 
civilian employer. All these factors culminate as recruitment and 
retention challenges. To mitigate this, the Army Reserve utilizes 
several initiatives, incentive programs, and policies to support the 
needs of the force. The Army Reserve uses the following programs and 
incentives to promote readiness and support retention and recruiting 
efforts: Yellow Ribbon Reintegration Program (YRRP) is a 
congressionally-mandated, Department of Defense (DoD)-wide effort to 
promote the well-being of National Guard and Reserve members, their 
families, and communities by connecting them with resources throughout 
the deployment cycle. YRRP events connect Soldiers and their Families/
designated representatives to resources and support before, during, and 
after deployments. Strong Bonds is a Chaplain-led relationships and 
skills training. It targets single Soldiers, couples, and families. 
Strong Bonds enhances unit and individual readiness by building Soldier 
and family relationships, readiness, and resiliency. Comprehensive 
Soldier Family Fitness (CSF2) was established by the Army to increase 
the resilience and enhance the performance of the Army Family--
Soldiers, DA Civilians, and their Family members. The program places 
emphasis on ways to sustain personal readiness and enhance performance 
by learning coping skills. Lodging-In-Kind (LIK) is covered in DoD 
Instruction 1225.9. This DoD policy provide Reserve component personnel 
who travel more than 50 miles from their residence to perform active 
duty or inactive duty training with billeting to the same extent as 
Active component members traveling under orders away from their 
permanent duty station. The Selective Reserve Incentive Program (SRIP) 
is designed to assist the AR in meeting the leadership's end strength, 
readiness and force balancing objectives. It provides recruiting and 
retention incentives to assist in filling critical shortages. 
Incentives are implemented in those situations where other less costly 
methods have proven inadequate in supporting unit and occupational 
skill staffing requirements.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                             mental health
    Question. Vermont is home to the VA's National Center for Post-
traumatic Stress Disorder, and one thing we have come to understand 
through their educational work is that mental healthcare is an aspect 
of physical healthcare. In particular, good mental healthcare practices 
before, during, and after a deployment can decrease the amount of post-
traumatic stress. However, in rural America in particular, mental 
healthcare is difficult to obtain, and in all of America, mental health 
providers are not treated the same as physical health providers by 
insurers or our culture. How are you working to change the perception 
that mental healthcare is something that only applies to some, possibly 
broken, individuals? What policy and legislative changes can improve 
access and availability for Guard and Reserve members, particularly in 
rural areas?
    Answer. The Army Reserve is continually working to reduce the 
stigma associated with behavioral health at both the total population 
level and the individual level. We are addressing the lack of knowledge 
surrounding mental health conditions within our community by defining 
behavioral health as a treatable condition. We mandate unit training on 
a variety of behavioral health issues, which encourages open dialogue 
without persecution or repercussion. The Army Reserve has focused 
efforts on decreasing stigmatizing attitudes and beliefs by equating 
mental health problems to physical injuries that require medical 
attention and can be treated successfully. We fully support the 
individual's right to privacy and implement practices that focus on 
fair and equal treatment for service members that ensure they receive 
appropriate care. Our Army Reserve Psychological Health Program (PHP) 
assists commands in determining individualized care for their Soldiers. 
They can facilitate care coordination at the command or individual 
level. The Army Reserve PHP also provides training, consultations and 
outreach in times of crises. The Army Reserve recognizes that stigma 
remains a challenge. While many of these programs and initiatives work 
on reducing stigma and shifting perceptions of mental health problems, 
we are working toward a comprehensive strategy to reach the goal of 
eliminating the stigma entirely. No change in policy or legislation is 
needed at this time. Rural access to care is more challenging due to 
the limited amount of behavioral healthcare providers in the community. 
In rural areas, Soldiers options are limited. Additional capabilities 
are being reviewed to address this disparity, such as telehealth. 
Currently, each member of the Selected Reserve receives a comprehensive 
medical readiness health and dental assessment in accordance with 
section 10206 of title 10, United States Code. Additionally, DoDI 
6490.12, Mental Health Assessments for Service Members Deployed in 
Connection with a Contingency Operation, requires a person-to-person 
mental health assessment for each member. The continuation of 
behavioral care coverage outside these policies is an ongoing challenge 
since it often requires the Soldier to have their own medical insurance 
coverage.
                   army reserve in rural new england
    Question. Lt. Gen. Luckey, New England is an area of the country 
underrepresented among recruit classes in recent decades, Army-wide. 
How do you intend to ensure geographic diversity among soldiers in the 
Army Reserve particularly with regards to soldiers from New England, 
while balancing responsible use of taxpayer dollars when it comes to 
positioning force structure duty or drill locations? Are there laws or 
policies need to be reviewed to make it easier for soldiers of the Army 
Reserve to serve even when geographically remote from their unit?
    Answer. The United States Army Recruiting Command (USAREC) is 
better qualified to answer recruiting issues because they are 
responsible for manning both the Active Army and the Army Reserve (AR) 
throughout the United States, Puerto Rico, the Virgin Islands, Guam, 
American Samoa, and at U.S. facilities in Germany and Asia. The Office 
of the Chief of Army Reserve (OCAR) G-1 is responsible for developing 
and retaining the correct skills, knowledge, and expertise to align 
with the Army's strategic goals and operational requirements in support 
of the National Military Strategy. The Army Reserve has units in the 
following New England states: CT, ME, MA, NH, RI, and VT. The fill rate 
of the six States combined is 97 percent. Of the six New England 
states, only VT has a fill rate below 80 percent. The majority of the 
units in VT are engineer, transportation and medical units. [NOTE: Fill 
rate = Assigned/Authorized.] Currently, the AR has policies and 
programs that are designed to attract Soldiers to low density units, 
such as those in VT. For example, Inactive Duty Training (IDT) travel 
allows Soldiers who travel more than 150 miles from their unit to be 
reimbursed up to $300 to reduce out of pocket travel expense. In 
addition, the Lodging-In-Kind (LIK) program provides Reserve component 
personnel who travel more than 50 miles from their residence to perform 
active duty or inactive duty training with billeting to the same extent 
as Active component members traveling under orders away from their 
permanent duty station. Finally, the Selective Reserve Incentive 
Program (SRIP) provides recruiting and retention incentives to assist 
in filling critical shortages in those situations where other less 
costly methods have proven inadequate in supporting unit and 
occupational skill staffing requirements.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                    fort mccoy cold weather training
    Question. General Luckey, please provide an update on Fort McCoy's 
cold weather training program, including any efforts to pursue official 
TRADOC approval and certification of the cold weather course, which I 
understand is required for Soldiers to receive qualification for 
attendance. What impact would such official TRADOC sign-off have on 
increasing year-round training throughput?
    Answer. In 2017, Fort McCoy held three Cold Weather Operations 
Courses (CWOC) and trained 42 Soldiers. The eleven-day program of 
instruction (POI) included cold weather familiarization training, 
winter warfare tactics, risk management, winter survival, and life 
saving techniques. The CWOC POI was developed in coordination with the 
US Army Alaska (USARAK), Northern Warfare Training Center (NWTC), the 
TRADOC proponent for cold weather training. The Fort McCoy CWOC POI 
follows the NWTC Cold Weather Leader Course (CWLC) POI. To ensure we 
conduct our cold weather training in a manner consistent with NWTC, all 
the instructors participated in NWTC training. We are also working with 
NWTC, to audit the conduct of Fort McCoy's CWOC to provide feedback for 
future courses. This POI supports our strategic vision for a 
significant capability increase for reserve component units to plan and 
execute a wider range of demanding training in cold regions. Currently, 
only NWTC conducts TRADOC-accredited Cold Weather Leaders Course 
training, but it is not an Additional Skill Identifier (ASI) producing 
course. The NWTC Commandant retains the authority to modify the POI to 
meet evolving USARAK mission requirements. While TRADOC accreditation 
at Fort McCoy could be beneficial, we do not see a lack of 
accreditation impacting current throughput or quality of training; 
however, we will work with NWTC and TRADOC to obtain visibility in the 
Army Training Requirements and Resources System (ATRRS). For fiscal 
year 2018, Fort McCoy will double its CWOC staff to four instructors 
and has scheduled five courses: 8-19 JAN 2018, 22 JAN-2 FEB 2018, 5-16 
FEB 2018, 20 FEB-3 MAR 2018, and 5-16 MAR 2018. We anticipate filling 
the courses to capacity. Fort McCoy also has the flexibility to support 
cold weather exercises. The instructors will advise and assist unit 
cold weather training. We are staffing a request through the chain of 
command to the Department of the Army G4 to re-designate Fort McCoy 
from Climate Zone V to Zone VII for Common Table of Allowances (CTA) 
50-900 purposes. Fort Drum, NY, with similar weather conditions at 
approximately the same latitude, requested and received the same 
climate zone re-designation in 2015. This will allow our Central Issue 
Facility (CIF) to request and issue more appropriate individual extreme 
cold weather equipment, such as vapor barrier boots, arctic mittens, 
and face masks. Currently, we have limited amounts of critical extreme 
cold weather clothing, which can only be issued on a temporary basis to 
support our growing demand. Historically, Fort McCoy has supported 
significant collective cold weather training; however, in the last 
decade, the preponderance of training from DEC-MAR has focused on 
individual and crew qualifications or indoor simulations. Fort McCoy 
has the capacity to host Combat Support Training Program, Exportable 
Combat Training Center, and Operation Cold Steel gunnery exercises, as 
well as platoon and company collective live fire exercises to increase 
force readiness based on Foundational Component of Training 3 
requirements.
                 tactical wheeled vehicle (twv) fleets
    Question. What is the model mix of the Reserve and Guard TWV 
fleets? What is the average age of each model mix and what are the 
shortages by model mix?
    Answer. The Army Reserve Tactical Wheeled Vehicle (TWV) Fleet 
consists of Heavy, Medium, and Light Tactical Wheeled vehicles. The 
fleet includes ten Heavy Tactical Vehicle variants, with the Medium and 
Light fleets consisting of seven models each. On the aggregate, each 
fleet category averages 10 years of age. Based on current documented 
requirements, shortages across all fleets are insignificant. However, 
the Army Reserve is concerned with emerging compatibility gaps as 
modern platforms enter the Army inventory. For example, the 
introduction of the Joint Light Tactical Vehicle (JLTV) to the Army 
inventory in fiscal year 2019 represents mobility and force protection 
upgrades over the legacy High Mobility Multipurpose Vehicle (HMMWV) 
fleet. Based on the Army's resourcing priorities, Army Reserve projects 
a Light Tactical Vehicle modernization gap through fiscal year 2025.
                                 ______
                                 
       Questions Submitted to Lieutenant General Maryanne Miller
            Questions Submitted by Senator Patrick J. Leahy
    Question. Vermont is home to the VA's National Center for Post-
traumatic Stress Disorder, and one thing we have come to understand 
through their educational work is that mental healthcare is an aspect 
of physical healthcare. In particular, good mental healthcare practices 
before, during, and after a deployment can decrease the amount of post-
traumatic stress. However, in rural America in particular, mental 
healthcare is difficult to obtain, and in all of America, mental health 
providers are not treated the same as physical health providers by 
insurers or our culture. How are you working to change the perception 
that mental healthcare is something that only applies to some, possibly 
broken, individuals? What policy and legislative changes can improve 
access and availability for Guard and Reserve members, particularly in 
rural areas?
    Answer. For a number of years, the Air Force has had a global 
campaign to decrease the stigma and encourage normalization of mental 
health as part of the dimensions of wellness (which also include 
physical, social, and spiritual health). Promotion of Wingman Day 
activities, resilience, and Comprehensive Airman Fitness programs 
remove mental health from a ``medical'' problem to an area addressed 
and promoted by commanders as a normal part of preventative health and 
readiness. When Reserve Component members are placed in an active duty 
status, they are eligible for TriCare mental health services or the 
Behavioral Health Optimization Program (BHOP) through the local 
military treatment facility or deployed medical unit, along with Family 
Advocacy and all other support programs available to Regular Air Force 
members. Though traditional, or part-time, Reserve Component members, 
are not eligible for active duty benefits, there are other resources 
available to serve them: (1) Military Family Life Consultants (MFLCs) 
are licensed contract counselors who work outside of the military 
treatment facilities to provide anonymous and confidence assistance to 
all military members (include Reserve Component) in problem solving 
issues resulting from deployment, reunions, reintegration, and/or other 
times of change. They also provide financial counseling. (2) Directors 
of Psychological Health (DPH) are licensed clinical civilian social 
workers assigned to Reserve units and were authorized under the 
National Defense Authorization Act 2012, Sec 703. DPH's provide non-
clinical services to reservists and their families during unit training 
assemblies or during the week to include training and education, 
consultations and referrals, needs assessments, suicide prevention, 
resiliency building, crisis intervention and command advisement on 
psychological and mental health issues. (3) Air Force Reserve Command 
Psychological Health Advocacy Program (PHAP). The PHAP Team, through 
telephone calls and/or site visits, provides psychological health 
referral services to AFRC Reservists and their families to include 
referral information, follow-up of services rendered, provide outreach 
services at all AFRC Yellow Ribbon events and assistance to AFRC 
installation leaders with mental health issues within three regions in 
the U.S. and Guam. The PHAP Team is not authorized to counsel, 
diagnose, or treat any person requesting assistance. (4) Invisible 
Wounds of War Initiative (IWW). This year-old initiative is the result 
of surveys and interviews completed with military members diagnosed 
with PTSD and TBI. The major gaps and barriers identified by this 
research in the medical, personal, and judiciary arenas prompted an 
effort to overhaul how care is given to members with brain illnesses to 
streamline processes and increase access. The Reserve Component has a 
special working group as part of the initiative to ensure Reserve-
specific issues are addressed. Most important is that policy and 
funding changes must reflect a cultural shift away from only treatment 
focus and toward one that also includes mental health education and 
awareness. As noted above, brain illness (depression, anxiety, PTSD, 
TBI, etc) must be an integrated component of medical health. Mental 
health on a broader scale must be approached as a normal component of a 
healthy lifestyle, just as with diet or exercise. Mental health is not 
a disease set, it is a fundamental part of our own wellness. 
Legislation could to be written to formally desegregate mental/brain 
health from medical health in prevention initiatives, awareness 
campaigns, insurance legislation, education of all varieties of medical 
professions (in collaboration with the varying disciplines' governing 
boards), and in the allocation of grants for health workers in rural 
areas. One possibility is to expand, fund, and staff the Public Health 
Service to include Rural Area/Regional mental health teams (provider, 
nurse, admin) to educate, assess and serve all individuals in a rural 
area ( which will include many Reservists). To ensure a pool of the 
most capable and qualified mental health professionals for Reserve 
members, both in out-patient and in-patient environments, providers 
need to be compensated appropriately for their work by both employers 
and insurance companies. Expand the resources for Telehealth and make 
this a normal benefit of being in the Reserve Component, not a 
condition of active duty service or status (similar to the DPH).
                            employer support
    Question. We often discuss the value of employing an individual 
serving in the Guard or Reserve based on the skills and perspective 
they bring to the job. Many employers have enthusiastically embraced 
that benefit, but with the reserves becoming more often engaged in 
operations and the increased training that brings, we are inadvertently 
removing employers' prime benefit. Are there increased stresses in the 
relationship between employers and their citizen-warriors? In the era 
of the operational reserve, what benefits associated with hiring a 
member of the Guard or Reserve are most desirable to employers?
    Answer. The last 26 years of continuous operations has increased 
the need for the citizen-warriors of the Air Force Reserve (AFR) to 
serve our country. Defending our Nation comes with a price which is 
shared by all, to include our AFR members, their families and their 
employers. Despite this challenge (compounded further by on-going 
fiscal constraints), we have been able to maintain many great 
relationships with employers of our Airmen. However, some employers do 
have concerns about the amount of time AFR members are required to 
perform their military duties. To address this, we have made additional 
efforts to meet with industry leaders, especially the airlines, to 
identify and work towards an amicable solution to reduce stress and 
meet the needs of all parties. Our intent is to improve communication 
between employee and employer and identify opportunities to minimize 
confusion/frustration. In particular, AFR commanders must remain 
vigilant to the potential hardships of employers when approving short 
notice orders for military duty. Each commander knows the importance of 
considering the impact on the employer and whether the training must be 
accomplished during peak work cycles within various industries and 
employment sectors. AFR leaders at all levels must continue to maintain 
the balance between mission, civilian employer, and family for each 
Airman in order to better sustain a healthy operational reserve. Our 
members are proud of their service and dedicated to defending our 
Nation while at the same time, are loyal and committed to the 
objectives of their civilian employers. Employers understand the value 
of these unique character traits which military members bring to the 
job as well as the technical expertise and ability to solve problems 
under difficult circumstances. They know that when they hire members of 
the AFR, they are receiving the benefit of an employee who understands 
the importance of leadership, teamwork, discipline and sacrifice. This 
is why, despite the demands of military service over the last 26 years, 
employers will continue to hire and work with AFR citizen-warriors and 
welcome them into their organizations.
                                 ______
                                 
          Questions Submitted to Vice Admiral Luke M. McCollum
            Questions Submitted by Senator Patrick J. Leahy
                             mental health
    Question. Vermont is home to the VA's National Center for Post-
traumatic Stress Disorder, and one thing we have come to understand 
through their educational work is that mental healthcare is an aspect 
of physical healthcare. In particular, good mental healthcare practices 
before, during, and after a deployment can decrease the amount of post-
traumatic stress. However, in rural America in particular, mental 
healthcare is difficult to obtain, and in all of America, mental health 
providers are not treated the same as physical health providers by 
insurers or our culture. How are you working to change the perception 
that mental healthcare is something that only applies to some, possibly 
broken, individuals? What policy and legislative changes can improve 
access and availability for Guard and Reserve members, particularly in 
rural areas?
    Answer. Navy views mental health on an overall wellness spectrum, 
with the goal of decreasing stigma through changing perceptions of 
mental health from the disease model, to one of prevention and 
wellness, by encouraging service members to seek help when concerns are 
more manageable. Active programs with this established goal include:
  --Caregiver Occupational Stress Control (OSC) that involves clinical 
        caregiver training, peer-support, and unit assessments,
  --Mind Body Medicine (improving mental fitness, resilience and self-
        care),
  --Special Psychiatric Rapid Intervention Team (disaster mental health 
        response),
  --Embedded Operational Mental Health (embedding mental health into 
        operational platforms),
  --Fleet and Marine-wide OSC training (routine training in OSC at the 
        deckplate), and
  --The Behavioral Health Integration Program embeds mental health 
        providers in primary care clinics, providing resources to 
        Sailors, Marines, and their families who may not have a mental 
        health diagnosis, but struggle with medical, occupational, 
        social, or family challenges.
    The Navy's Psychological Health Outreach Program (PHOP) ensures 
that the Reserve component and their families have access to mental 
health services. PHOP reaches out to Reserve Sailors from the beginning 
of their military career through discharge or retirement, creating a 
safety net for Reservists who may have otherwise ``fallen through the 
cracks.'' Services include: command consultations, psycho-educational 
briefings, behavioral health screenings, and 24/7 phone/email on-call 
services to ensure clients receive needed resources and services. PHOP 
providers are located across the United States--stationed at Navy 
Operational Support Centers and Marine Force Reserve Units. PHOP staff 
work closely with Reserve Commands to ensure all Reservists, including 
those in rural areas, receive outreach. We are grateful for the 
congressional support that has been bestowed upon us as explore 
innovative healthcare technologies in support of improving access for 
service members in remote areas and to address their unique healthcare 
needs.
                            employer support
    Question. We often discuss the value of employing an individual 
serving in the Guard or Reserve based on the skills and perspective 
they bring to the job. Many employers have enthusiastically embraced 
that benefit, but with the reserves becoming more often engaged in 
operations and the increased training that brings, we are inadvertently 
removing employers' prime benefit. Are there increased stresses in the 
relationship between employers and their citizen-warriors? In the era 
of the operational reserve, what benefits associated with hiring a 
member of the Guard or Reserve are most desirable to employers?
    Answer. The stressors involved in the relationship between 
employers and Citizen-Sailors increase when a Sailor enters the 
mobilization continuum. Multiple mobilizations can add to the stress 
involved between Sailors and their employers. Since the 9/11 attacks, 
over 14,000 Sailors have mobilized at least twice, with almost 4,000 
mobilizing three or more times. As ongoing operations continue, more 
Sailors will fall into the aforementioned categories. Employers are 
stressed in the management of staff to support their Sailor's 
mobilizations, particularly smaller employers. Upon return from 
mobilization, Sailors experience stress as they go through the re-
integration process with their civilian employers and families. The key 
to reducing stress on both parties is following the established 
Uniformed Services Employment and Reemployment Act (USERRA) timelines; 
specifically the notification of mobilization orders, anticipated 
return from orders and subsequent return to the civilian workplace. In 
2010, across DoD, the Employer Support of the Guard and Reserve (ESGR) 
office handled 3,202 ombudsman level mediation cases between reservists 
and their employers. In 2016, this number dropped to 1,554, roughly a 
50 percent reduction. Although this can possibly be attributed to the 
overall reduction of reservist mobilizations over time, better 
communication between service members and employers, along with 
improved USERRA understanding, has contributed greatly to easing the 
stresses between the two. Citizen-Sailors bring varied and unique skill 
sets to the civilian workforce which makes them coveted by employers. 
The following are just a few of the traits Sailors provide to civilian 
employers:
  --Leadership--Sailors are trained and immersed in a culture of 
        leadership, understanding how to lead and support employer 
        goals and missions.
  --Perspective/Diversity--Sailors are exposed to a global perspective 
        and can incorporate this perspective into the civilian 
        workforce. They have experience with working and succeeding in 
        a diverse workforce.
  --Responsibility--In their military service, Sailors are given high 
        levels of responsibility very early on. This is rare commodity 
        amongst their civilian peers.
  --Professionalism--A Sailor's honor, courage and commitment to the 
        organization's mission can be relied upon by the employer to 
        get the job done. A Sailor comes from a culture of integrity 
        which will spread throughout the company.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                         additional rotc units
    Question. I am an advocate of establishing a Navy ROTC unit in 
Hawaii. Multiculturalism, diversity, and critical languages: these are 
some of the strengths the people of Hawaii bring to the Navy Reserve. I 
know the decision to stand up additional ROTC units rests largely with 
the Navy, and it comes down to what funding is available. Can you offer 
thoughts on how a Navy ROTC unit in Hawaii would add value to the Navy 
and Navy Reserve?
    Answer. The authority to establish and maintain an additional Naval 
Reserve Officers' Training Corps (NROTC) unit is at the discretion of 
the Secretary of the Navy. Significant factors that influence the 
decision are available funding, personnel resources, and officer 
accession requirements. Currently, the NROTC program provides funding 
and personnel resources to sustain 77 host units throughout the United 
States and has sufficient capacity to meet present and future officer 
accession requirements. The strengths that you list for universities 
located in Hawaii are important characteristics that the NROTC program 
values in colleges and universities; however, the current profile of 
NROTC host units is replete with colleges and universities with similar 
characteristics. Specifically, the NROTC program's 77 host units and 
their cross-town affiliations are geographically dispersed at 93 public 
and 73 private institutions, associated with 7 of the 8 Ivy League 
institutions, and located at 23 of the top 30 Best National 
Universities and 7 of the top 10 Historically Black Colleges and 
Universities as listed in the 2017 Edition of the U.S. News and World 
Report. The NROTC program leverages its colleges and universities to 
provide a variety of academic majors, enhance diversity of thought, and 
furnish the Navy with academically proficient, morally sound, and 
physically fit active duty officers. To ensure existing host units 
continue to exhibit characteristics beneficial to their respective 
Services, the Department of Defense reissued Department of Defense 
Instruction 1215.08, signed January 19, 2017, directing the Secretaries 
of the Military Departments to develop Service-specific performance 
measures and criteria to assess host units annually. As clarification 
for future inquiries, the NROTC program commissions only active duty 
officers into the Navy. Therefore, any NROTC unit expansion would not 
affect the Navy Reserve. If colleges and universities in Hawaii desire 
to host an NROTC unit, the first step in the process is for the college 
or university to submit an NROTC host unit application to Naval Service 
Training Command. Should the Navy and Marine Corps mission demonstrate 
a need for future NROTC unit growth, the Navy will review and assess 
the over 180 universities and colleges with NROTC unit applications on 
file. Meanwhile, students graduating from Hawaii colleges and 
universities, who seek a Navy commission, may submit an application to 
the Navy's Officer Candidate School.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
              force protection upgrades at navy facilities
    Question. In response to the 2015 attacks on a military recruiting 
office and a Navy Operational Support Center in Chattanooga, Tennessee, 
in which Wisconsin native Marine Sergeant Carson Holmquist was 
tragically killed, I introduced the Military Facilities Force 
Protection Act to upgrade the physical security of military facilities. 
Recent appropriations bills included funding for these enhancements and 
required the Department of Defense to report on completed and planned 
actions and the funding needed for those actions. Please provide an 
update on completed and planned force protection upgrades, both 
physical and operational, at U.S. Navy Reserve facilities in Wisconsin.
    Answer. The Navy is implementing several physical security and 
force protection upgrades at the three Navy Operational Support Centers 
(NOSCs) in Wisconsin. NOSC Milwaukee: A facilities project to upgrade 
the physical security and force protection for NOSC Milwaukee was 
awarded December 2016 and is expected to be complete in the summer of 
2018. The estimated cost for NOSC Milwaukee upgrades is $1.8M. The 
project will install window film, replace doors, windows and hardware, 
perimeter fence improvements and install an electronic security system. 
NOSC Madison and NOSC Green Bay: The planning and design efforts for 
physical security and force protection upgrade projects at NOSC Madison 
and NOSC Green Bay will begin soon enabling Command Navy Installations 
Command (CNIC) to award those projects in fiscal year 2018. Operational 
Force Protection upgrades: The Navy has implemented mass warning and 
notification capabilities and DoD trained and qualified armed watch 
standers at all 71 off-installation NOSC facilities nationwide. This 
includes all NOSCs in Wisconsin.
                                 ______
                                 
       Questions Submitted to Lieutenant General Rex C. McMillian
            Questions Submitted by Senator Patrick J. Leahy
                             mental health
    Question. Vermont is home to the VA's National Center for Post-
traumatic Stress Disorder, and one thing we have come to understand 
through their educational work is that mental healthcare is an aspect 
of physical healthcare. In particular, good mental healthcare practices 
before, during, and after a deployment can decrease the amount of post-
traumatic stress. However, in rural America in particular, mental 
healthcare is difficult to obtain, and in all of America, mental health 
providers are not treated the same as physical health providers by 
insurers or our culture. How are you working to change the perception 
that mental healthcare is something that only applies to some, possibly 
broken, individuals? What policy and legislative changes can improve 
access and availability for Guard and Reserve members, particularly in 
rural areas?
    Answer. Mental Illness is still stigmatized and needs to be looked 
at in the following construct: Just like other illnesses, Mental 
Illness is a multifactorial entity with various biopsychosocial-
contributing factors. By pulling back the veil and encouraging the 
involvement of a support network The Marine Corps has taken steps 
through the past few years to reduce the stigma of seeking mental 
health help. One of the key phrases utilized in Operational Stress 
Control and Readiness (OSCAR) training is ``it's ok not to be ok.'' 
Additionally, through the leadership panel portion of OSCAR training, 
leaders provide either personal testimonial or speak to the importance 
of seeking help and how the command stands behind those who seek it. 
Marines are encouraged to seek help without fear of repercussions. 
Marine Corps Commanders are trained to recognize that there are a 
number of different factors that contribute to the health and well 
being of their Marines. Just as mental illness is multifactorial, so is 
our method of treating it. Through a holistic approach leveraging the 
combined strengths of the Marine Corps Community Services, the Marine 
Forces Reserve Psychological Health Outreach Program (PHOP), the 
Chaplain Corps and Health Support Services we provide the Marine and 
their family with a full spectrum of options and care. Throughout this 
process, we emphasize that just as no one needs to feel ``shame'' for 
contracting any other illness (viral, bacterial, cardiovascular, 
cancer, etc.), the illnesses categorized as mental/behavioral health, 
are to be addressed and treated openly and aggressively without any 
stigma. This treatment involves all spectrum of care, from medical (MD, 
nursing), Psychiatric and psychological, to LPC/LCSW, to spiritual-
existential (meaning) moral dimensions (Chaplains and Religious Program 
Specialists). We actively promote available resources, and encourage 
our Marines and families to get the help they need. The Marine Corps' 
commitment to healthcare is evident through health assessments, 
counseling, family support services, and treatment. We encourage 
service members to ask for help, train our providers to provide the 
best care possible, and ensure crucial resources/programs are 
available. We also work hard to make sure our Marines and our Marine 
family members have access to support and mental health services. 
Taking care of their psychological welfare is a critical part of the 
overall health of our Corps. The fiscal year 2015 NDAA mandates Mental 
Health Assessment (MHA) completion once during each 180-day period 
during which a member is deployed (ending January 1, 2019). Coupled 
with the PDHRA done 90-180 days after deployment return (DoDI 6490.03, 
DD 2900) and the expected summer implementation of the MHA component on 
the Annual Periodic Health Assessment (DoDI 6200.06, DD Form 3024), 
access to identification and treatment of mental health issues has 
increased for the Reserve components. Marine Forces Reserve is greatly 
dependent upon the Reserve Health Readiness Program (RHRP) to complete 
timely MHAs. When MHAs are completed within the required timeframe 
mandated by fiscal year 2015 NDAA and DoDI 6490.03, Marines have a 
greater chance of being diagnosed, referred and authorized to receive 
follow up care. Currently MARFORRES is operating under a $5.4 million 
budget; however, this funding has proved insufficient. Over a 2 month 
period, a lack of funding resulted in the cancellation of 20 mental 
health assessment events, impeding timely assessment and treatment of 
thousands of Marines. The purpose of the assessment is the early 
identification of mental health symptoms and conditions, to include 
identifying individuals at risk for suicide and post-traumatic stress 
disorder (PTSD), suicidal tendencies, as well as other behavioral and 
mental health conditions that require referral for additional care. If 
left unidentified, undiagnosed, or untreated, mental health issues can 
adversely affect individual and unit readiness as well as the safety of 
the service member and of those with whom he/she interacts including 
the unit, family, and community. The PHOP Resiliency Check-in (RCI) has 
been very successful due to the confidential nature of the screening/
assessment and enabled us to work preventively to identify risk factors 
and provide preventive resources. The RCI is a comprehensive process 
completed by PHOP in which the reservists are assessed, resourced/
referred, and receive follow-up from the same staff member. This 
continuity of care has proven more successful than programs or 
screenings in which one provider completes the assessment such as the 
MHA and then the PHOP staff follow-up to resource the reservists and 
ensures treatment follow through. The networking our staff do to 
connect reservists to providers in their local communities has been 
very beneficial to the reservists in rural areas.
                            employer support
    Question. We often discuss the value of employing an individual 
serving in the Guard or Reserve based on the skills and perspective 
they bring to the job. Many employers have enthusiastically embraced 
that benefit, but with the reserves becoming more often engaged in 
operations and the increased training that brings, we are inadvertently 
removing employers' prime benefit. Are there increased stresses in the 
relationship between employers and their citizen-warriors? In the era 
of the operational reserve, what benefits associated with hiring a 
member of the Guard or Reserve are most desirable to employers?
    Answer. Stresses occur between employers and citizen warriors at 
the individual level when service members are called to active duty and 
employers have to adjust work schedules, hire additional employees, or 
assimilate reservists back into employment following their completion 
of duty. Therefore, the short answer is, ``Yes.'' However, these 
stresses are reduced through advance notification by service members, 
continued communication by service members while they are away from the 
employer, and the involvement of Employer Support of the Guard and 
Reserve (ESGR). ESGR educates both employers and service members about 
their rights and responsibilities under the Uniformed Services 
Employment and Reemployment Rights Act (USERRA). They also provide 
information and resources that mitigate the challenges employers and 
service members face as they make transitions to and from periods of 
active service. The current trend of stressors between employers and 
their citizen warriors is going down. This is evidenced by the number 
of USERRA inquiries made by both employers and service members and 
cases assigned to ESGR ombudsman. There were 34,612 USERRA-related 
inquires made in 2010 as compared to 15,155 made in 2016. There were 
3,202 cases assigned to ombudsman for mediation in 2010 compared to 
1,554 in 2016. In terms of percentages, that is about a 50 percent 
reduction in inquires and complaints from employers and service members 
over the last 6 years. While this trend has been impacted by the 
overall reduction in reserve component deployments since 2010, further 
indicators show a strengthening of the employer and service member 
relationship. ESGR's Patriot Awards program recognizes supervisors who 
go above and beyond to support their service member employees; the last 
5-year average has remained steady at approximately 10,600 Patriots 
Awards presented each year despite the reduction in deployments. ESGR 
also saw a 5-year-high 3,064 nominations for the Secretary of Defense 
Employer Support Freedom Award this year. When putting the employer and 
service member relationship into perspective in relation to the total 
number of reserve component members serving today, the raw numbers 
demonstrate a fairly low level of stress across the workforce. Out of 
the total 880,000 reserve component members who are employed, the 
15,551 inquiries made to ESGR this past year represents an extremely 
small percentage (1.7 percent) of instances where stresses rose to the 
level of a query from the employer or service member. We often hear 
from employers about the qualities our citizen warriors bring to the 
workforce. In addition to some of the very tangible benefits to 
employers, such as the variety of tax credits that can reduce their 
Federal business tax liabilities, employers value the character traits 
our service members bring to the workplace. ESGR has compiled some of 
this feedback into a listing of the top reasons employers hire reserve 
component service members:
  --GLOBAL PERSPECTIVE: Reserve component employees have experiences 
        that directly relate to current world events.
  --PUNCTUALITY: Reserve component employees know the value of being on 
        time, every time.
  --POSITIVE IMAGE: Reserve component employees understand a 
        professional appearance is a must.
  --CALM UNDER PRESSURE: Reserve component employees are resilient and 
        know how to handle stress, both on and off the job.
  --CAN-DO ATTITUDE: Reserve component employees possess critical 
        skills and understand that challenges can be overcome.
  --PHYSICAL CONDITIONING: Reserve component employees are in top 
        physical condition, resilient, and drug-free.
  --UNDERSTAND DIVERSITY: Reserve component employees succeed in a very 
        diverse workplace.
  --RESPONSIBILITY: Reserve component employees know how to make 
        decisions and take responsibility for meeting objectives.
  --PROFESSIONALISM: Reserve component employees have a high degree of 
        integrity, an air of self-respect, and a sense of honor.
  --LEADERSHIP: Reserve component employees are excellent leaders and 
        outstanding followers: loyal, dedicated, and highly motivated.

                          SUBCOMMITTEE RECESS

    Senator Baldwin. The Defense Subcommittee will reconvene on 
Wednesday, May 3 at 10:30 a.m. to receive testimony from the 
Deputy Secretary of Defense on the topic of Defense Innovation 
and Research.
    I appreciate all of you for your assistance to the 
Committee.
    And with that, the subcommittee stands in recess.
    [Whereupon, at 11:59 a.m., Wednesday, April 26, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 3.]


</pre></body></html>
